<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2019

_____________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                                _______

              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT,
                          AND RELATED AGENCIES

                   MICHAEL K. SIMPSON, Idaho, Chairman

  KEN CALVERT, California                 MARCY KAPTUR, Ohio
  CHARLES J. FLEISCHMANN, Tennessee       PETER J. VISCLOSKY, Indiana
  JEFF FORTENBERRY, Nebraska              DEBBIE WASSERMAN SCHULTZ, Florida
  KAY GRANGER, Texas                      PETE AGUILAR, California
  JAIME HERRERA BEUTLER, Washington       JOSE E. SERRANO, New York
  DAVID P. JOYCE, Ohio
  DAN NEWHOUSE, Washington

  
  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                   Angie Giancarlo, Loraine Heckenberg,
                       Perry Yates, and Amy Murphy
                            Subcommittee Staff

                             _______________

                                  PART 5

                                                                   Page
  U.S. Army Corps of Engineers and 
Bureau of Reclamation.............................................    1                                                                       
  Secretary of Energy.............................................   95                                                                      
  National Nuclear Security Administration .......................  219 

                                                                   

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                   

                                __________

          Printed for the use of the Committee on Appropriations

                                _________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  32-414                   WASHINGTON : 2018

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\         NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama         MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                  PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho           JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas         ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas               DAVID E. PRICE, North Carolina
  KEN CALVERT, California             LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                  SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida          BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania       BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                 TIM RYAN, Ohio
  KEVIN YODER, Kansas                 C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas              DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska          HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida           CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee   MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington   DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California        GRACE MENG, New York
  ANDY HARRIS, Maryland               MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada              PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus 
  
  

                   Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   
                                   


 ENERGY AND WATER DEVELOPMENT AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2019

                              ----------                             


                                         Wednesday, March 14, 2018.

           ARMY CORPS OF ENGINEERS AND BUREAU OF RECLAMATION

                               WITNESSES

R.D. JAMES, ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS
TIMOTHY PETTY, ASSISTANT SECRETARY FOR WATER AND SCIENCE, DEPARTMENT OF 
    THE INTERIOR
LIEUTENANT GENERAL TODD SEMONITE, COMMANDING GENERAL AND CHIEF OF 
    ENGINEERS
BRENDA BURMAN, COMMISSIONER, BUREAU OF RECLAMATION
    Mr. Simpson. Good morning. I would like to call this 
hearing to order. And welcome to our first hearing of the 
fiscal year 2019 budget season.
    It seems a little strange doing the 2019 hearings, when we 
haven't finished 2018 yet, but I don't know if any of your 
testimony today would change depending on what happens in 2018.
    Anyway, today's hearing will review the budget request for 
the Civil Works Program for the U.S. Army Corps of Engineers 
and the Bureau of Reclamation.
    Before we turn to the Budget request, though, I would like 
to take a moment to congratulate our ranking member, Ms. 
Kaptur. On Sunday she will become the longest-serving female 
Member of the House of Representatives.
    As we have worked on this committee, I have come to see 
that she is a passionate advocate for her constituents in her 
home State of Ohio. They have been lucky to have her in 
Congress, these many years.
    So, Marcy, congratulations on a remarkable accomplishment, 
and I look forward to continue our work together, as you extend 
your record-setting tenure here in the House.
    (Applause.)
    Ms. Kaptur. Thank you.
    Mr. Simpson. I would like to welcome our witnesses, most of 
whom are appearing before our subcommittee for the first time. 
Mr. R.D. James is the Assistant Secretary for the Army, for 
Civil Works; Lieutenant General Todd Semonite, is the 
Commanding General and Chief of Engineers; Dr. Timothy Petty is 
the Assistant Secretary for Water and Science at the Department 
of Interior, and knows something about Idaho, having worked for 
Senator Risch. And Ms. Brenda Burman is the Commissioner for 
the Bureau of Reclamation.
    I look forward to hearing from each of you on this budget 
request, and learning more about the priorities included in 
this proposal and how it will address the nation's water 
resource needs.
    The Bureau of Reclamation and the Corps of Civil Works 
Programs, include a wide variety of water resources and power 
activities essential to the public's safety, economic and 
environmental goals of our nation.
    That is why it is disappointing to see such limited budget 
requests for these agencies year after year. It doesn't matter 
whether it is a Republican or Democratic administration, OMB 
cuts these budgets knowing Congress will provide additional 
funds, and I think it is safe to say, we will provide 
additional funds again this year from the budget 
recommendations.
    The Corps and Reclamation would be much better positioned 
to advance projects and studies quickly and at a lower cost if 
there was an ability to plan ahead. OMB's unrealistic budget 
restrictions, however, force the agencies to focus on smaller 
increments of work, with no assurances of future funding.
    Congress on the other hand, clearly recognizes the 
importance of both these programs as evidenced by funding 
levels provided in recent fiscal years, I expect this committee 
will once again work to develop an appropriations bill that 
provides strong support for these programs, that strikes a good 
balance across mission areas, including navigation, flood and 
storm damage reductions, environmental restoration, hydropower 
and water supply delivery.
    Again, I would like to welcome our witnesses to the 
subcommittee. I would ask all of you to please ensure that the 
hearing record, questions for the record, and any supporting 
information requested by the subcommittee are delivered in the 
final form to us no later than four weeks from the time you 
receive them.
    Members who have additional questions for the record, will 
have until the close of business on Monday to provide them to 
the subcommittee office.
    And with that, I will turn to my ranking member, Ms. Kaptur 
for any opening remarks that she may have.
    Ms. Kaptur. Thank you, Mr. Chairman. Thank you for your 
kind remarks. And chairman of our full committee, Congressman 
Frelinghuysen, a dear, dear friend, it is a great pleasure to 
serve with you, and to steward this country during our tenure 
here.
    We welcome our witnesses this morning; Assistant Secretary 
James, General Semonite, Assistant Secretary Petty, and 
Commissioner Burman. Thank you so much for being here today to 
discuss the administration's fiscal year 2019 budget request. 
We appreciate your appearing before our subcommittee.
    You collectively represent the water part of our Energy and 
Water bill. What an important piece it is.
    As the administration ponders investing in infrastructure, 
I believe you have an extraordinary opportunity to lead the way 
for the nation, and hopefully you will be able to address the 
$96 billion construction backlog over 454 authorized active 
construction projects, which include $20 billion in dam safety. 
Personally, I believe the President should start there, with 
his infrastructure initiative.
    For any new infrastructure bill, I believe we must 
prioritize resilient infrastructure, and find innovative 
solutions that incorporate environmental components of a new 
age.
    Adequate maintenance of existing projects and new 
investments in green infrastructure, when combined with 
strategic regional and urban planning and policies to allow us 
to stay ahead of the water challenges that lay before our 
nation as we experience more extreme precipitation events, both 
droughts and inundations.
    In Ohio, my part of our country, we are experiencing surges 
of excess rainfall, which are exacerbating our nutrient runoff 
problem at historic levels, and causing massive algal blooms. 
At the blooms' peak this past summer, over 1,000 square miles 
of Lake Erie were covered in the green slime, threatening our 
maritime industry.
    In the West, water flow into the Colorado River this year 
is forecast to be just 54 percent of the typically expected 
amount.
    Today, Lake Mead is at 40 percent of capacity, and if the 
water drops just 13 more feet, it will trigger Federal rules 
that cut the amount of water supply to Nevada, Arizona and 
California. Yet, in 2016, the most recent data, those states 
combined increase their population by 431,000 persons.
    Texas dealt with rain in a class of its own during 
Hurricane Harvey where 60 inches of rain, a trillion gallons of 
water, enough to fill the Houston Astrodome more than 3,300 
times over, fell in just a few short days.
    The Corps was forced into a terrible situation, released 
water from the Addicks and Barker dams near Houston, or risk 
catastrophic dam failure. What a terrible choice.
    In Florida, Hurricane Irma brought catastrophic 
destructions in Everglades City, in the form of an 8-foot storm 
surge. Hurricane Maria devastated the lives of 3.5 million 
Americans in Puerto Rico, and families are still dealing with 
the aftermath of that category 4 storm.
    Ten percent of the population still will not have 
electricity at the conclusion of this month. And many have fled 
the island for the U.S. mainland with Puerto Rico's Government 
estimating that 200,000 citizens, more than 5 percent of its 
population will leave by end of this year.
    Perhaps most startling, Puerto Rico saw 29 percent increase 
in suicides in 2017.
    As we watch these terrifying events occur in our country, 
around water, I am reminded of the crisis the citizens of Cape 
Town, South Africa, are facing at the moment. In order to stave 
off the total disaster of no water services, residents are 
currently being rationed to only 13 gallons of water per person 
per day.
    It is up to your agencies, to weigh these developments and 
determine how to avoid getting into a situation like the one in 
Cape Town.
    But it also means that we here in Congress, must think 
strategically about how to invest intelligently in long-term 
solutions, that will be resilient in the face of changing 
precipitation patterns.
    Unfortunately, your budget is woefully inadequate to 
address the issues that we face in these domains. I cannot 
pretend to be terribly surprised or upset though, because it 
seems that it does not matter which party controls the 
executive branch, this story remains the same, year to year, 
and administration to administration.
    The story in this legislative branch, I imagine, will 
continue as well, as we will continue to work to increase 
funding to support these important water resource projects, but 
it will be inadequate.
    And as we have seen, your work provides a great opportunity 
for job creation and community investment, as these projects 
created construction jobs and encourage locals to become 
stakeholders in their surroundings, from supporting agriculture 
to encouraging international commerce, the Corps and 
Reclamation provide critical underpinnings to our country.
    Yet, too often we increasingly struggle in the active 
balancing our local economies, our infrastructure needs, and 
preserving our fragile ecosystems.
    We as a nation, we were once pushing the boundaries of what 
was achievable in infrastructure, and yet now we are known for 
failing to maintain and modernize those very networks.
    Before us is a budget that is scarce, and unable to fund 
the robust infrastructure revitalization that our water system 
so desperately need.
    Toxic algal blooms, Great Lake's dredging needs, the 
invasion of the Asian carp, and an overall improved policy of 
environmental care and awareness cannot be carelessly pushed to 
the back burner yet again.
    And I urge you to address each of these issues with our 
fragile Great Lakes and ports in mind. We must keep our ports 
and our water projects open for business, however, this come at 
the expense of our water security, the safety and quality of 
our drinking water, or the environmental integrity of our 
precious ecosystems.
    I expect you will speak to these concerns today, and I look 
forward to our discussion. Thank you.
    Mr. Simpson. It is now my honor to recognize my boss, 
Chairman of the full committee, Mr. Frelinghuysen.
    The Chairman. I can assure you, Mr. Simpson has no boss.
    Mr. Simpson. Yeah, my wife. (Laughter)
    The Chairman. I don't have any prepared remarks but I did 
want to take an opportunity to thank Chairman Simpson and his 
staff for the good work that they do. It is a very bipartisan 
committee.
    And let me give a shout out to Ms. Kaptur, she has been on 
the committee for a long time. And I will be finishing my 24th 
year. So I do want to take this opportunity to obviously thank 
Mr. Simpson and his staff for the remarkable things they have 
done, to put together the 2018 budget which we did about six 
months ago, and hope we will get it across the finish line in 
the next couple of days. But it has been done, and I think in a 
very amicable way. And obviously the chairman's good humor 
contributes to a process that has worked pretty well.
    I did want to take the opportunity, to you Mr. Secretary, 
and you General Semonite, to thank the Corps for the remarkable 
things that I have seen over 20-plus years. I mean, time has 
passed, but we look at the Vulcans, and the horrendous genocide 
that occurred there.
    Often it was the Army Corps, some of your comrades, 
civilians and those in uniform who, sort of, laid the 
groundwork for our efforts over there. Maybe it was an 
imperfect piece, but in reality, the army often is responsible 
for the deliveries, and the Corps.
    And may I say, if you look across the Middle East, and many 
of those associated with your operation, Mr. Secretary, 
obviously doing remarkable things back here at home, but 
oftentimes volunteered, in some really difficult, dangerous 
locations. That continues today throughout the world, but 
particularly in the Middle East.
    And I just wanted to pay tribute. And coming from my neck 
of the woods, we don't forget the role of the Army Corps, and 
after September 11, 2001, on the pile, and off the pile, the 
things that were done on behalf of the citizens of 80 countries 
but certainly the residents of New York and New Jersey. And I 
am sure I would share our gratitude for all the activities that 
you are responsible for.
    We know that people like to damn the Corps, no pun 
intended, and you don't get enough praise, but I would like to 
say that, as we look across the devastation of the last year, 
in Texas, Florida, the Virgin Islands and Puerto Rico, you know 
from time to time there have been some severe criticisms of 
Federal support, but I would like to say that, I think we have 
given you some money, even though we had a rather disjointed 
appropriations process, through continuing resolutions we 
intensely dislike.
    But I think you have performed admirably, and we are 
counting on you to fulfill a lot of obligations because all of 
those, the residents of those states are for all American 
citizens, and they anticipate that you will continue at a very 
level, and high standards.
    So, on behalf of, you know, 20-plus years on this 
committee, and I am sure on behalf of all of us, we thank you 
for the good work you are doing, and we really count on you 
doing even a better job in the future.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you, Mr. Chairman. And I would echo the 
comments of Mr. Frelinghuysen, and thank you for the work that 
you do.
    I understand that Mr. James, you are going to be first.
    Mr. James. Thank you, Mr. Chairman, and members of this 
committee. Thank you very much. I thank you for the opportunity 
to discuss the President's Budget today for the Civil Works 
Program of the Army Corps of Engineers for Fiscal Year 2019.
    As I am sure you are all aware, I was recently sworn in as 
Assistant Secretary of the Army for Civil Works, and this is my 
first opportunity to appear before this subcommittee.
    I look forward to the opportunity to share my thoughts with 
you, and emphasize my commitment to results rather than 
process. To ensure that the Corps is moving dirt, and putting 
projects in the ground.
    I am honored to be joined by Lieutenant General Semonite, 
our 54th Chief of Engineers.
    The fiscal year 2019 Budget reflects the administration's 
priorities and is focused on investments that will yield high 
economic and environmental returns, or address a significant 
risk to public safety.
    The budget provides $4.8 billion in gross discretionary 
funding for the Army Civil Works program. This investment will 
enable communities to reduce their flood risks, facilitate 
water-borne transportation, restore significant aquatic 
ecosystems, and generate low cost, renewable hydropower.
    The budget focuses on the highest-performing work within 
the three main missions of the Corps, commercial navigation, 
flood and storm damage reduction and aquatic ecosystem 
restoration.
    The budget also focuses on maintaining the vast water 
resources infrastructure that the Corps owns and manages and on 
finding innovative ways to help rehabilitate or hand it over to 
others. It gives priority to coastal harbors and inland 
waterways with the most commercial traffic, but also funds the 
maintenance of channels at small ports that support significant 
commercial fishing, subsistence, or public transportation 
benefits. Similarly, the budget invests in safety improvements 
at Corps dams based on an assessment of risk.
    The Civil Works Program relies on a foundation of strong 
relationships between the Corps and local communities that 
enable us to work together to help meet their water resource 
needs. The Corps program uses a diverse set of tools and 
approaches to working with local communities, whether this 
means funding projects where they pay a share of the cost or 
providing planning assistance and technical expertise to help 
them make better informed decisions.
    The Flood and Coastal Storm Damage Reduction Program is a 
collaborative effort that integrates and synchronizes the flood 
risk management projects, programs, and authorities of the 
Corps with those of other Federal, State, regional, and local 
agencies. It helps to reduce the risk of loss of life and 
property damage from river and coastal flooding. It increases 
the resilience of local communities through structural and 
nonstructural measures.
    Funding for the Aquatic Ecosystem Restoration Program will 
be used to restore several large ecosystems. Activities include 
restoring aquatic habitat in ecosystems where ecosystem 
structure, function, and processes have been degraded; work 
needed to comply with biological opinions, operation and 
maintenance of the Chicago sanitary and ship canal fish 
barrier.
    The budget prioritizes funding to operate and maintain 
water resources infrastructure and the funding allocations for 
the maintenance of commercial navigation, flood and storm 
damage reduction, and hydropower projects that are informed by 
risk-based assessments that consider both project and project 
component conditions and the consequences in the event of 
failure. For example, funding levels will enable continued 
reduction in the number of extended lock closures per year to 
preventable mechanical breakdowns and a reduced risk of failure 
at our flood risk management projects.
    Funding for the construction program uses objective 
performance-based guidelines to fund the projects with highest 
net economic, environmental, or public safety returns to the 
Nation. For example, the budget funds the Olmsted Lock and Dam 
Project to completion. The budget also funds the Dam Safety 
Program to enable the Corps to evaluate and implement effective 
risk reduction strategies at its dams where needed.
    The budget funds six feasibility studies to completion and 
also includes funding for floodplain management services and 
for the Planning Assistance to States Program to assist local 
communities with technical and planning assistance and 
specifically to help them develop and implement nonstructural 
approaches that will enable them to reduce their flood risk. 
All ongoing feasibility studies funded in the budget have 
signed feasibility cost-sharing agreements and have developed a 
plan that outlines their scope and scheduling costs, which has 
been agreed upon by the district, division, Corps headquarters, 
and the local sponsor.
    Lastly, the budget also makes important investments to 
promote sustainable management of the lands around Corps 
facilities by providing funds to update the plans that govern 
how we manage our facilities in helping to combat invasive 
species.
    Thank you all for inviting me today and I look forward to 
your questions. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Simpson. Thank you.
    General Semonite. Chairman Simpson, Ranking Member Kaptur, 
and distinguished members of the subcommittee, thank you for 
the opportunity to testify today. We are glad to have Secretary 
James on the Civil Works team, and I look forward to working 
with him in the years ahead. I have been in command of the 
Corps for almost 2 years and I want to briefly update you on 
where we are going. As I said last year, the Corps' credibility 
is measured by our ability to deliver results that are on time, 
on budget, and of exceptional quality.
    Since Congress first authorized our navigation mission in 
1824, the Corps has worked hard to develop and implement 
solutions to the Nation's water resource challenges. We are 
able to do this because we have a world-class workforce of 
talented and dedicated professionals who are absolutely 
passionate about what we do. None of our work is done alone, 
but with the full participation and the hard work of many 
others. We appreciate, value, and depend upon the support of 
the administration and Congress and all of our partners to 
succeed in our mission.
    I am very proud of the work that the Corps accomplishes, 
but I am also equally aware that the organization can improve. 
I have been, and remain committed to, instituting changes to 
the Corps delivery processes in order to become a more 
efficient and effective organization.
    The Corps faces a multitude of challenges, some old and 
some new. Much of our infrastructure is well beyond its design 
life, yet the requirements have never been greater. The demands 
on the Federal budget continue to grow and as our 
infrastructure ages, we find more and more annual 
appropriations going to operation and maintenance at the 
expense of both investigations and construction.
    Today we have over $96 billion in construction 
requirements, representing the Federal share on a multitude of 
projects. We have close to a hundred ongoing feasibility 
studies, which, if authorized, would simply add to the Federal 
budget requirement. Our feasibility studies are formulated with 
the assumption of efficient funding and most all of our 
multiple-year projects are budgeted on an annual basis with no 
assurances that adequate funding will be available from year to 
year. This creates uncertainty for our non-Federal sponsors, it 
drives up project costs and it delays the realization of 
benefits. At the current rate, it will take us over a hundred 
years to address the backlog and this is simply unacceptable.
    Together we must remove barriers to the development and 
improvement of our water resource infrastructure. We must 
encourage and incentivize alternative project financing, 
streamline Federal procedures for delivering projects, and 
reduce unnecessary Federal oversight to facilitate timely 
delivery of projects.
    The Corps has been working with the administration and was 
instrumental in the development of 20 legislative proposals 
which are a part of the President's infrastructure package 
presented to Congress. We recognize the Corps' role in the 
future may be different than it has been in the past and that 
our level of involvement in project delivery may vary from 
project to project, location to location, and sponsor to 
sponsor. Whatever works best to deliver the project faster and 
cheaper is our goal.
    The Corps continues to work on policy and administrative 
changes that can improve infrastructure delivery. Over the last 
year I have assembled all my General Officers, our SESes, our 
Colonels, and our senior leaders to relook internally our 
organization, our authorities, policies, regulations, and 
procedures in order to identify opportunities for increased 
efficiency and effectiveness.
    The Corps is fully engaged in support of five 
administration efforts aimed at streamlining the regulatory 
processes. The Corps is addressing topics such as implementing 
the One Federal Decision that establishes discipline and 
accountability in the environmental review and permitting 
process for infrastructure projects. We are reviewing the 
nationwide permit program to identify modifications that will 
increase the efficiency of decision-making.
    We also are continuing to work with the EPA in reviewing 
the 2015 Waters of the United States Rule. Our goal is intended 
to simplify for the process for gaining infrastructure permits 
while protecting the environment in accordance with the law.
    We are working to delegate more decisions to the lowest 
appropriate level, encouraging our leadership to take more 
prudent risks. Our technical experts close to the issues can 
make decisions based on their experience, their knowledge, and 
their competence in a specific area. Risk-informed or 
professional judgment decisions should be made and documented 
without being subject to numerous time-consuming reviews.
    We are looking at how we can best capture the total value 
of our projects. Most communities have a master plan that was 
developed based on an analysis to determine best value for the 
community or region. This may consider life risk reductions, 
economic value, resilience of the community, et cetera. We want 
to make sure that our project reports reflect the total value 
of our projects. This may increase the opportunities for non-
Federal investment in the projects. We are reviewing existing 
authorities that may help leverage non-Federal financing such 
as WRDA 2086, section 203 for Investigations and section 204 
for Construction, that allow sponsors to take ownership of the 
project delivery process.
    Finally, I will mention the Corps is implementing multiple 
improvements to the section 408 review process. We have 
delegated decisions to the lowest level possible and are 
further clarifying when section 408 permission is or is not 
required. Additionally, we are looking for opportunities where 
section 408 requirements may be met by other Corps processes or 
authorities in order to eliminate redundancies and have 
eliminated the requirement for a 60 percent design.
    The Corps wants to be part of the solution, not part of the 
problem. We recognize the need to address internal policies, 
regulations, processes, and cultural impediments in order to 
remain relevant into the feature. We want to be value added to 
delivering solutions, whatever role we may have in that 
endeavor. But we can't conduct all these reforms in isolation 
by ourselves. We need the help of OMB and Congress to unleash 
the power of the Corps by acting on our numerous 
recommendations.
    Thank you, Mr. Chairman and members of the subcommittee. 
This concludes my testimony and I look forward to answering any 
questions you might have. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Simpson. Mr. Petty.
    Mr. Petty. Good morning. Thank you, Chairman Simpson and 
Ranking Member Kaptur. Again, congratulations on your long and 
great service so far and I continue to looking forward to 
working with you for the opportunity to discuss not only the 
President's budget, but the specifics of Bureau of Reclamation 
and the Central Utah Project Completion Act Office.
    My name is Tim Petty. I am at the Department of Interior. I 
am the Assistant Secretary for Water and Science. The water is 
the Bureau of Reclamation and the science is the U.S. 
Geological Survey. I appreciate your ongoing support of our 
programs.
    The overall Department of the Interior's 2019 budget 
request is $11.7 billion, which emphasizes Interior's role in 
protecting the Nation's natural resources, advancing America's 
natural energy, providing vital scientific information for 
responsibly managing our resources and energy development, and 
honoring our trust responsibilities to the Native Americans as 
well. The Bureau of Reclamation's activities, including 
recreation, contribute more than $48 billion in economic 
resources and support over 388,000 jobs each year. 
Reclamation's 37 billion kilowatt hours of electricity provides 
for more than $1 billion in gross power revenue alone for the 
Federal Government.
    The Bureau of Reclamation works with both States, Tribes, 
local governments, and nongovernmental organizations to provide 
reliable water and power supplies to the West. The 2019 budget 
continues our efforts to address the challenges of water 
availability. Interior's $1 billion budget request for 
Reclamation is to invest in our water and power infrastructure, 
facilitating the delivery of water to 31 million people in the 
West. In addition, our programs invest in ecosystem protection 
and restoration so that we can continue to supply water and 
power reliability as we have historically.
    This budget also continues to strengthen our Tribal Nations 
by implementing Indian water rights settlements as well. We are 
proposing that Reclamation invest $127.4 million in fiscal year 
2019 toward fulfillment of those responsibilities.
    Interior's budget furthers our commitment to developing 
domestic energy resources to make America stronger and energy 
independent. Hydropower is a renewable, reliable resource 
providing clean energy to the western United States. It is the 
Nation's largest renewable energy resource and the Bureau of 
Reclamation is the second largest producer of hydropower in the 
United States.
    We support the President's efforts to create a leaner, more 
efficient government, and the Bureau of Reclamation will be 
actively involved in bringing forward the most promising ideas 
to improve government effectiveness and efficiency and to spur 
economic growth. For example, Reclamation has developed a 
proposal to facilitate the transfer of title of certain 
Reclamation projects when such certain transfers are beneficial 
to all parties. This will allow irrigation districts and water 
managers to make their own decisions to improve water 
management at the local level.
    Finally, Interior's budget request includes resources for 
the Central Utah Project Completion Act Office, which falls 
under the jurisdiction of the Assistant Secretary for Water and 
Science. The 2019 budget for this office specifically is $8 
million. Of this amount $3.4 million will be available for 
planning and construction activities administered by the 
Central Utah Water Conservation District, continuing our 
partnership in the ongoing construction of the Utah Lake 
Systems Facility.
    The budget also continues Interior's required program 
oversight activity of the Endangered Species Recovery Program 
implementation through the Department's office. The Central 
Utah Project annually provides 62,000 acre feet of water for 
irrigation and over a 100,000 acre feet for municipal and 
industrial purposes, supplying water to nearly 400,000 people.
    In keeping my opening comments brief, I would like to 
submit my whole testimony into the record. Thank you again for 
your support of our programs. I'm happy to answer any questions 
that you might have for us today. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
     
    Mr. Simpson. Thank you, and your full testimony will be in 
the record.
    Mr. Petty. Thank you.
    Mr. Simpson. Ms. Burman.
    Ms. Burman. Thank you, Chairman Simpson, Ranking Member 
Kaptur, members of the subcommittee, for the opportunity to 
discuss with you the President's requested budget for the 
Bureau of Reclamation. Reclamation's 2019 budget continues to 
address water supply challenges in the West, to ensure water 
reliability, the efficient generation of energy, celebration of 
America's recreation opportunities, commitments to Tribal 
Nations, and environmental responsibilities. The 2019 budget 
prioritizes funding for Reclamation's management 
responsibilities to provide water and generate power in the 
West.
    I have included at your desk a map of the hydrology in 
2018, this year, the most recent hydrology in the West. And in 
listening to your comments about too much rain and storm and 
damage, I would just say that much of the West is facing the 
opposite right now. The pattern this year has been wet in the 
north, average to above average in the north. But as you work 
your way south, they are very below average with extremely dry 
years that we are facing so far. It is still March. The 
hydrology can change somewhat, but California and Nevada, the 
Colorado River system, New Mexico, Arizona, Oklahoma, all are 
facing very dry areas this year and that is the backdrop that 
we have worked in.
    Our budget in 2019 emphasizes the following principles. 
First, water reliability and increased storage capacity. We 
cannot deliver reliable water supplies in the West without 
strong and safe infrastructure. And additional storage will be 
necessary to meet our current and future challenges.
    Second, efficient energy generation. As the Nation's second 
largest producer of hydroelectric power, Reclamation's projects 
and programs constitute an important driver of economic growth. 
Maintaining and modernizing hydropower infrastructure at the 
Columbia River Power System. 2019 promises to be an exciting 
year. I again thank the committee and am prepared to answer any 
questions you have on our fiscal year 2019 budget.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Simpson. Thank you. Thank you all for your testimony. 
First question is to you, Mr. James. The budget request 
includes new accounts for the Harbor Maintenance Trust Fund and 
the Inland Waterway Trust Fund. What was the reasoning behind 
these budget structure changes?
    Mr. James. I think the administration's goal, sir, is to 
more clearly present the funding in both of those accounts as 
individual accounts so that they can be more easily understood 
and correctly interpreted. It does not change cost sharing or 
application, either one. It is just a way the administration 
thinks we should go forward with those accounts.
    Mr. Simpson. And General Semonite, a number of the projects 
are proposed for funding in both the newly proposed Harbor 
Maintenance Trust Fund account and the regular Operations and 
Maintenance account. I am concerned that this could result in 
delays or other problems with project implementation, for 
example. Under the existing budget structure, if bids for 
maintenance dredging come in higher than expected, the Corps 
has the flexibility to use an unobligated project fund and to 
defer other lower priority activities at the project. The 
proposed budget structure, on the other hand, seems to reduce 
the Corps' flexibility to address the projects of highest 
priority. Is that a concern?
    General Semonite. Mr. Chairman, I share your concern. We 
have lost some flexibility on our ability to be able to portion 
different amounts you have given us in the past to be able to 
best take care of the requirement.
    Mr. Simpson. I was very interested in your testimony in 
terms of trying to improve our ability to do projects by 
streamlining and other types of things, looking at the total 
rule and regulations that we impose on everything. One of the 
things that has come up during this discussion of 
infrastructure is public/private partnerships and financing 
P3's or whatever you want to call them. We have had concerns, 
while I support that and I think it is a good thing to look at. 
It may be appropriate in some places and not in other places.
    One of the concerns we have is that projects that are able 
to be financed privately move up on the Army Corps project and 
those that do not have access to those resources move down in 
priority. I would hate to see those that have the ability to 
raise money privately put the others down at the bottom of the 
list all the time. Is that a concern of yours?
    General Semonite. Sir, I think what the committee has asked 
us to do is to come up with some policy. We do not have that 
right now. You know there was one project that we got authority 
to be able to do, Fargo Moorhead, there are some unbelievable 
advantages to that. But I do concur that we cannot just pick 
different projects to try individual outcomes. We need some 
government policy on how would we go about this for exactly the 
concerns you have.
    How do we somehow entice people to incentivize certain 
projects, but if there is an area of the nation that does not 
have the ability to be able to do that, we do not want to 
disadvantage them. So there is a sweet spot somewhere that we 
have got to be able to find. My guys are working on that policy 
right now, I would love to tell you I am going to have it to 
you in a couple of weeks but it is probably going to be June 
until we are able to give you a draft. I have got to send it to 
the Secretary, let him take a look at it. But we have got to be 
able to have some overarching methodology of how we can do this 
so we do not have what you said.
    Mr. Simpson. I appreciate that. When you guys get that 
policy, I would love to sit down and talk to you about it and 
how we are going to try to implement. We want to work with you 
on trying to solve a lot of these problems, I hate to call them 
problems but smoothing out some things so that we can get 
things done quicker and cheaper and so forth for the taxpayer.
    Let me ask a question to the Bureau. Whichever one of you 
would like to answer this. The Department of Interior recently 
proposed reorganizing all of its agencies in the Department 
including the Bureau of Reclamation. Under common regional 
boundaries, can you please explain what the current proposal is 
and the need for this effort and in that, there are several 
questions. What is the process being followed for the 
development of this proposed common boundaries, has reclamation 
been involved, what is the plan for ensuring meaningful 
congressional input? What is the schedule for implementation, 
does the current proposal change where regional offices of the 
Bureau of Reclamation will be located? What is the cost to 
Reclamation of this reorganization and does Reclamation expect 
any impacts to the operations or management of any projects due 
to this reorganization? So broadly, just everything that is 
going on with this reorganization.
    Mr. Petty. Mr. Chairman, I will go ahead and start off that 
conversation. Actually, in front of you, each member has two 
maps. So we are going to talk about the reorg, so if you dig a 
little bit with the two maps, one looks like what is the 
existing organization within the Department of Interior. The 
other one is the latest, this is the seventh rendition. It has 
draft written across the front. We have gone through seven 
reiterations already to date. It is still in draft because the 
highest priority, even Secretary Zinke yesterday on the Senate 
side, specifically said we know that it is a high priority that 
we interact with you as members up here to know exactly what we 
are working with.
    So as this continues to be drafted through, what I really 
want to highlight is just the convolutedness of how Interior 
with all of its bureaus work in almost silo organizations. What 
the Secretary and what the goal is, is to put these regions 
together so that all the different communities within the 
bureaus can actually start working more efficiently together. 
What we have found is it takes forever and ever going from one 
bureau to another bureau to another bureau in everything from 
the areas of policy interaction, permitting and so forth that 
takes place.
    So again, what I want to be able to, Mr. Chairman, and to 
the whole committee, is just be able to say, we really want to 
work with Interior, but also with your staff as we continue 
through this reiteration. We are working with our senior 
executive service staff within Interior. We are working with 
the governors offices as well very closely. Again, the idea is 
in the seventh rendition, it has gone through quite a few 
changes and there have been significant components that really 
actually specifically highlight even Reclamation's component on 
really looking at the watershed. So if you can compare and look 
how the later part, the Upper Colorado, the Lower Colorado, the 
California, they have gone through significant changes. So I 
will stop there and see if the Commissioner has any thoughts or 
comments on top of that.
    Ms. Burman. I would just add that I think this draft has 
tried to look at not only sensitivity to State borders, which 
folks who work with BLM find very important, but also looking 
at watershed. So the Colorado River watersheds are kept 
together, the Columbia River has gone from being within several 
regions into largely one except for the very head of the Snake. 
The California system is no longer cut in half, the California 
system is now together, the San Joaquin and Sacramento systems. 
So I think this draft has gone a long way. In many ways, it 
follows Reclamation's borders and we have significant input 
into it.
    Mr. Simpson. I appreciate that and I am supportive of what 
he is trying to do and I look forward to working with the 
Secretary on this. I do hear from stakeholders out there that 
States borders are really important. I keep saying to them, I 
realize that but watersheds do not recognize State borders very 
well. When we are trying to--it has been a pain in the rear end 
when we have had the Columbia Basin divided between different 
States and different regions of Interior's departments. It 
always creates a challenge when north Idaho is treated 
differently than south Idaho or the decisions made do not apply 
in both places and that kind of stuff. I appreciate what the 
Secretary is trying to do. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman, and thank you again 
for your testimony. I want to support what the chairman is 
saying. As a land planner myself, and having had some 
experience with the Department of Interior in the past, the 
difficulty of coordinating, even between the Parks Service and 
the Wildlife Refuge System. What you said, Secretary Petty, 
about the silos within Interior, I completely agree. Our region 
of the country faced a problem that will require binational 
cooperation with Canada and with Michigan, Indiana and Ohio, to 
deal with the algal bloom issue, the largest watershed in the 
entire Great Lakes with this massive problem. It is very 
difficult to even assemble the information properly to begin to 
address the problem. There is no political structure that, and 
we may have to put it in a couple of our bills to make it 
happen but to really address the gravity of this in real time. 
So anyway, keep going, you are on the right track.
    The question I have but I will give a little background. 
What are each of you doing to raise the profile of your Agency 
within the administration to help the President and his staff 
realize that a focus on infrastructure means also focusing on 
the Corps and the Bureau of Reclamation? We hear a lot of talk 
about infrastructure and then we get this half-baked proposal 
where 80 percent of whatever funding they are talking about 
they say has to come from private funding and then everything 
goes to a halt.
    I remember I had the privilege of working for a former 
President of the United States and how hard it was to fight the 
internal battles with OMB to do what the country needed. So 
because the President has just appointed a military man to be 
head of the Department of State and because his Chief of Staff 
is a tried and tested Marine, there is default in the 
administration to the military side of the equation. So I am 
saying to you, that there may--having worked for a President 
who was thwarted by his own staff, including OMB, what are you 
doing to go around that blockade and really move the 
infrastructure issue up through the agencies over which you 
have jurisdiction?
    I would be very interested in hearing how you intend to 
raise the profile of the backlog infrastructure, $94 billion, 
and how important that could be in this administration to 
actually crafting an infrastructure proposal that could be 
funded. By the way, I am old enough to remember General 
Eisenhower, when he became President and we created the 
interstate highway system. It never existed before. It was a 
defense industrial highway system for this country. You are 
going to be vising the Soo Locks, thank you very much, Mr. 
Secretary, very shortly. An extraordinarily important place 
that the Corps is managing but I just think you should not be 
shy. You should find a way to go around these blockades that 
are purely staff driven and help us meet a national need. What 
are you doing to raise your profile?
    Mr. James. Madam, I will give you the best answer I can on 
that. When I came to Washington as an appointee, the only 
reason I came to Washington and accepted the offer that I had 
was to move more dirt, take less dollars and do more with it. 
That is what I am focused on, that is what I will be focused 
on. Right now, we have a taskforce where we are working 
together, it is not ready yet. We are going to be working from 
my office with all agencies, all secretariats including 
Interior, AG, OMB, all of them, in order to try to parallel 
projects as they come through what is known as the pipeline. 
Because right now the Department of Agriculture delineates 
wetlands in this country in every county. Well, the Corps is 
given a project to work an EIS on, they go through the entire 
project of EIS and guess what, EPA also has delineation rights 
on wetlands. So those two agencies get together, sometimes they 
see eye to eye, sometimes they do not and it can slow down the 
Corps process of an EIS by several months, maybe more.
    We are going to try and work with the Corps and all the 
other agencies to see if we cannot streamline the entire 
process, not just the Corps but from the other people as well. 
I met Secretary Perdue yesterday and discussed this. He is very 
willing to work toward this. I am still waiting on an 
appointment with the other secretaries.
    We recognize the problem and we are working toward it. Oh 
by the way, we are also looking at maybe if over time we have 
created some legislation that works against itself. If in 1990 
we did one thing and 1999 we did something--we are looking at 
that internally. If I find something along that line, I have no 
authority but I would like to discuss it with Congress to see 
if we can help along that line as well so that we can all take 
some responsibility. We are just limited on funds. We cannot do 
enough with the limited funding that we have.
    Ms. Kaptur. Mr. Secretary, I apologize for interrupting but 
my time is short. To cut your agencies by 20 percent, I know 
what happens when you sort of U-turn into OMB and then all of 
the sudden some clerk over there cancels something out. I am 
just trying to make the point, you have power and I think if 
the other infrastructure bill, whatever that is, is stalled, 
you have one too. I just would encourage you to think hard 
together about how to influence the administration. I have 
actually talked to Vice President Pence about this. There are 
individuals inside that administration that want to do 
something on infrastructure regardless of whatever the Budget 
Agency is doing and we can find ways around their 
intransigence. But the country needs this, we cannot wait.
    General Semonite. Ma'am, I will keep my answer short. I am 
more than willing to follow up. We have been very, very 
aggressive in the last year of being inside the White House to 
be able to work with President Trump's advisor on 
infrastructure and to be able to help make sure that as we 
think about railroads, roads and other capabilities, that 
rivers get added into that. We have not only advised him on how 
we can help streamline some of the permitting, but to be able 
to bring that $95 billion bill into the White House to be able 
to make sure that they are being recognized. Mainly with the 
risk that happens to things like Soo Locks that if, in fact, 
you do not invest in that then there is going to be significant 
ramifications.
    Secretary James and I were in the White House yesterday 
morning talking about the same exact things to be able to make 
sure that those requirements are on the table so when Congress 
makes decisions, if you cannot afford all of that, you at least 
understand the risk of not putting money into those projects.
    Ms. Kaptur. If I might add, the President carried the State 
of Michigan. He is well aware of the Flint water crisis. I do 
not know what he knows about the Soo Lock but that should be an 
absolute must for this administration. Thank you and I will 
wait for the second round, Mr. Chair.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. Secretary James, 
General Semonite, Secretary Petty, Commission Burman, thank you 
all very much for appearing before our subcommittee today. I 
represent the third district of Tennessee. That is East 
Tennessee, Chattanooga, Oak Ridge. The Corps does substantial 
work in my part of the world and I thank you. General, I want 
to personally thank you for coming and visiting with me and I 
appreciate that personal touch.
    A brief history about the Chickamauga Lock. When I came to 
Congress, the Inland Waterway Trust Fund was broken, it was 
broken in several ways. All the money was going to the Olmsted 
Lock, virtually all the money. It was underfunded and the 
future was uncertain. With members of this subcommittee on both 
sides of the aisle and with our colleagues in the Senate, we 
worked very hard to reform the Inland Waterway Trust Fund, to 
take the overriding burden of Olmsted out so that other locks, 
Lower Monongahela Kentucky and Chickamauga, could receive funds 
and we did that.
    At the request of industry, we increased the revenue on the 
user fee, on the diesel tax, so we are very proud of that. New 
construction on Chickamauga Lock has reresumed. I think this is 
the fourth year we have had construction. There has been a new 
contract awarded. I have met with the contractor, I have met 
with the Corps. The National Corps does a very good job as well 
and obviously I am very concerned and I want to make sure that 
that progress considers that we move forward.
    In that regard, I have a few questions. I will let whomever 
wishes to answer, answer the questions. The President's budget 
recommends the imposition of a decal fee on commercial 
operators on the Inland Transportation System of $1.782 billion 
over 10 years or $178 million per year. My first question is, 
is this decal fee in addition to or in lieu of the current 29 
cents per gallon fuel tax paid by barge carriers.
    Mr. James. Yes sir, it is.
    Mr. Fleischmann. It is in addition sir?
    Mr. James. Yes.
    Mr. Fleischmann. OK, thank you. I am informed that in 2016, 
the fuel tax which I previously alluded to, raised $114 million 
for the Inland Waterway Trust Fund. So, it's my understanding 
that you're here today advocating for additional revenue to the 
trust fund of $178.2 million plus the $114 million from the 
fuel tax for a total annual fee of $292.2 million per year.
    Mr. James. Yes, sir.
    Mr. Fleischmann. In that light I have one question. Why, 
then, is the budget proposing to spend only $5 million from the 
Inland Waterway Trust Fund and for only one project going back 
to Olmsted, I believe, when four other projects are currently 
under construction, specifically, and including, the 
Chickamauga Lock?
    Mr. James. That one's harder to answer than the first 
question.
    Mr. Fleischmann. Yes, sir.
    Mr. James. My understanding of that is the fact that due to 
the cap of the entire budget that we use, even if money's 
coming out of the trust fund, it goes against the cap, and the 
prioritizing of the entire budget and the funds that we get out 
of the budget that that's where that fell. The way I understand 
it for the additional fee is the fact that it's realized that 
there's more money going to be needed as we move forward in the 
critical repairs of other locks and, therefore, the feeling 
that that's building up, it shouldn't be worrisome because it's 
felt that we're going to need that within the next ten years.
    Mr. Fleischmann. Thank you, Mr. Secretary. A follow-up 
question to that then. It looks like there's going to be an 
abundance of revenue for the projects, that the priority 
language that Senator Alexander and I put in place in our 
respective bills to keep Chickamauga Lock forth, Olmsted should 
be completed this year. My question would be, are you still 
planning on having a new Chickamauga Lock completed by about 
2023 or 2024?
    Mr. James. Sir, I don't know about the Chief, I can't 
answer that right this instant.
    Mr. Fleischmann. Yes, sir. General Semonite?
    General Semonite. Sir, that depends on future funding, of 
course. Right now to be able to meet that milestone the number 
that has to be lifted in 2021 and 2022 is about $90 million. 
That's a lot more than Chickamauga's gotten in the last couple 
years. So, I won't try to guess whether that funding is going 
to come or not, that's your decision, but right now, if, in 
fact, that funding cash flow is not maintained, there's no way 
2024's going to be met.
    Mr. Fleischmann. OK. Now, it's my understanding, though, 
General Semonite, that I think in fiscal 2019 we're looking at 
maybe $99.5 million, because we've got $78 million, I believe, 
in 2018, and I was just under the assumption that the number 
for 2019 was $99.5 million or thereabouts.
    General Semonite. You're talking Chickamauga, sir?
    Mr. Fleischmann. Yes, sir.
    General Semonite. That's not the number I'm tracking, sir.
    Mr. Fleischmann. OK.
    General Semonite. I think it goes to add, though, and for 
the Chairman and the rest of the members of the committee, and 
I'm only talking on what I see when I look at concrete in the 
ground, when you build something over 15 or 20 years it's a 
very inefficient way of building a project.
    Mr. Fleischmann. Yes, sir. Thank you, Mr. Chairman, I yield 
back.
    Mr. Simpson. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. And, 
General Semonite, that's a perfect segue into my question about 
the 30-year timeline for restoration of the Florida Everglades. 
You mentioned, in your testimony, the inconsistency of funding 
being an obstacle to completion, which, I think, is self-
evident, but is important to say out loud because we're costing 
ourselves more and more money making projects more expensive 
the longer the timeline. President Obama's fiscal year 2017 
budget request for the Everglades restoration was $106 million. 
Fiscal year 2018's request for the same project, only from the 
Trump administration, is only $77 million. Fiscal year 2019, 
less than $70 million. The Florida legislature, and as most of 
you, I assume, know, the restoration of the Florida Everglades 
is a 50/50 partnership with the State of Florida. They passed 
the Florida Legacy Act committing to invest up to $200 million 
a year of State funding in support of CERP. And this year's 
proposal is less than $70 million. Why is the administration 
not taking advantage of the State of Florida's commitment by 
proposing a match if you are committed to speeding up projects 
and making sure that that's not an obstacle? We should, at 
least, be meeting our end of the bargain, which I will say has 
consistently been a problem over many years, but there are some 
years in which we have more of a commitment from the Federal 
Government than others. So, it's just baffling to me why the 
administration, Mr. Secretary, would be proposing less than $70 
million. We have, as you will hear my colleagues ask questions 
about their own projects, many projects that are on-line behind 
the Everglades or that will come up at some point. You know, 
what is the administration willing to sacrifice in the next 
phase of Everglades restoration given the extremely paltry 
request in funding? And that's for the General Semonite and 
Secretary James.
    Mr. James. I really can't answer for the President's budget 
overall, but our part of that budget that we receive and help 
identify in the development of the budget. It just goes along 
with the prioritization of other projects. That is--we are----
    Ms. Wasserman Schultz. I'm sorry. Don't you represent the 
President? I mean, why are you not able to answer for the 
President's budget?
    Mr. James. I said as we help implement and identify the 
President's budget, he develops the budget. I misspoke 
originally. But, the way I understand it, there is work to be 
done and we're looking at the possibility of reprogramming 
funds toward the Everglades in order to make up what wasn't 
originally identified in that project. And other than that, do 
you know more about this, sir? At this point in time in my 
early stage of this career I couldn't answer you any further, 
ma'am. I'll be happy to visit with you about it or I'll be 
happy for the staff to----
    Ms. Wasserman Schultz. I enjoyed a strong relationship with 
your predecessor and spoke to her regularly, and look forward 
to doing the same with you.
    Mr. James. Thank you very much.
    Ms. Wasserman Schultz. General Semonite, if you have a more 
detailed response that would be wonderful.
    General Semonite. I think probably the best thing is for 
the Secretary to come and lay out where we see the budget 
happening. I will continue to tell you, though, that the money 
that Congress does give us, we want to be very, very committed 
to make sure those projects are done expeditiously and wherever 
we can find savings in those to continue to be able to make 
sure we're putting those, as the Secretary said, moving dirt 
and making things happen, we're committed to do that.
    Ms. Wasserman Schultz. I'm trying to squeeze blood from a 
stone. And, Mr. Chairman, you have been excellent about 
stepping up and making sure that we provide the kind of funding 
we need. My last question relates to Port Everglades rather 
than the Florida Everglades, and the dredging project which is 
stuck while we await additional environmental assessment work 
to be completed by the Corps, which is understandable. But the 
reconfiguration of the Coast Guard Station in Fort Lauderdale, 
that could proceed at 100 percent non-federal expense. Broward 
County, Port Everglades is willing to frontload the funding 
with reimbursement and future cost-share when the larger 
project moves forward. General Semonite, you mentioned delivery 
projects faster and cheaper is our goal, but right now the 
Corps is refusing to accept the willingness of frontloading 
those funds from Broward County and Port Everglades, and none 
of this dredging project can move forward until the Coast Guard 
Station is moved. So, my question is, you know, and I'm going 
to continue to work with my colleagues here and, hopefully, 
we'll be able to get that language inserted in the budget, but 
what is the obstacle if we're trying to make that projects are 
funded and faster, and cheaper? It is money that you can take, 
and it has nothing to do with the environmental assessments.
    General Semonite. This is a great place where this dialogue 
is beneficial. I was not aware that there was a contribution 
offer by Broward County. We--the State of Florida has done 
many, many different times, as you're aware of, offered funds 
available. So, let me work this, find out what's going on. 
Clearly, we are trying to support the deepening of Port 
Everglades PPA signature, and then we were thinking somewhere, 
2018 or 2019, but the Coast Guard Station is a challenge, but I 
was not aware that there was an offer on the table to provide 
additional funds. What I'll do, ma'am, is I will figure this 
out and I will either come see you or make sure that Jason Kirk 
comes to see you and briefs you, my Colonel.
    Ms. Wasserman Schultz. Wonderful. Thank you so much. Mr. 
Chairman, thank you for your indulgence. I yield back.
    Mr. Simpson. Mr. Newhouse.
    Mr. Newhouse. Well, thank you, Mr. Chairman. I want to 
thank our panelists today, General Semonite, Secretary James, 
Secretary Petty, and certainly Commissioner Burman. Thank you 
for being here with us. I'd like to take my time and start off 
with just a simple statement. My constituents and I need your 
help. Actually, we need the help of everybody sitting on this 
subcommittee, everybody on this panel. We need the help of 
every one of my colleagues in the House and the Senate. We 
certainly need the help of our two senators. I think you know 
this, but starting in less than three weeks your agencies are 
being forced to spill water over our dams in the Federal 
Columbia River Power System, and that is due to a single 
judge's decision to disregard the science and the collaboration 
conducted during the Obama administration between the 
scientists and engineers at our Federal Agencies. The four 
states, the sovereign northwest tribes, local and regional 
stakeholders, and experts who have worked together in an 
unprecedented fashion to develop the 2014 biological opinion. 
Your agencies recently informed us that the estimated cost of 
this forced spill will be an additional $40 million per year, 
every year, on the backs of our rate payers in the Pacific 
Northwest. And over the past many months I've been working 
painstakingly hard alongside Congresswoman McMorris Rodgers, 
Congresswoman Herrera Beutler to develop larger legislation and 
also more targeted language for this year's fiscal 2018 
appropriations bill that will simply put a pause on this forced 
spill while all your agencies continue to work on the new 
biological opinion as well as the updated NEPA analysis. Now, 
Mr. Chairman, if you'll indulge me in our panelists, I 
appreciate this. I know it's not an easy thing, but I would ask 
that you'd answer succinctly, perhaps a one-word answer, and to 
facilitate that, Commission Burman and General Semonite, I 
believe, if you could represent your respective agencies. If 
I'm wrong on that I'd ask Secretary Petty as well Mr. James to 
assist. But could I ask you, isn't it true that through Ms. 
Jennifer Greer, who is the Army Corps' Chief of Future 
Directions Branch as well as Amanda Coster who is the 
Department of Interiors' Congressional Affairs Officer, through 
those individuals, your respective agencies, the Bureau of 
Reclamation as well as the Army Corps provided us technical 
assistance with the fiscal year 2018 appropriations language 
that we've developed that puts a pause on this bill, and have 
your agencies approved that language? General Semonite, 
Commissioner.
    General Semonite. Congressman, this is where, basically, 
there are--you asked one word, it would be balance. Our job is 
to balance all the different requirements we have on a river 
system. This particular one is where there has been a Federal 
judge's decision to be able to execute that in a certain way. 
We are now following that decision. And so, if there are other 
things that we can do to be able to help facilitate that, but I 
think right now we're continuing to try to follow the order of 
the judge.
    Mr. Newhouse. Ms. Burman.
    Mr. Petty. If you do not mind, Congressman, let me just 
give a big picture, that is cooperation. We need to really work 
with you specifically as well as all the members in the 
Northwest on how we can go and focus back in and rework that 
2014 biological opinion and get back to, obviously, the one 
that's making that final decision that we all here at this 
table need to specifically follow. So, my one word is we need 
to come back and specifically work with you in cooperation, so 
that we can move this forward and get these to a solution so 
that we know where we can head into the future.
    Mr. Newhouse. Mr. Chairman, I'd like to ask unanimous 
consent to submit the language for the record, of that language 
for the appropriations bill.
    Mr. Simpson. OK.
    Mr. Newhouse. Can I ask, again, will the language that we 
are talking about in any way prevent the new biological opinion 
from being developed or in any way prevent your agencies from 
conducting the NEPA or EIS process?
    General Semonite. I'm not aware of that particular 
instance. I'll have to get back with you, sir, on exactly 
whether that language will have any impact on our ability to be 
able to do that.
    Mr. Newhouse. Mr. Petty.
    Mr. Petty. Yeah, Congressman, the same. What we need to do 
is just come back and circle back around with you on the 
specifics so that we can be working together in how we can move 
forward.
    Mr. Newhouse. Can I ask, then, can any of you definitively 
say that--or can you point to any scientific information that 
says this forced bill will not hurt the very fish that the 2014 
biological opinion was developed to protect?
    Mr. Petty. From my past review and working specifically, I 
was very encouraged that we had the science supporting what we 
were needing. So, we look forward to seeing how we can continue 
not only what we had in the past, but to build on that so that 
we can move forward with the legislation and/or with any of the 
court order aspects of revisiting that again and build out what 
we need.
    Mr. Newhouse. Thank you. Well, certainly, Mr. Chairman, 
I've gone over my time, and I appreciate your indulgence. Thank 
you. Thank you, all.
    Mr. Simpson. Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman. Mr. Secretary and 
General Semonite, the President's fiscal year 2019 request 
included a total of $534 million for construction associated 
with all Corps flood and coastal storm damage projects across 
the nation. Under the President's request no flood-related 
construction projects would be funded to completion and no new 
flood-related studies or construction projects are initiated. 
One of those projects is in my region as well as Mr. Calvert's 
fiscal year 2019 funding for Santa Ana River Main Stem Project. 
The request proposed $15 million for the project. In fiscal 
year 2017 the project received $49 million. In fiscal year 2018 
the President's request was for $40 million. Also, the request 
did not fund various the Corps' Continuing Authorities 
Programs, including section 14 CAP to address steam bank and 
shoreline erosion affecting public works. I won't ask you 
specifically about the $15 million requested for the Santa Ana 
River Main Stem, but of the projects funded for construction, 
generally, in the fiscal year 2019 request, how many are 
receiving full capability level of funding?
    General Semonite. Sir, I think right now I know that 
Olmsted is. I need to go and have my staff do a better detail 
and come back out. I don't think that--I'm not aware of any 
other ones right now that have, but there very easily could be. 
We have a lot of projects, obviously, on the table. I owe an 
answer back to you.
    Mr. Aguilar. OK. Can you talk to me a little bit about the 
justification for not funding section 14 in the CAPs programs? 
What happens to CAPs projects that are in development if 
congress does not choose to fund these programs? How many of 
these have been identified, and what's the remaining federal 
balance to complete those? Have we done any deep dives on 
those?
    General Semonite. I haven't, but, we are more than willing 
to come and lay out the CAP program. We think there is great 
value in the CAP program, but obviously there have been some of 
those subcategories in CAP get funded, some don't. We can 
certainly walk through exactly where we're at on that.
    Mr. Aguilar. Right. We can submit it for the record and get 
a detailed response and maybe meet with you folks to get a 
little bit more information. A local issue, if you'll indulge 
me, will the Corps be funding 408 Permitting Process and making 
that a priority? The county in which I represent has forty 408 
permits in the process. They also have WRDA section 214 
agreements to reimburse the Corps, but have been told staffing 
issues could delay those reviews being done. This affects local 
infrastructure projects, this affects projects that our local 
communities are trying to deliver and, as we see in many cases, 
they're putting money on the table in order to do that, and are 
being told that they'll be facing delays.
    General Semonite. Well, Congressman, great question. There 
was some time when we didn't have adequate 408 money. We had 
only $4 million in 2016. Last year we only had about $3 
million. This year we have $8.5 million. So, we appreciate 
Congress taking care of us. I think we are going to be OK when 
it comes to staffing, but what is more important with 408s is 
over the last several years, I hate to say it, 408s migrated to 
Washington, DC, and I'm not convinced you need to be signing 
408s in Washington, DC. Trust our Generals, trust our Colonels. 
We delegated that all back down to the lower level. Regions are 
signing these or the actual districts are signing them, and if 
there are 40 there now, then I will make sure that we continue 
to work that backlog down. I had a discussion last night on a 
408 that took way too long, and I as a 3-star called the 
Colonel in charge and said, ``Figure out how to be able to make 
sure that we can do this.'' I don't need seven decimal points 
to be able to approve a 408, we are committed to do that.''
    Mr. Aguilar. Great, I appreciate that commitment. General, 
one last for you. In February of 2017, $17 billion was 
appropriated to the Corps in response to hurricanes Harvey, 
Irma, and Maria, and other flood-related disasters. Of that 
amount $1.8 billion was to repair damages to existing projects. 
I've got less than a minute here, so I'm not going to give you 
the due time, but can you describe the status of the work 
accomplished with this repair funding?
    General Semonite. First of all, I can't thank the Congress 
enough for the $17.4 billion; there is significant damage out 
there. We think some time in June we'll have a layout of where 
that $17.4 billion is going. We received very, very specific 
guidance as to how much goes to certain areas in Irma, Maria, 
and Harvey; and then other areas that were affected by other 
storms in a certain frequency. Once we get that portfolio all 
figured out, it will work its way back through. Now, what we 
really want to do is come back and brief the committees, as 
well as brief all of you, how much of that $17.4 billion is 
going out to each of your individual projects that are out 
there. It is a very, very large portfolio, and if I don't get a 
chance, Mr. Chairman, to tell you this, right now capacity is 
one of my biggest single concerns. I need to make sure we can 
put that money in the ground. We're looking at how do I expand 
the capacity of the Corps to be able to make sure we can 
expedite that because you want to be able to make sure that we 
have this in the ground before some other storm comes back and 
causes harm to our people.
    Mr. Aguilar. Thanks, Mr. Chairman.
    Mr. Simpson. I want to turn to Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman, and thank you all for 
being here. General Semonite, I know some times you don't hear 
it enough in your job, but I want to thank you. Last year, we 
had a nice discussion about the dredging issue in the Port of 
Cleveland; and I understand that you collaborated with the 
other partners there and have now resolved that issue; and I 
certainly appreciate your efforts to doing so. Hopefully, we 
have cured the open-water dredging issue now, but the one thing 
I would like to know is for the fiscal year 2019 civil works 
budget calls for $6.789 million for dredging the Cleveland 
Harbor. Based on the information that you have, is that amount 
going to be sufficient to dredging complete upland placement in 
2019?
    General Semonite. Congressman, we don't see a problem with 
that number. The other thing is we are committed to continue to 
have, first of all, a strong relationship with all of the 
players that are out there. We know that your state has a goal 
of no open lake placement by 2020. We are committed to continue 
to do that. There are challenges, of course, where if, in fact, 
we end up having to dispose of things in a more expensive way; 
and I am talking about as the country now, then that means 
there is going to be some ramifications somewhere in the 
budget; but, right now, we think that we are OK for fiscal year 
2019, and we are committed to try to make sure that we grow 
this relationship. And it really has gotten much, much better 
in the last year.
    Mr. Joyce. Great; and I'm glad that it is working out for 
you. On to another question, and I'm going to cut through all 
of background on it and we will get right down to it--the 
Brandon Road Report. I know my distinguished colleague here on 
the panel also has an interest in this; but the fact that--we 
have received as a draft--when will we have the final report, 
and when will the work begin to actually implement the 
structures or barriers that will affect keeping the Asian carp 
out of the Great Lakes?
    General Semonite. Great question. I am going to sign a 
chief's report by August 2019. All my chief reports I am trying 
to push left, wherever we can. How can I continue to 
accelerate? This is something I think is very, very critical to 
be able to make sure we address this issue, and then that way 
we will give you a formal recommendation as to what we think is 
going to happen in Brandon Road. I think the other thing that 
we might need help with here--there is currently not a non-
Federal sponsor. I do not want to slow this down because 
somebody says you can't move forward if, in fact, you don't 
have a non-Federal sponsor. So this is where the dialogue where 
the committees are figuring out, how do we go forward with this 
approach. I don't want us to get caught in a bureaucratic 
loophole somewhere because we don't have a sponsor, we are not 
able to continue to drive forward; our guidance right now says 
you basically need a non-Federal sponsor for everything we do. 
This is where I think we might need some help with the 
committee. Obviously, the Secretary and our team continues to 
push, but this is what we might end up hitting an arbitrary 
roadblock.
    Mr. Joyce. Fair enough, point taken. Mr. James, you say in 
the budget ``makes important investments by providing funds 
that combat invasive species, among other priorities.'' Do you 
know of any other ongoing or past initiative the court has 
undertaken to combat other invasive species across the United 
States, and were those efforts successful?
    Mr. James. I know of other areas where they are being 
combatted. I don't know whether they were successful, 
ultimately or not. General Semonite's been around the Corps a 
lot longer than I have and he might be able to answer that, but 
I know there are--somewhere in one of the western rivers--
Columbia, I think--they are fighting some kind of invasive 
mussel that they are working on right now, as we speak; I know 
of that one. Of course, you know, historically, most of these 
things are brought into our country from other areas, and 
usually for a purpose; and it has worked out very well for us. 
So, success stories I can't tell you sir, I don't know. I can 
get some answers for you if the General doesn't know either, 
and we will get right back to you on it.
    Mr. Joyce. Congresswoman Kaptur, I believe, is here for the 
fight with the zebra mussels and some of those other things in 
the past. I don't know if we won that war or lost it, or just 
gave up; but we certainly want to know if, in fact, things are 
working and how we can translate those practices into effect in 
Great Lakes because we can't afford to have the Asian carp in 
there because it's game, set, match.
    Mr. James. Well, that's absolutely a priority. There are 
too many states located by these waters up there in the Great 
Lakes that will be affected by those things. I'm from down 
river from there in Missouri, right on the Mississippi River. I 
see what they have done in that area. There is an area in 
Tennessee known as Reelfoot Lake. It has definitely hurt fresh-
water fishing there. So, this is a priority to stop them. It's 
also a priority to keep navigation open in that area so that we 
can continue to move commerce. I think the plans moving forward 
as quickly as we can push it to get to an answer of exactly how 
do we do it; and I am looking forward to completing that plan; 
getting with Congress; and try to get it moving forward at 
Brandon Road.
    Mr. Joyce. Well, you know, I have been here 5 years and we 
have made no movement; so, I would like see something happen 
because time is not on our side when it comes to the Asian 
carp. I am out of time. Thank you very much, Mr. Chairman.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. I want to follow 
up on what Congressman Aguilar has talked about regarding the 
408 permitting process. Generally, you got pretty animated 
during that discussion. Do you want me to re-animate you?
    General Semonite. I am more than willing to talk about 408, 
sir.
    Mr. Fortenberry. OK. So, here is an example. Back where I 
live, you know we have natural resource districts. It's been an 
amazing political subdivision that works with environmental and 
flood control projects, a taxing authority with political 
representations, one of the more unique types of municipal 
constructs in the country. So, we are trying to build some 
levees to protect a major national military asset, Strategic 
Command at Offutt Air Force Base. The Omaha district informed 
the NRD who is coordinating the project, that on a regular 
levee inspection, that the levees were unsatisfactory. The 
irony of this point is that they have been in a 408 permitting 
process for 8 years, which has cost them about $5 million added 
onto about the $25 million of costs; and the Corps of Engineers 
is what's at issue here. So, on one side of the building, they 
are unsatisfactory; on the other side of the building, the 
permitting process has dragged on and on, adding cost and 
creating the conditions in which this base and personnel are 
potentially at risk. We've had this conversation before. You've 
been kind enough to continue it in my office--like Congressman 
Joyce said--you have to take on a lot of difficult problems and 
you don't get enough thanks, but at the same time this still 
churns out there as a harsh reality, and I would like your 
response.
    General Semonite. So Congressman, we will lay this out for 
you; but the bottom line is that Papio, Missouri River NRD 
ended up having a FEMA map certification issue in 2011. They 
hired a subcontractor that did not do proper geotechnical 
analysis. It's been about 5 years for us to be able to get the 
standard that we needed to be able to do this. This is the 
Colonel I talked to last night. The bottom line is that both 
General Spellmon, the Division Commander, and Colonel Hudson 
have both committed that they will have this 408 done by the 
May 15 of this year. Now, the challenge is how do we make sure 
that if we have a 408 that is lagging, not necessarily because 
of a Corps approval because of the lack of technical analysis, 
how do we somehow make sure that everybody is informed of what 
is out there, and to be able to make sure that we can try to 
somehow coach and mentor the subcontractors are to get it 
through. So, this is something that is not indicative of normal 
408 problems. This is a subcontractor performance issue.
    Mr. Fortenberry. So, it is the NRD's fault, that you are 
saying?
    General Semonite. I think the NRD needed to hire somebody 
that had the technical capability to be able to do this in a 
timely manner; yes, sir.
    Mr. Fortenberry. What is a normal 408 permitting process 
timeline, or what should it be on a project of this magnitude?
    General Semonite. I think all 408s are very complicated. We 
just approved a pipeline in for the DAPL--you know that one? 
That is very, very contentious, a lot of issues with the entire 
inner-agency team. That was actually a 408 permit as well. 
There are some other permits in there. I think that we want to 
try to do these things in a relatively timely manner, 60 days, 
100 days, 120 days; but if it has got a lot of--especially if I 
need fish and wildlife capability, if there are other type of 
variables in this, then some of these are going to be much more 
contentious. And we need to be able to give the stakeholders an 
understanding going into the 408 how complicated we think it is 
going to be, and some expectation of when those things will be 
approved.
    Mr. Fortenberry. Well, I think the core of the issue is to 
ensure that the internal culture--which I think you are 
indicating--is highly sensitive to the realities that maybe 
there isn't expertise on the ground as robust as it should be 
or where you are and, yet, when we are in a unique 
circumstances like in Nebraska where we have got monies ready, 
full-state participation, and something is being held up, and 
the expectation on the local people to have the full range of 
expertise in the manner that you are talking about is 
unrealistic. That we actually do have a cultural collaboration 
and cooperation rather than no, you did not meet the standards, 
and it's finished.
    General Semonite. I agree, Congressman. I think also we 
have a lot of matrix in the Corps of Engineers; we need flags 
to go up. When something looks like it is going to take too 
long, have the appropriate leaders get back in there. I don't 
need to come in as a 3-star figuring out how to get a 408 back 
up and running; but at some point, that flag didn't go up early 
enough, sir.
    Mr. Fortenberry. Yeah, but you're the one in front of me 
now. So, I think this is not only a specific--I didn't want to 
bring it up just because of the specific concern; although it 
is a harsh one, it is generalizable to the bigger principle 
here--to this more collaborative-type of culture that I think 
you are creating.
    General Semonite. Well, and again, this goes back to my 
opening statement. It all goes back to how do we make sure the 
culture in the Corps is to be able to have good science, good 
engineering, but also to be aggressive and to be able to make 
sure we are doing the right thing. That culture is not going to 
change overnight, but I think we are making a big move to get 
it to where it needs to be; and, specifically, on 408s, 
delegating that back down and empowering those people and make 
sure they are accountable is the biggest single way I can 
improve the culture.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Secretary James, we 
are glad to have you here along with your colleagues. You are a 
native Kentuckian?
    Mr. James. Yes, sir, I am.
    Mr. Rogers. And Big Blue Nation is going out west, as you 
know.
    Mr. James. I see that.
    Mr. Rogers. We are going to the south regional in Idaho.
    Mr. James. The south regional?
    Mr. Rogers. Yeah, help me out here.
    Mr. James. Thought that would be like the west regional.
    Mr. Rogers. It is the south regional.
    Mr. James. But they are going to be very welcomed in Idaho, 
in Boise.
    Mr. Rogers. Well, at least it is in southern Idaho.
    Mr. Simpson. That's right.
    Mr. Rogers. I was confused there for a while. But, anyway, 
Mr. Secretary, we are proud of you, and we congratulate you on 
this chore that you have undertaken. Let me ask you about 
something that I have been asking the Corps about for years 
with no good results. It is the Flannagan Dam, just across the 
Virginia line from Kentucky in my district. After the earmark 
moratorium went into effect, the House Transportation 
Infrastructure Committee created a new process in the WRDA Bill 
for communities to request projects from the Corps--as you 
know, the so-called section 7001 process. It requires extensive 
community engagement, as well as coordination with all levels 
of governments--state, federal, and local. The Flannagan Dam 
Project is pretty simple. The dam is in Virginia, but the water 
that goes through the dam flows directly into Kentucky, and my 
district in Pike County. The white water rafting season on the 
Russell Fork River, which is the discharge river, is great for 
tourism for a very short span of time. They want to see if 
there is a way to sort of stretch out the discharge so that 
there are several weeks, months even, of white water rafting on 
the river; and yet, there is no money requested for the study 
that's required in the budget request. For years, we have 
mandated that this study take place and the Corps says have a 
nice day. But can we get an answer on this? I mean, it's a 
fairly small amount of money--probably a million or so; but the 
principle is involved, and the success of that project is 
involved; and I am so frustrated because the Corps just simply 
will not pay attention. What do you think?
    Mr. James. Let me ask you one question, sir. This dam, is 
it a flood-control dam or water supply, do you know off hand?
    Mr. Rogers. It's all of the above.
    Mr. James. That's unusual. Some of the kickback might be 
fear of loss of flood control if that pool isn't pulled down 
quickly enough for flood season. I don't know that; I am not 
familiar with the dam, and I have not been out there in the 
white water yet, but I would like to go. Let me see what the 
General knows about it. If we don't fully answer you, I will 
get back with you, sir.
    Mr. Rogers. The study only cost $1 million, and half of 
that cost will be borne by the State governments. So, the Corps 
only needs $500,000.
    General Semonite. Congressman, I am sure there is a way 
ahead. We do this in other places. I am from Vermont, and there 
are certain times when we are able to let that go for white 
water. Obviously, recreation is something that is an authorized 
purpose in a lot of our facilities. So, I am not convinced that 
we have to necessarily do a full study to be able to figure out 
in the water control manual where are there some times to be 
able to optimize that and do the recreation? What I will do is 
have the Colonel in charge come report to you, and make sure 
that he lays out what our options are; and if there is 
absolutely no way possible to be able to do that release 
without a study, then we owe you that, and we'll go back in and 
then lay that requirement back on the Secretary; but most of 
the time, we have enough flexibility in our water control 
manuals to do this unless there is some very abnormal 
endangered species thing or some other kind of an issue. Let us 
go out and find out exactly where we are at on this particular 
issue, and we owe you an answer back.
    Mr. Rogers. I take that very seriously, so, thank you. This 
is a fairly small amount of money; it is a fairly small item in 
your agenda, but it's big for the people of Pike County who are 
suffering from the tens of thousands of mine layoffs that are 
there. They are looking for a way to make a living; and tourism 
is the best thing we have got going in those mountains and 
great streams, but we can't get the Corps engaged, and I've 
been after this for years. In fact, I have rode the river. I'll 
do anything to try to get help. We have paddled the river; and 
it is a great river. It needs water, as all rivers do; but this 
one needs some white water. Thank you, Mr. Secretary.
    Mr. James. Yes, sir. We have got that, and we'll be back 
with you very soon.
    Mr. Rogers. Thank you.
    Mr. Simpson. Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. And I am 
going to try and move quickly because I have several questions 
and I want to fit as much in as possible, and whatever I don't 
get to, we will just submit for the record. Thank you all for 
being here. It is interesting. So, my first one is mostly about 
permitting; and I am going to submit most of that piece--but it 
was following along with what Mr. Fortenberry brought up--and 
the answers that I am hearing are mostly--where it is not 
complicated, or there are not endangered species, or fish and 
wildlife is not involved, we can move pretty quickly. Well, 
welcome to the west, where all of those things are always 
involved, right. And shout out to General Spellmon. He's done a 
great job. He's got a lot on his plate. You mentioned a small 
little pipeline that he has had on his plate, right. Well, 
almost every permit in my district involves all of those 
things, whether it is for a small project with, you know, 
oyster growers, right, aquaculture, who have been given permits 
and then had those taken away, or it is a big issue like the 
Columbia River. So, it is all complicated where we are at, and 
we desperately need your help. We don't have the good fortune 
of having--some of the--or activist governors who are not 
necessarily interested in seeing just commerce. We have an 
amazing hydro system, right. It is a carbonless energy system 
that produces--if we were to pull it out like some people want, 
we would see--it is like 15--I have heard 15 or so coal-fired 
plants would be needed to replace that load-bearing generation, 
which is just ridiculous to me. So, we at Wright Parish spent a 
lot of money and a lot of time trying mitigate--to protect our 
wild salmon runs, but we need your help and so some of the 
questions I am going to submit for the record are in that vein, 
but I guess more than anything we need to impress upon you as 
we move forward we are going to be calling on your office and 
your office and we are willing as a delegation, as a region to 
do whatever we need to do, but we are going to protect this 
resource, we are going to protect our fish runs and we are 
going to fight whoever we need to fight, but this is a big one 
and it is not going away. So having said that, let me move 
really quickly and hopefully, General, you know, previous Army 
Corps leadership has been clear about how they felt about 
Waters Of The U.S. and I know that that has been rescinded but 
it is taking a while for us to see the right EPA finalize how 
they are going to move forward with regard to the Court action 
and I just wanted to hear from you what is the current status, 
what is the current thoughts about WOTUS, Waters of the United 
States, by this current Corps leadership?
    General Semonite. Well, Congresswoman, I will defer to the 
Secretary on that. His office is working that a little bit more 
closely with the EPA than I am.
    Mr. James. Working very hard, ma'am, to get the Waters Of 
The United States back in line with where it came from and 
there is nothing established at this time, but it is being 
worked as rapidly as possible. We are having input on that and 
if our office gets its way it will be more common sense than it 
was last year.
    And let me mention right quickly on the hydropower part, I 
am a great believer in hydropower. I think we ought to have 
hydropower dams in a lot more places than we do and on the 
permitting process I think General Semonite and I both are 
committed on all permits to speeding those up with a little 
less pain where it will not be like the dentist maybe.
    Ms. Herrera Beutler. Well I appreciate that. You know, some 
of our challenges were split between Seattle and Portland and 
we see dramatic differences in times of similar permits between 
the two offices, which tells me it is not always just the 
complication of the issue. It is the complication of the staff 
and you talked about empowering staff to hold them accountable. 
I agree. We need to do that and which is why I have also looked 
at whether or not we could transfer my region into the Portland 
leadership and if we need to we will continue that direction. 
One more piece just because I am running out of time. Judge 
Boyles, on Puget Island. So you all, we worked very hard to 
deepen the channel of the Columbia River, had tremendous 
success. Our ports have enjoyed and the people along with it, 
tremendous benefit. I have a small group of folks who have 
taken kind of the brunt of the dredging. The Army Corps 
dredges, does maintenance dredging now, takes the spoils and 
then drops it at a preapproved site where it just sits. Well we 
see the beach actually eroding where these bigger ships are 
going through and there is probably going to be a disagreement 
about what is causing the beach to be eroded, but what I do 
know is it needs re-nourishment and these folks watch as the 
dredge is taking the spoils out and then take it up river. If 
they could just put it back on the beach and we are in a 
process, we had a permit to do this. It expired. We are in like 
year 3 of trying to get it renegotiated. I think we are going 
to get there. The question is how long and painful is it going 
to be in the interim. This is an issue where, and I do not have 
any more time left, but I am going to follow up on that as 
well. And let's see, I think that it is. I am going to have to 
submit everything else for the record. You all are just some of 
my favorite audience. That is what it is. Thank you.
    Mr. Calvert. Thank you, Mr. Chairman and Mr. James, General 
Semonite and let us see, fiscal year 2018 Appropriations Bill 
moves forward. I am actually still awaiting the 2018 Work Plan 
for the Corps to make sure it includes the requested 6.2 
million to complete phase 2A project, Phase 1 environmental and 
the side by side comparison for the validation report for the 
Marietta Flood Control Ecosystem Restoration Project, which is 
in my district, and I brought this up to you a number of times, 
General, as you well know and Marietta Creek is, we intend to 
keep moving through to completion. We are currently working to 
complete the side by side comparison for the validation report. 
The report is expected to capture the cost reductions 
identified in the Value Engineering Exercise conducted by the 
Corps district and the local sponsor. We believe these updates 
will result in a more accurate benefit cost ratio and reinforce 
the appropriateness of and the critical need for federal 
participation in this project. So my question as I bring this 
up every hearing and I hope to one day find a different topic 
to talk about, though I do have something that was Reclamation, 
but until that day happens the last significant flood project 
in my district and the last flood was back in 1993. It caused 
significant amount of damage in the local community, about $21 
million but also people forget it caused a lot of damage at 
Camp Pendleton. Remember all those helicopters were on the 
tarmac there and they, I think we destroyed about $75 million 
worth of helicopters at that time. They would probably cost a 
lot more today. Please understand the population in this area 
is quadrupled since the project's feasibility study. Today the 
economic impact of those projects would be much greater, not to 
mention the significant number of businesses infrastructure 
which remain vulnerable to flooding and we need to address it. 
Can you comment to me that you will include this fiscal year 
2018 funding in your work plan, send the reprogramming request 
forward quickly, provide the necessary funds to advance this 
project from fiscal year 2018 Emergency Supplemental to keep 
the Marietta Creek Project moving forward towards completion?
    General Semonite. Congressman, first of all the work plan 
will go through the Secretary and OMB so I will certainly tell 
you about what my position is, but as to what comes out will be 
obviously up to others. I had a meeting in the last 24 hours 
with Colonel Gibbs and General Helminger about this. This is a 
4 phase project. They walked me through this. You definitely 
need 3 different buckets of money. You need about $5.5 million 
to be able to do one part of it, you need about another million 
to be able to NEPA and you need $3.5 million to clean out the 
sediment down in Phase 1. I think this would compete very, very 
well in the fiscal year 2018 Work Plan because we have done the 
majority of this work. We just need to get this thing across 
the finish line. This is something I would go to the Secretary 
to say let us continue to push and I am mainly talking Phase 1 
and Phase 2. Anything that happens on Phase 3 and beyond is 
going to be the committee's decision as to what would happen on 
how you fund the additional phases, but I think the ability to 
be able to see closure on those first ones is something that we 
would be very excited about.
    Mr. Calvert. Well, Secretary, I do not know you yet, but I 
hope you paid good attention here to the good General because--
--
    Mr. James. I heard him, Sir.
    Mr. Calvert. OK. I hope you listen, too, Mike.
    Mr. Simpson. I heard it.
    Mr. Calvert. So I thank you for your consideration. We 
would like to get this project done and thank you for all the 
work you have done on the River Plan. I think maybe in my 
congressional career, I only been here 26 years, I may actually 
see that come to completion as long as the voters agree that I 
need to be around here for a little bit longer. One quick 
question for the Commissioner. Thank you for being here today. 
As you know, in California we have our fair share of water 
issues and then some and some recent reforms are working 
better, but there is always more that can be done and should be 
done. We have two major waterways that provide California water 
that people need, the Colorado River and the Bay Delta. Tell me 
about the difference in these projects. Why is it that Colorado 
River provides water year after year and the Delta is so 
pragmatic? There is no listed species, are there no listed 
species in the Colorado River? Is it strictly a storage issue?
    Ms. Burman. Thank you, Congressman, for that question. The 
Colorado River is on its 18th year of drought and counting and 
the extraordinary difference on that system, which does have 
endangered species and has habitat conservation plans and other 
plans to address those is that they have 60 million acre feet 
of storage, meaning an overwhelming amount of storage to cover 
dry years to wet years. So after 18 years of drought that 
system is still about half full overall.
    Mr. Calvert. That is exactly what I wanted you to say. So 
does that mean we do not have enough storage in the Bay Delta?
    Ms. Burman. So you can just look at 2017, which is the 
wettest year on record for California on the Sacramento System 
and this year, which is very dry so far, and the Central Valley 
Project, which is a federal project, we are having to reduce 
allocations for water this year, so after the wettest year on 
record we do not have the storage in the system to be able to 
carry over supplies into the next year.
    Mr. Calvert. So what is the Bureau doing to make sure that 
California gets the storage it needs?
    Ms. Burman. What are we doing to work on California 
storage?
    Mr. Calvert. Yes.
    Ms. Burman. A number of things. So with the urging of the 
California delegation and others, we have been studying storage 
in California for 2 decades and the WIIN Act passed in 2016 
called for new storage opportunities. In 2017 Congress said 
that they were going to put $67 million towards new storage and 
then our job at Interior was to send you a list of what 
projects would be most useful for that.
    Mr. Calvert. That would be great. I would like to see a 
timeline where we can finally maybe build something rather than 
study it.
    Ms. Burman. I absolutely agree. I think Shasta Reservoir is 
able to move to construction with support from Congress by the 
end of 2019.
    Mr. Calvert. That would be wonderful. Yeah, I know, yeah, 
doing great, Brenda. Thank you.
    Mr. Simpson. Mr. Serrano.
    Mr. Serrano. Chairman, first of all, I am sorry about my 
voice. The worst thing that could happen to a politician, lose 
your voice. It was cold outside with the high school students 
who were making their voices heard outside just now. General 
Semonite and Mr. James, first of all, thank you, all of you for 
the work you do and for being here today. As you may know, the 
Corps of Engineers was instrumental in cleaning the Bronx River 
and bringing it back to life. For that, my constituents and I 
will be forever grateful. Can you give us some information 
regarding the Bronx River Project as well as the New York 
Harbor Projects included in your requested budget and their 
estimated time of completion?
    General Semonite. Congressman, good to see you again. I 
remember in 2007 when you and I went to the Bronx River and you 
told me the story about the beaver down in the River and so we 
continue to be committed to that.
    Mr. Serrano. Well, sir, he is still there.
    General Semonite. Yes, sir. As you know, we have been 
working hard on continuing to work the study of a lot of this 
and then right now we are doing an interim decision memorandum 
in the next month and a half. The Feasibility Report will be 
done by January 2019, that is the Feasibility Report and the 
Environmental Assessment and then I plan on signing a Chief's 
Report in October 2019. If I can try to cheat that to the left 
we will try to do that, but we are committed to continue to be 
able to tee this up for the Secretary and the Congress to be 
able to make additional decisions on the Bronx River and we 
want to put the best economic analysis and engineering analysis 
we can in to take care of this great capability.
    Mr. Serrano. That would be, so you say by June 19th is key, 
one of the key dates.
    General Semonite. I sign the document----
    Mr. Serrano. June 2019.
    General Semonite. I'm sorry, October 2019 is when I sign 
the Chief's Report and we do not think right now we can do a 
lot more on time, but we certainly want to try to continue to 
work with you and the staff to try to, whatever we can move to 
the left, we want to move to the left.
    Mr. Serrano. Well moving to the left is always a good 
thing. I had to say that. Thank you. On another subject, 
gentlemen and ladies, Cano Martin Pena in Puerto Rico, you 
know, which continues to be a problem, involves the dredging of 
approximately 2.2 miles of the eastern end of the canal which 
will provide significant ecosystem restoration benefits and 
make the adjoining communities more resilient to the effects of 
climate change. I wanted to commend the Army Corps of Engineers 
for the hard work as done in Puerto Rico. Can you give us an 
update with regard to the Cano Martin Pena Project and why it 
was not included in the budget request? Is this project in your 
rebuilding plans for Puerto Rico as you know the need for this 
project has become even more urgent since Hurricane Maria, 
which resulted in additional flooding and debris material in 
the canal?
    General Semonite. Let me take a start at it and then the 
Secretary can jump in. I have been to Cano Martin Pena 3 times 
in my career. I have been down, walking through there, I 
understand that project very well and as you had said, there is 
a lot of importance on continuing to not only take care of the 
flood control capability, but the people. This is a very 
devastated area and the people deserve something better than 
this. As you know, right now we continue to be very, very 
committed in the Corps of Engineers of rebuilding Puerto Rico. 
We have had over 3000 people, $4 billion of our taxpayers' 
money going in to do that and we are at 92 percent of the grid 
today up and running by rebuilding the Puerto Rico grid along 
with a lot of other things. The supplemental that I talked 
about earlier before you came in, Sir, the $17.4 billion that 
the Corps got for disaster response, that is mainly going to 
the 4 big areas impacted by the 3 storms, Harvey, Maria and 
Irma and so we now are making a portfolio of where we see those 
projects eligible for certain parts of that particular money. 
This is one that we will look at to see if Cano Martin Pena is 
able to be wrapped underneath that disaster supplemental. I do 
not know right now the analysis. My staff is working on it, but 
we are not sure if that is going to be able to be qualified for 
that supplemental or not. There are portions of this which is 
also ecosystem restoration and ecosystem restoration is not 
underneath the disaster supplemental, so I think what we owe 
you is probably come back in, let you understand what our 
analysis is and if, in fact, we do not have good news with 
respect to the supplemental, how do we continue to be able to 
champion that under ecosystem restoration.
    Mr. Serrano. Well I appreciate that because if we could 
include it in the supplemental that would be fabulous. I mean 
it is a project that was a problem before. This disaster in 
Puerto Rico now has added to it and once again, I know that you 
have taken some criticism. We all do in public life or 
agencies, but I am very happy with the work you have done in 
the Bronx and I am very happy with the effort you put in Puerto 
Rico and I know that effort will continue. Thank you.
    General Semonite. Thank you, sir.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Simpson. Where you are working operating under I guess 
you are into the 6th month now of a CR operating at slightly 
below 2017 levels as it works out. Assuming that the 2018 
budget, while I will not release any information because it is 
tightly held, if your budget is substantially increased above 
2017, do you have enough time to spend it? Is that a challenge?
    General Semonite. I think from our perspective it is not a 
significant challenge mainly because most of that budget, sir, 
is able to be used in other years. It is not a 1-year budget 
like we are having. I also do all of the construction for the 
Army and a lot of DoD and so when it comes to other types of 
money, a good example is DoD OMA, that is going to be a 
significant problem of obligating that money, it is not Civil 
Works money, but it is other kind of money, but on this 
particular one, Chairman, I am not aware of any significant 
challenges when we come to the fiscal year end where any of 
that money is going to necessarily go away or have any 
ramifications. It just means we are going to have to carry over 
money and we need your consideration that that will allow this 
to be a factor when we do that. Sir, I do not know if I said 
anything incorrect. Do you want to add to?
    Mr. James. No, that is exactly what I was going to add to 
that is that out in the field, out on the ground in the 
districts and the divisions I have noticed that when it gets 
close to the end of the year, people start trying to spend 
money and my ask on that has been in the past why are doing 
this, why are you doing this. They are afraid if they take that 
money over into the next fiscal year they will be cut by the 
amount that they take over, so they push and push and push and 
maybe not to the most effective methods in the fiscal year 
which they got the money and I would like to visit with you, 
sir, and to see how that is treated when you are considering 
your next process because I think at times we could make better 
use of the money if we are not rushing right at the end of the 
year.
    Mr. Simpson. I think you are right. I have watched other 
Federal agencies that I am familiar with spend half of their 
budget in the first three quarters of the year and the other 
half in the last quarter for the exact same reason that you 
mentioned, that they are we got to get it out of here or we 
will be punished for having extra money or stuff and is the 
same challenge with the Bureau?
    Mr. Petty. Chairman, yes, with regard to the ability is I 
think Reclamation is incredibly flexible and so with this next 
year's budget, with any budget that goes above and beyond we 
have the ability to really utilize that in spaces that we are 
ready to facilitate and to keep moving.
    Mr. Simpson. Well we just need to make sure that when we 
are doing the 2019 budget that we take into account that there 
have to be some rollover or whatever from some of these funds 
or whatever and we want to work with you on that. We have to 
make sure that the money that we're using is being used 
efficiently. I know that you're concerned about that also and 
stuff, so--anyway, I've got to go to another event that I've 
got to be at and Mr. Joyce is going to take over.
    Ms. Kaptur.
    Ms. Kaptur. Thank you very much, Mr. Chairman.
    Let me ask--General Semonite, I would like to go back to a 
comment you made in response to Congressman Joyce's discussion 
of the Great Lakes. You said that Ohio has a goal of no more 
open lake dumping, which is a goal that we both support.
    I just do want to mention that that is not a goal, in fact, 
is a law in Ohio, and I wanted to thank Congressman Joyce for 
initially raising this issue.
    I also wanted to go back to some earlier questioning on the 
Soo Lock. It is my understanding, Secretary James, that you 
will be visiting later this month. Thank you so very much for 
doing that.
    I am not clear on what weight National security factors 
will have in determining the cost benefit ratio, which drives 
the ability to get the project into the President's budget.
    As I understand it, the model being used currently results 
in a $2 billion input for the railroad cost, but the actual 
cost to build it would be $4 to $10 billion. This really 
doesn't make any sense to those of us who have looked at this 
and our view is that the input should be based on the actual 
cost of building the railroad.
    We hope you will agree with that, and I would very much 
appreciate a briefing from the appropriate folks in your office 
so the experts from the Corps on this issue could provide us 
with a clear sense of where you are headed.
    Mr. James. Absolutely, Congresswoman, and I agree with you. 
To me, this is a priority. When 95 percent of the iron ore of 
our nation comes through that one lock that we have now, 
without any redundancy on an aging lock, it is a very dangerous 
situation for National security reasons.
    I'm not sure--I have not seen how the benefits versus the 
cost have been calculated. If would give me a week to digest 
that myself, we will gladly come over and visit with you about 
that.
    Ms. Kaptur. Thank you so very much, I think your idea of 
going with dispatch, being mindful of all these different 
factors would really help us with something like the Soo Lock, 
which is so vital to this country and located at such a 
critical point in our infrastructure.
    So the information that your staff has and the way they're 
thinking about this would be very beneficial and we thank you 
very much for your attention.
    General Semonite. I'll get that to you just as soon as 
possible, ma'am.
    Ms. Kaptur. Thank you very much. I wanted to just say to 
both Secretary James and General Semonite, I don't know which 
of you could discuss this, but in terms of the beneficial use 
of dredge material, I really sense a bit of a seachange, a 
tectonic shift slowly, by the Corps, which is welcome, related 
to the beneficial use of dredge material. There are many areas, 
including in my own district, that are writing proposals for 
submission.
    Secretary James, or, General Semonite, could you please 
explain a little bit about how that pilot program might work? 
For example, how do you plan to fund these activities and what 
kind of visibility will you provide to this committee? Do you 
have any idea how you'll select individual projects, and how 
will you determine whether the pilots are successfully using 
Federal dollars?
    I think this is so important. Back in my first term, which 
was a few years ago, actually a few decades ago, we sent 
samples down to Vicksburg back in those days from all of the 
sediment coming out of our ports and being deposited then and 
confined disposal facilities and I thought what a waste, what a 
waste.
    Now looking at some of the phosphorus in there, the 
different elements that be withdrawn and reused and the 
material themselves, there really is in this 21st century a 
need to rethink how we use what could be an enormous organic 
for the world added to perhaps by the materials that our major 
sewage treatment plants have along the lake once material is 
processed and the heavy metal is withdrawn.
    So I just wanted to get your thought about how you look at 
this beneficial reuse of these vast, vast amounts of organic 
material.
    General Semonite. So, Congresswoman, you and I have talked 
a couple times in your office a couple times. I'm excited about 
where we're going with beneficial reuse. We look at sediment as 
a resource.
    The more that we can continue to take advantage of that for 
a couple different reasons, first of all, if we don't find a 
better way of taking care of this sediment, then we're going to 
end up being more and more expensive on how we dispose of it 
and the United States can't afford that and there are some 
great opportunities out to be able to do it.
    Now, on the pilots, you know very well that Congress gave 
us this authority to be able it look at pilots. We've had 
queries out for several months now. We just closed off those 
queries. We've got 86 different requests for pilots. We're 
going through those 86 right now.
    We'll have our recommendation done on 4th of June and then 
we will go forward with at least ten to be able to continue to 
look at--we want a variety of how can we look at different ways 
of doing this.
    Now, here's where I need help though, ma'am, and, Chairman 
Joyce, this is where we got a great recommendation from 
Congress to start a pilot program, but there is no money 
against it.
    So I'm going to end up having to tell you that we've got 
the pilots and you're going to probably ask me what are you 
doing about it, and I need a venue or a vehicle of how we can 
then allocate funding--and I'd love to do it 2018.
    The problem is if I can't find an innovative way of funding 
it in 2018, then 2019's already on the street. So that means 
I'm going to have to wait until 2020. So we're excited to do 
this, but I didn't get a vehicle of how to fund it.
    Ms. Kaptur. May I just say this for the record, Secretary 
James is really sort of providential in your selection being a 
farmer.
    I just wanted to say with all of you in the room that in 
the watershed where we have the greatest difficulty right now, 
which is the Maumee, the Western Basin of Lake Erie, which 
drains the largest watershed in the Great Lakes, every year--of 
course, Toledo's the largest dredging harbor in the entire 
Great Lakes, so we have this vast amount of organic material.
    But in that watershed every year, we have the residue of 
43,500 box carloads of animal manure, because it is a giant 
agricultural platform. It is the old Black Swamp and related 
rivers and so forth that flow through.
    Imagine if you could mix the two. Now, I know it is hard to 
get the Corps to corporate with the Department of Agriculture, 
but when the Department of Interior figures out that watersheds 
matter in this map, somehow we as a country have got to 
integrate across disciplines.
    We have not been able to do that yet. We have been burying 
in confined disposal facilities, as the General well knows, all 
this material for decades. We have all of this matter, but in a 
country where we will have half a billion people before very 
long, five times as many living in this country as when I was 
born, there is some sort of water residue nexus that didn't 
exist when Native Americans populated the region that I am 
privileged to represent.
    So somehow we have to put our thinking together. We could 
launch a gigantic organic's industry, but we haven't been able 
to get the respective parties around the table.
    I've asked myself, Mr. Secretary, whether we need to have a 
separate title in the farm bill. I haven't talked to Secretary 
Perdue about it. I keep looking at they dig up the stuff, but 
then I have all this residue coming that is creating these 
giant algal blooms and we can't seem to get the departments 
together to help us.
    And it really--it is a tristate binational issue in terms 
of what we face. The Canadians are also dumping a lot of 
agricultural residue up there in Ontario. Mr. Ryan's river 
comes down into the northern--northwestern edge of Lake Erie, 
so it real is a test watershed.
    If we can figure out to manage this, and we really need to 
because we're not making any more freshwater, and I think that 
Commissioner Burman reminded us very well of that today.
    But we really have an opportunity, but how do we move this 
fast Federal bureaucracy to seize the opportunity to do 
something remarkable in this 21st century, that's really what 
our challenge is.
    Secretary James.
    Mr. James. I actually had a meeting with Secretary Perdue 
yesterday about another matter. I will ask for a meeting with 
him again and discuss this matter with him.
    I would like to get a little more information from your 
staff, a little more specifics of what we're talking about as 
far as the waste materials and so forth and be happy to visit 
with him, because he's a farmer too.
    Ms. Kaptur. Just to give you a perspective number, I hope 
I've got this number right, but Congressman Joyce and I are 
both privileged to represent parts of Northern Ohio, but we dig 
up enough dredge material every year through the Corps to fill 
the Cleveland Browns Stadium annually 400 feet high, every 
year.
    So when you start thinking about it--have I got that number 
right? OK.
    Every year, every year, every year and it just keeps coming 
down. So this a resource issue and we certainly have the 
brains. If we can build nuclear weapons in this subcommittee 
and maintain them, we can certainly figure out how to move dirt 
and to take elements out of it, but we haven't quite gotten 
there yet.
    The private sector and a lot of our companies that deal in 
natural resources and are very, very inventive, you have a 
private sector interest. It is not that it isn't there, but we 
haven't found a way to deliver it. We haven't--so anyway.
    I just wanted to raise that and I appreciate your interest. 
You are uniquely--what is different about this panel than 
anyone we've ever had before, we have an understanding that 
watersheds matter, we're trying to define them more clearly for 
the country, we have an expert in agriculture, and we have a 
General who also can spell environment.
    We've never had that combination before. So I think you are 
uniquely suited to do something remarkable for the country that 
really needs it.
    Mr. Joyce. Thank you, Ms. Kaptur.
    Congressman Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Commissioner Burman, let me just say it is a pleasure to 
see you again and I appreciated the opportunity to spend a few 
minutes with you last week talking about some of the issues 
important to me and your assistance with the draft service 
request concerning the Yakima River Basin Water Enhancement 
Project, an interesting--YRBWEP is an acronym that many people 
don't murder every time they try.
    I think you mentioned this in your opening comments about 
streamlining efforts and how we can get projects in rural 
regions, which most of the West is, like my district.
    I'm sure you're aware of not only the Yakima Project, but 
the Columbia Basin Project, the Odessa Aquifer Groundwater 
Replacement Projects, the Banks Lake Pumped Storage Projects, 
these represent reliability in delivering water into the 
future.
    I've been a very strong proponent of streamlining. I've 
introduced a bill that your, I guess you could say, 
predecessor, the acting commissioner, Mr. Mikkelson actually 
testified in favor of H.R. 4419.
    So could you expand a little bit on how reclamation would 
work to streamline these hydropower projects moving on into the 
future?
    Ms. Burman. Thank you, Congressman, and it was a pleasure 
to get to speak with you last week.
    There are a number of ways that Reclamation is moving 
forward with streamlining projects. First I would bring up the 
Secretary's order on NEPA, that is Secretary Order 3355, and 
that said, ``NEPA's getting out of hand.'' We need to be able 
to complete NEPA in one year and most projects within 150 pages 
for an EIS.
    So we are moving forward with that direction. That 
direction has been given to our field offices and area offices, 
and we are very much looking to how do we streamline that NEPA 
process.
    That also goes to recommendations that are out there in 
legislation as far as Reclamation being a lead agency, helping 
to pull together the many other agencies, whether it be the 
fish agencies, working with the Corps, trying to bring those 
all together to have a lead agency to move forward quicker.
    I would also say program management. We're looking at what 
we can do program management-wise. We think it is taking too 
long to get projects done. So looking at how do we streamline 
that. How do we make sure that we start a project and we finish 
a project and we are being open and transparent about how we do 
it and that it is done on time.
    Mr. Newhouse. Thank you. I look forward to working with you 
on all those things. We can get some of these projects off the 
ground and done. We so desperately need the ability to have 
water into the future for growth and for our communities, so I 
look forward to that.
    Ms. Burman. Thank you.
    Mr. Newhouse. General Semonite, going back to the Columbia 
River just for a second. I understand that the judge's decision 
in a way ties the Corps' arms behind your back for the running 
of the system, but I was interested to hear your phrasing that 
you are compelled to follow the decision.
    As you well know, our agencies, the administration, we're 
working--we're fighting this decision in the courts, so I 
question the language I heard you use that you are compelled to 
follow this order. I'm working hard to stop this.
    My question: Doesn't this order hurt your ability to do 
your job as it relates to the FCRPS?
    General Semonite. I think, Congressman, there are a lot of 
opinions on this. I always like to try to stay in a balanced 
approach, so we're taking care of the needs of the environment, 
the needs of the habitat, while at the same point taking care 
of the needs of navigation and hydropower, so I'm sure there 
are different opinions on this.
    If I said that we're going to just follow the order, I 
believe my guys right now, our team, is working with DoJ to 
continue to work through the litigation of this with different 
appeals.
    It doesn't mean that we're going to stop where we're at, it 
means that we will continue to be able to process that, but I'm 
not going to instruct our guys, my team, to do something 
different that's against the judge's current ruling.
    Again, I don't know the specifics on that as far as 
litigation outcome, but we can certainly come and talk to you 
and lay out what our course of action is, but we want to try to 
work within the Government in the decisions that the judges 
have made.
    Mr. Newhouse. As do I. I want to process to move forward. I 
want to be as responsible as we possibly can for not only the 
environment and the fish that we've--as Mr. Herrera Beutler 
said, we've invested a lot of money into those fish runs, but 
we also want to be cognizant of the people that live in this 
area and the economic impact that we have to consider as well.
    So I look forward to working with you on this. I think this 
is not a mutually exclusive thing. I think we can have the 
dams, we can coexist with the environment and work very hard to 
accomplish that, but I think we can do that without unnecessary 
economic harm to the people that live in the region, and that's 
my determination that I'm working very hard to make sure that 
we don't allow that to happen.
    General Semonite. Congressman, this is so important to me. 
I directed my staff to get me up to the area. I like to walk 
around and be on the ground, muddy boots, and talking to the 
people.
    I'm going up there in about the next two months to be able 
to understand some of the dynamics out there and certainly want 
to be more informed on what are those impacts back both to all 
different players in this equation.
    Mr. Newhouse. I'd appreciate that. If we coordinate, I'd be 
happy to be there during your visit if we can make that happen. 
There is a lot of things to understand. It is a complex system 
as you know.
    Like I said, a lot of time and dollars--taxpayer dollars 
have been invested in this system to make it work. We're seeing 
salmon recovery rates in the the high 90 percentiles.
    So to put at risk the economic future using, in my humble 
opinion, unscientific reasoning is just not the proper way to 
go, and I'll continue to fight this fight and look forward to 
working with you and to a successful conclusion.
    Mr. Joyce. Thank you, Congressman Newhouse.
    Congressman Serrano is recognized.
    Mr. Serrano. I have a question. The minute the President 
has stated his intent to put forward a proposal on 
infrastructure investment in the near future. What extent have 
the corps and Reclamation been involved in any discussions 
within the administration.
    Do you have any information for us on when we might see a 
proposal or what type of assistance might be included for your 
agencies--let me go back to an earlier state that I made and 
add something to it.
    For a person who has spent as many have a career saying be 
careful about our military involvements, when the hurricanes 
hit Puerto Rico I said, why don't you send the military in, 
send in the military in full force. I said, because the 
military is always seen as a fighting machine, but it also 
builds communities, it builds ballparks, it builds churches, it 
builds whatever it needs to build to bring the people back. At 
that point, some people thought I was crazy and so on.
    So I want to make sure you're well taken care of in the 
infrastructure that is set ahead, because I know the kind of 
work you can do and in spite of the criticisms you take every 
so often because we always want you to work faster than you 
can, but I don't know how to do any what you do, so I have to 
cool it down.
    I want to know to what extent you can tell me your 
involvement, the Corps' involvement, Reclamation's involvement, 
and also what we expect to see your role to be when a project 
takes off, and I believe a project will take off.
    General Semonite. I'll tell you about the Corps first and 
then the Secretary can jump in. I said this just a little bit 
earlier before you came in, sir, but a year ago we started a 
very aggressive engagement with the White House to talk to the 
senior leaders over there that are putting infrastructure 
package together, the layout--what is the $96 billion of 
backlog that the corps has to be able to make sure that they 
think through infrastructure.
    They think through water infrastructure, which sometimes 
the average American has a hard time understanding the value of 
water infrastructure, even the point we have put a very, very 
senior engineer inside the White House to advise that 
infrastructure team on what are some of the risks there to the 
infrastructure.
    I am not in a position to talk about when is the time we 
would think that the President is going to release more 
information on that, but I want to make sure you're aware that 
the Corps is very involved in proposing different projects that 
could be involved as well as the risk that could happen if in 
fact those projects are not considered.
    The nice thing is most of these already have permits, a lot 
of these already have construction undergoing, it is just a 
matter of not getting a fund flow that would allow them to be 
done in a more efficient and expeditious manner.
    I told the committee just a little bit earlier that the 
Secretary and I had breakfast in the White House yesterday 
morning talking with some of the senior leaders about the value 
of our water infrastructure and the importance of making sure 
that it is included in any analysis.
    Sir, is there anything you would want to add to that?
    Mr. James. I would only say right now that the Secretary's 
office have also been very heavily engaged with the 
administration. I personally have not yet. This is my fourth 
week in office, but I have been--in order to move forward those 
funds and get the most bang for the buck, I am very interested 
and have been chosen to lead a task force to look in ways that 
we can expedite service and, as Ms. Burman said, speed up the 
NEPA process, discover policies, legislation, Executive Orders 
that might be actually hindering us not helping us move forward 
with infrastructure, so that's my focus right now.
    Mr. Serrano. Let me ask just ask you--I said that was last, 
but one last question for sure.
    Last year the Army Corps was assigned by FEMA to rebuild 
the power grid in Puerto Rico. As you know, there is still a 
certain amount of people on the island, significant amount by 
what I hear, that still have no electricity 6 months after the 
hurricane.
    I'm concerned that with the money that Congress provided in 
the last supplements were restoring power but not in a 
resilient way.
    Does the Army Corps have concrete plans to build a durable, 
resilient, efficient energy system for Puerto Rico, because one 
of the main concerns is that there is a need to restore power?
    Of course if your power goes on again after six months of 
not having lights, you're not going to get into any other 
questions with anybody about how long will this last, but we 
know that these hurricanes will continue to come and they're 
going to come at different ways that they came in the past to 
places like--New York had never heard of these things, we now 
have to get ready for these kind of things too. So what are we 
doing in Puerto Rico, are we restoring or rebuilding also?
    General Semonite. Congressman, first of all we're very, 
very proud to be asked to go down to Puerto Rico and to do that 
work. We do work for FEMA under that and we work under the 
Stafford Act, which basically means we restore back to a given 
level.
    The disaster supplemental that was approved, and 
specifically the $17.4 billion that the Corps got, the majority 
of that $17.4 is in flood risk management and other types of 
water capability to repair back.
    We are not being asked right now to be able to be a player 
with respect to resiliency on an additional capability into 
Puerto Rico, so I'll leave that question up to FEMA. I don't 
know exactly what that is.
    I do want to let you know, though, that for the last six 
months that we've been down there, we've had several different 
recommendations back into the Congress as to where those 
investments could take place, where we can build resiliency 
back in.
    I think matter of fact one of my two stars is testifying 
tomorrow again to be able to make sure that we are informing 
Congress where good investments can take place, but that is 
something that we are not being asked to do with respect to the 
long-term resiliency in Puerto Rico.
    But you're definitely right, there are some places that we 
made recommendations that if you don't harden that system, it 
is going to continue to get hit year after year, and then the 
taxpayers are going to continue to have to go back and rebuild 
unless there is some resiliency built in.
    So I'll stay in my lane. We brought it up to pre-storm. 
We're 92 percent done as of this morning. But as far as long 
term, I will leave that up to the other parts of the 
supplemental that it hit on the electrical grid.
    Mr. Serrano. Thank you. Thank you.
    Mr. Joyce. Thank you Congressman Serrano.
    Congresswoman Kaptur.
    Ms. Kaptur. Yes. I wanted to just restate our concern about 
the Asian carp in the Great Lakes. Congressman Joyce brought 
this up very eloquently, but I wanted to point something out 
and, that is, that the current solution barring any permanent 
barrier or enhanced barrier at Brandon Road or other locations, 
is that--the solution of the government of the United States 
currently is to take money from the Great Lakes Restoration 
Initiative, the GLRI, which by the way the administration has 
zeroed out and it is our responsibility in Congress to restore 
it, to embark upon a fish-out program so what that means is 
that they hire contractors who go down to Mississippi, and 
perhaps to Illinois, I'm not sure, and they're fishing out 
these fish.
    It is interesting to me that--so the Department of 
Interior's involved, but they contract out. The money comes 
from EPA/GLRI, which is zeroed out. To me it is kind of a cut-
and-paste solution, it is not really--a very robust fishing 
program.
    I can't tell you how many years I've sat here and said to 
the various entities involved can you show us--if these are 
armies, battalions swimming north from Mississippi, show me 
their concentration so we can get a sense of the spread, how 
big are they, how multilayered are they, where are they. With 
all the detectors we have and everything, isn't this something 
we should know about?
    As they entered the Ohio River and they ate up everything 
or they entered the Peoria and ate up everything. It seems to 
me that we're not getting the best information the 
administration's different departments have to help us get our 
arms around this.
    A question a normal person would ask is: Do we have enough 
fishing battalions out there, what more can we do to prevent 
them from moving north? I don't sense any rigor across the 
Departments in really getting their arms around it. So it is 
kind of an attitude and it is frightening to the $7 billion 
fishery that I represent on the Lake Erie side that it is sort 
of destiny, destiny that these things will get up the river and 
will get in there.
    I don't really accept that. I sort of have a vision that 
maybe there is a genetic control that's going to kick in here 
at some point. So we've got to be more aggressive about fishing 
out what's coming up and we have to find a beneficial reuse for 
it. Rose food is probably a good one. But I just am concerned 
that we're not treating this enemy as we would some of the 
others that we have faced.
    So I just wanted to put that on the table, so you 
understand our concern, if there is anything you can do to put 
together a more coherent interim solution.
    As we keep getting delayed and delayed and delayed on the 
Brandon Road study, I almost view the delay as an acceptance of 
the fate that this is going--we've accepted the fate on the 
Executive Branch side that this thing is going to get in, 
that's how we look at this delay in our region.
    So I really encourage you to do what you can to look at 
counting monitors. We even have monitors we put all over Lake 
Erie now to monitor the sediments and the particulates, 
phosphorous, and nitrogen that's in the water as a result of 
the runoff.
    But we don't have anything like that that is well presented 
from the Executive side on this enormous challenge we face with 
these horrendous critters coming north. I don't know what more 
I can say.
    Our maritime community will do anything to help, our 
tourism industries, everything that exist across this 
shallowest but warmest of the Great Lakes, more fish than all 
the other Great Lakes combined--I'm saying that for the record, 
so people understand what is at stake here.
    It seems like a glue-and-paperclip solution. I would guess 
that Congressman Joyce shares this concern equally and it is 
really not a very sophisticated approach. I'm hoping that you 
will be able to add more rigor to this current strategy and 
help us develop a more sophisticated approach, because people 
in our area don't want to believe that this is inevitable.
    Does anyone want to comment?
    General Semonite. Ma'am, I'll just talk to you about the 
fact that we do partner with DOI very closely with respect to 
where do we see that front line trace. I've shared this diagram 
with you before. This is a consolidated product, so we know 
where the adult population is, where the spawning population 
is, where do we see the juveniles, where do we see the front 
fish that are out there, and we can continue to share this, but 
this is a cooperative project with DOI.
    I don't disagree with you that there is probably a lot more 
that could be done, and I can't comment on the fish program. We 
aren't involved in the fishing part of it. But I would just 
tell you that I do think it is important to know where the 
enemy is and to be able to make sure we are aware of what that 
threat is and how it might progress up and down that river.
    And I'll leave it to others to jump on, if need be.
    Mr. Petty. Thank you, General. Obviously for the Department 
of the Interior, it is a very high priority. Across all the 
bureaus now, we've actually put a specific group together to 
deal specifically with invasive species. I was just being able 
to get a brief from the U.S. Geological Survey out of our 
research center there in the Great Lakes, the Midwest, out of 
Michigan, Indiana, Ohio, specifically not only the Asian carp, 
but you've probably already been briefed up on the grass carp 
as well, right, and how do we really take these on.
    It is complex. The Army Corps has been able to really help 
us, specifically deal where are they at, where can we go after 
them, what can we do to not only feel like we're on the 
defense, but how do we go offense.
    So as we work not only with EPA and the other agencies--
that's why it gets back to even some of the groups of reorgs, 
so that all of our bureaus internally with DoI are on the same 
page specifically with these invasives and then working 
outwardly with the agency.
    That is our goal and we put a high priority within this 
administration to specifically do that with asking 
specifically--requesting money for the invasive species 
program.
    Ms. Kaptur. I don't know who inside the Department could 
take a leadership on this, but I would very much appreciate a 
Skype briefing where we could put on the other end of the line 
all of our marina owners, all of our businesses, all of our 
mayors, everybody that's concerned all along the lakefront. 
This is not a small group of people, those that manage our 
water intakes. I mean, there is just all kinds of things that 
we have to be mindful there.
    The General mentions the map, but it is not well 
interpreted. It is not a time series set of information so we 
can really show are we moving them back, are they advancing 
further north, what's the density.
    I mean, there is all these issues. It is a fish population, 
it is no different than a human--well, it is a little different 
than a human population, but you measure things and you give 
people a sense of how serious we are by the way in which we 
present this to them.
    And it is a big deal for our part of the country, so if 
there is a way you could think about making this understandable 
to an audience, we can provide the audience.
    And I think they need reassurance that we're doing 
everything that we can and this is what we know and this is 
what we need to do and let them help partner in some way. So I 
just wanted to put that on the table, because I always feel 
like time's running out. We're not really--we're not meeting 
the challenge here.
    All the money we've put out for genetic controls, not 
working, nothing, nothing yet. So there is the sense that we're 
losing the battle and that the battalions are coming north and 
that the spawning schools are moving north. I don't know if 
that's true or not, but we--our people need to know that.
    So if could I work with you on that, and I'm sure Mr. Joyce 
would share with his mayors, his marina owners, his port 
authorities, all these individuals, I think it would be very, 
very valuable.
    Mr. Joyce. Thank you.
    To follow up, not only are those local folks at home. But 
to give you an idea when GLRI was part of WRDA, it passed 408 
to 17. There is a tremendous amount of bipartisan support 
throughout the communities in that when we had $300 million 
zeroed out last year, it is back at $300 million.
    We'll continue to fight--this year they cut it to $30 
million, but we're going to continue to fight to get it back to 
what it needs to be. Because you need the money so you can plan 
accordingly, so you can continue the fight. We want to work 
with you to that end. That's why something like getting the 
study done and getting a plan of action together would really 
be important for all of us.
    I would like to thank all the witnesses for being here 
today. Excuse me, I'd be remiss if there is another question.
    I look forward to working with you to develop the Fiscal 
Year 2019 Appropriations bill. For that, the hearing is 
adjourned. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 15, 2018.

                          SECRETARY OF ENERGY

                                WITNESS

HON. RICK PERRY, SECRETARY OF ENERGY
    Mr. Simpson. The hearing will come to order. It is my 
pleasure to welcome Secretary Rick Perry to his second hearing 
with the Energy and Water Subcommittee. Secretary Perry, thank 
you for your continued service to our country, we appreciate it 
very much.
    I look forward to hearing from you today on the fiscal year 
2019 budget request and learning more about how it reflects 
your priorities for the Department of Energy.
    The Department of Energy's role in supporting our Nation's 
defense through the maintenance of a nuclear weapons stockpile 
and through support for the nuclear Navy are at times not well 
recognized. The importance of these activities are well 
reflected in the fiscal year 2019 budget request.
    However, with the strong increase of $1.8 billion, or 19 
percent, requested for nuclear Weapons Activities and $369 
million, or 26 percent, for Naval Reactors compared to the 
fiscal year 2017 enacted level, these programs and the other 
defense activities of this bill are and will remain a high 
priority for this committee.
    I am also pleased that the administration continues to 
propose appropriate funding for Yucca Mountain. Having the 
administration's support for current law is refreshing and 
hopefully will help us move past the legislative stalemate with 
the Senate of the past several years.
    The President's budget proposes a $1.9 billion decrease 
from fiscal year 2017 for energy programs reflecting the 
administration's desire to focus resources on early stage 
research and development. This committee must carefully review 
the request to understand the impacts to these important 
programs and activities.
    Unfortunately, the Department has been very slow to provide 
details about the request for Energy Programs. In fact, we are 
still waiting on some program details and others were provided 
just this morning. This delay means today's hearing is an even 
more important part of our oversight process.
    Secretary Perry, I appreciate you being here today to 
explain your budget request and hope that we can work together 
to move forward a budget that will strengthen our national 
security and advance our energy independence.
    Please ensure that the hearing record, questions for the 
record and any supporting information requested by the 
subcommittee, are delivered in the final form to us no later 
than 4 weeks from the time that you receive them.
    Members who have additional questions for the record will 
have until the close of business on Monday to provide them to 
the subcommittee office.
    With that, I will turn to my ranking member, Ms. Kaptur, 
for her opening statement.
    Ms. Kaptur. Thank you very much, Mr. Chairman, and we 
welcome you back, Mr. Secretary, and all of your colleagues who 
are with you today serving our country, and we are glad to have 
you back again.
    No department could be more important in America's security 
than the Department of Energy, in terms of energy security and 
also guardianship of our nuclear weapons complex so important 
to our strategic position.
    I understand that yesterday you also led a roundtable 
discussion on critical water issues. I want to thank you for 
doing that and for the administration grappling with this 
rather complex but timely issue, and for your action step to 
request information on how best to unleash innovation in this 
area.
    Our energy and water and food systems are interdependent 
and I don't think enough work has been done on the intersection 
of these important areas. Texas has experienced very heavy 
rainfall, enormous, and has had the edges of drought burn your 
edges there, so I think your special sensitivity here is very 
important to the Nation at this point in our history.
    We need to develop affordable, deployable energy and water-
efficient systems from agriculture to electricity generation 
and use, and I look forward to working with you on this 
important confluence of issues.
    Before we discuss the budget request, I want to take a 
moment to express some disappointment and, frankly, frustration 
that we are sitting here today over a month after the 
President's budget request was released. And unfortunately, 
only this morning has the Department provided the final volumes 
of your budget request. I wanted to make sure you were aware of 
that.
    During my time as Ranking Member on this subcommittee, I 
have never seen delays like this. While I understand that there 
are multiple administration entities involved in this 
production process, and certainly one called the Office of 
Management and Budget, I have to say this does not reflect well 
on the Department and does a disservice to this committee.
    I would like to take a moment to discuss the impressive 
strides we have made in increasing America's energy 
independence with no department more important than your own.
    I view this as a strategic goal for our Nation. We now 
provide over 90 percent of our energy needs from domestic 
sources. This is an accomplishment for decades in the making 
and I think with your stewardship we will get over the last 10 
percent and give us a little reserve in addition.
    Renewable energy is a subset of that; now accounts for 18 
percent of our electricity generation. This is nearly on par 
with our Nation's nuclear fleet and it has happened in a 
relatively short period of time, although some of our 
photovoltaic research goes back to the 1980s.
    Electricity made up a smaller share of consumer spending 
last year than it ever has in recorded history. And every 
business I represent tells me that if I can get the percentage 
of energy costs down, they become more competitive. The 
Department of Energy has been a real leader in that regard.
    With our economy growing, our total energy consumption is 
declining, providing we have an economic growth pattern that 
takes care of emissions.
    These successes are due in no small part to DOE's world-
class research. There is simply is no better both basic and 
applied. And looking at the budget request, I am gravely 
concerned and hope to be able to fix the significant cuts that 
are contained in it, particularly in the energy accounts, that 
will undermine the advances we have been making to date and 
will slow progress to continue job creation and efforts to 
modernize our aging energy infrastructure.
    The budget request for the Department of Energy provides a 
significant increase of 10 percent to defense accounts, 
including a staggeringly huge increase in the Weapons 
Activities account of 19 percent.
    At the same time, the request slashes non-defense energy 
accounts by more than 40 percent of which energy efficiency and 
renewable energy alone is cut by 67 percent, two-thirds.
    Cuts like these lead me to believe that you do not think 
that efficiency and renewables are a good investment, so I 
would like to take a minute to enumerate some of the 
accomplishments of the Office of Energy Efficiency and 
Renewable Energy and feel obligated to do so this morning.
    Since 2009, the cost of electricity from new wind power 
projects has decreased by 67 percent, wow. For solar that 
corresponding figure is 86 percent decline. Americans have 
saved hundreds of billions of dollars thanks to new energy 
efficiency standards that have brought us smarter appliances, 
heating and cooling systems, and lighting and we are on track 
to see $1 trillion in savings by 2020.
    The Weatherization Assistance Program also proposed for 
elimination in this budget request, which I simply cannot 
support, delivers $340 million in yearly energy savings to the 
American people. These advances have put money in the American 
people's pockets and made our air cleaner and most notably for 
the President's agenda created jobs.
    The fastest growing job in America today, as the Secretary 
well knows, is wind turbine technician, and, in fact, Texas is 
one of the top states for energy efficient jobs.
    Finally, with all of the rhetoric about putting America 
first on an economy-wide basis, China outspends us by almost 
$100 billion annually on research and development, yet here you 
are defending massive cuts to programs that have proven 
effective.
    If we want to maintain our technological and economic 
advantages, we must increase these investments. And make no 
mistake, they are investments in our future. We cannot be 
shortsighted and let the rest of the world pass us by.
    With that, I will close my remarks and thank you again, Mr. 
Secretary, for being here with us today and we look forward to 
your testimony and the opportunity to adapt your budget request 
as the months ensue.
    Thank you, Mr. Chairman, for the time.
    Mr. Simpson. Thank you.
    Mr. Secretary, the floor is yours.
    Secretary Perry. Mr. Chairman, thank you for the privilege 
to be here. Ranking Member Kaptur, it is good to be in your 
presence and the committee members as well.
    We are here to discuss the President's Fiscal Year 2019 
budget request for the Department of Energy, and just as an 
aside, let me say what a privilege it is to be able to serve.
    Ms. Kaptur, I know that you are just a few days away from 
being the longest-serving female member of the House of 
Representatives. Congratulations. We were just sharing what an 
honor it is to be the longest-serving anything; myself as a 
governor of Texas back a few years ago. But what an 
extraordinary privilege for me to sit in front of you as the 
14th Secretary of Energy.
    Mr. Chairman, this budget represents a request to the 
American people, through their representatives in Congress, to 
fund the priorities of this Department. It underscores DOE's 
commitment to stewardship, accountability, and service.
    And I hope that our interactions with you and other 
committees of Congress that we have had over the past year have 
underscored the commitment to serve and the transparency that 
we intend to share with you and the American people.
    In total DOE leadership, I think we have appeared now some 
23 times over the last year in front of Congress. We are very 
proud of that strong relationship both with the staff we put 
together, and some of your young men and women that you have 
trained up very well and we have been able to hire. Thank you 
for that.
    This is the second hearing of 2018 and in the coming weeks, 
I am going to have several more opportunities to sit in front 
of your colleagues. I am very proud of our standard of 
transparency as we try to work together to hammer out this 
budget.
    When I first appeared before this committee last year, I 
committed DOE to advancing several key issues, key objectives 
if you will, and I noted at that time that we needed to 
modernize our nuclear weapons arsenal, continue to address the 
environmental legacy of the Cold War, further advance domestic 
energy production, better protect our energy infrastructure, 
and accelerate our Exascale computing capabilities.
    This Fiscal Year 2019, a $30.6 billion budget request for 
the Department, seeks us to move forward on those and other 
goals. Mr. Chairman, plain and simple, the United States 
Government has no greater or more solemn duty than protecting 
its citizens.
    Since nuclear deterrence is critical to that defense, last 
year we promised a much needed upgrading of our arsenal. This 
year we have requested an 8.3 percent increase for that purpose 
and to align ourselves with the Nuclear Posture Review and the 
Nuclear Security Strategy.
    I want to stop just a second and say thank you to this 
committee. For 25 years the modernization of our nuclear 
stockpile has not been a priority for many in Congress. 
Unfortunately, the world has changed a lot in those 25 years 
and we can't wait any longer. This committee understands that 
you can only defer maintenance and modernization for so long 
and that time for inaction has passed, and I just want to say 
thank you for recognizing that and for strongly supporting the 
modernization for our nuclear arsenal.
    We are also focusing on addressing the environmental legacy 
left at the Department in a lot of the sites--Mr. Fleischmann, 
he has in his district some of those sites, there are many 
across the country.
    We are asking for additional funds to clean those sites up. 
We also have a duty to advance a fundamental mission of our 
Department and that is energy independence. Ms. Kaptur made 
mention of that, of where we find ourselves.
    Thanks to American ingenuity and innovation, we are on the 
cusp of realizing that mission objective for the first time 
since the oil shortage in the 1970s.
    In the coming years, we are going to produce enough energy 
from all of our abundant fuels not only to meet our own needs, 
but those of our friends, our allies, and our partners as well.
    Just last year, we became a net exporter of LNG. There are 
27 nations now that receive exports on five continents. Because 
of technology, we are also making our energy cleaner.
    We can pursue an all-of-the-above policy that more 
efficiently develops and uses all of America's energy 
resources. Through the power of innovation, we can both grow 
our economy and protect our environment.
    And that is the heart of this new energy realism doctrine 
that I recently described. To drive further energy innovation, 
we are requesting continued funding of our energy program 
offices as well as the funding for research in fossil fuels and 
nuclear power, including advanced small modular reactors.
    Now we have a duty to advance domestic energy production. 
We also have a duty to ensure that our energy actually gets 
delivered without interruption. That is why last year I 
promised to step up our efforts to protect and maintain 
America's energy infrastructure to all those hazards that are 
out there.
    The devastation caused by the 2017 hurricanes and the 
impact to the electric sector was highlighted. We clearly have 
to improve our grid reliability resilience in the face of these 
natural disasters, we continue to work with our public and our 
private partners and Puerto Rico to help restore power outages 
caused by Hurricane Maria and improve the resiliency of Puerto 
Rico's electric system. As of March the 7th, the Puerto Rican 
Electric Power Authority reported that power had been returned 
to 70 percent of the customers.
    We also need to protect against manmade attacks, including 
cyber attacks. So this year we have requested funding to 
increase and strengthen cybersecurity as well as the 
Department's cyber defenses. We are establishing a new office 
of Cybersecurity, Energy Security, Emergency Response. It is 
called CESER.
    Much of our Nation's greatest technology breakthroughs 
affecting energy has come through, as you made reference to, 
Ranking Member, the work at the national labs that we have. We 
need to ensure their funding as well.
    In 2017, our national labs won 33 of the prestigious R&D 
100 awards, including technologies regarding new materials, 
protecting our environment, incorporating renewable energy, 
reliably onto our electric grid and sophisticating our 
cybersecurity tools. These accomplishments, meeting the people 
driving our innovation agenda, and imploring them to reach even 
higher, are some of the reasons I am committed to visit each of 
our national labs.
    I am especially proud of the work several of our labs are 
doing to harness the power of world-class supercomputers to 
improve our health, and particularly the health of our 
veterans. We have stood up a program called Active that is 
specifically using our computing capability to address our 
veterans' health.
    Finally, let me touch on one of our other key objectives 
laid out last year, and that is to accelerate efforts to 
develop Exascale computing systems. This year we have requested 
nearly a 31 percent increase for this vital area in order to 
keep the United States at the forefront of supercomputing.
    So, Mr. Chairman, in my first year I have been able to see 
the depth, the breadth of the DOE enterprise. I could not be 
prouder to be able to lead this amazing agency. I have visited 
19 of the national labs, 4 more coming up before the end of the 
month. I also visited WIPP, the Nevada National Security Site; 
Pantex; Y-12, the Kansas City National Security Complex, McNary 
Dam, and Hanford. But seriously, I told somebody, I said, I 
kind of feel like Johnny Cash, that old song, ``I've Been 
Everywhere, Man.''
    At each of these sites, it became abundantly clear to me 
just the amazing talent of the patriots that work at these 
facilities all through the DOE complex. These are really, 
really fine men and women who I cannot be prouder to get to 
work with on a daily basis and say that I am part of a team of 
people that is making America safer, more secure, economically 
and otherwise.
    In the end, it is you, the people's duly elected 
representatives, who are going to best decide how to allocate 
the resources. If there is one thing I learned as governor, I 
learned how the appropriations process worked. I recognize we 
push these budgets out and then we work together to finalize 
the product.
    My commitment to you is not only do I respect your role in 
this, I understand my role in this. And that we will use those 
resources wisely and in pursuit of the goals that you and I and 
the administration have outlined.
    So thank you and I look forward to attempting to answer 
your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Simpson. Thank you, Mr. Chairman. Mr. Secretary, I 
couldn't agree with you more on the value and the importance of 
our national labs and the great work that they do. I call them 
the Crown Jewels. I really think that they do some of the best 
scientific research in the world at these national labs.
    It is kind of a strange time in that we are talking about 
the 2019 budget request and you don't know what the 2018 is 
yet, so it is a little hard. And some of the questions that we 
have are kind of based on what the 2018 budget might be and I 
guess we will see that hopefully next week, seeing as how on 
the 23rd we run out of funding. I think we are on a path to get 
the final year funding done by the end of next week, but let me 
get a couple of the questions out of the way.
    First of all, I am pleased to see that the Department has 
continued to request funding to reopen the Yucca Mountain 
licensing process. The reopening of Yucca Mountain is one of 
the highest goals of this subcommittee. As you know, it is not 
a scientific issue, it is a political issue that we have had a 
hard time resolving between the House and the Senate over the 
last . . . forever it seems like.
    Could you tell me what your plans are to move forward with 
Yucca Mountain?
    Secretary Perry. Yes, sir. Yesterday I had a conversation 
with Senator Heller along those same lines. He wanted to know 
if this $120 million in our line item was for that purpose.
    I simply told him, and this is right to the core the law 
requires us to go forward with this on the licensing side to 
find out what the observations are from both sides of this 
issue, and that is, simply put, what this appropriation is for, 
it is what the administration means for it to be.
    We have an obligation. I made a commitment to uphold the 
laws and the Constitution of the United States when I took this 
job.
    The law clearly requires the Department of Energy to go 
through this licensing process. This is the funding to do just 
that, Mr. Chairman.
    Mr. Simpson. As you know, we have had some disagreements 
between the House and the Senate on Yucca Mountain, which has 
led to disagreements on interim storage.
    The reality is, as I am sure you well know, we need both 
those things. Before we can move forward, I think we have got 
to come to an agreement on both Yucca Mountain and the 
authorization for interim storage.
    I know Congressman Shimkus has a bill in the House that I 
think you all have seen. Senator Alexander and Senator 
Feinstein have a less comprehensive bill in the Senate. In 
trying to work out those differences and trying to get those 
passed, are you supportive of the Shimkus bill?
    Secretary Perry. I will leave that to those of you with 
great talent in being able to negotiate those bills, sir.
    I agree with your understanding and your passion about 
having places to store long term, both in temporary and in 
permanent storage of radioactive material. It is one of the 
reasons that not only do we need to look at the issue relative 
to Yucca, but also WIPP. There is a site in West Texas that I 
was very familiar with when I was the Governor outside of 
Andrews, Texas, and there may be some other sites in this 
country that are appropriate.
    I am going to work with the Congress as you give me 
instructions to find the solution to a challenge. I hope I 
brought a good focus to that we have in, I think, 38 States now 
sites that have these materials. We have been fortunate that we 
haven't had an incident, and they need to be stored in highly 
secure, highly scientifically proven areas that will be safe 
for long-term storage.
    Mr. Simpson. One other subject of contention over the last 
several years, the Department of Energy first proposed to 
cancel the MOX Fuel Fabrication Facility in order to pursue an 
alternative means to fulfill the U.S. responsibilities under 
its nonproliferation agreement with Russia in its Fiscal Year 
2014 Budget.
    It is 5 years later and there are still significant 
questions surrounding the dilute-and-dispose alternative. The 
committee still does not have a comprehensive lifecycle cost 
estimate of the alternative and DOE hasn't submitted any 
legislative proposals that would be needed to carry out and 
fulfill the program.
    The fiscal year 2018 National Defense Authorization Act 
allows you to terminate the project if you are able to provide 
a lifecycle cost estimate that shows the cost of the 
alternative is 50 percent of the cost of MOX. We were informed 
that DOE was pulling together an interim cost estimate in order 
to certify that a cost estimate exists that meets the NDAA 
threshold as opposed to submitting the comprehensive lifecycle 
cost estimates that is reported under development.
    Will it be a comprehensive lifecycle cost estimate for 
dilute-and-dispose? When will it be provided to Congress? Do 
you intend to submit the NDAA's certification and terminate the 
project? And, if so, when and will that be before the 
comprehensive lifecycle cost is finished or will you wait until 
that is finished? And if and when a waiver is submitted, will 
the estimate contain significant detail to allow Congress to 
carry out its oversight responsibilities?
    Secretary Perry. Yes, sir. I will try to be very brief. You 
covered some pretty good watershed there of issues.
    Let me just talk about what you asked. Let me just say 
again, Ms. Kaptur, and to Chairman Simpson, from the standpoint 
of you getting some information you consider to be too slowly, 
and I don't disagree with you. I apologize for that. I am 
learning that sometimes this process is not anywhere near as 
fast as I would like for it to be either.
    Working with our friends at OMB is a new experience for me 
coming from a State and having been a governor and 
appropriator. I am not making excuses. I am just telling you I 
recognize it. I don't like it either and I am going to do 
something about it.
    MOX, total project cost, according to the U.S. Army Corps 
of Engineers, is $17.2 billion compared to the cost to stand up 
the dilute-and-dispose process which is somewhere between $800 
million and $1 billion, so almost a 17, 18 to 1 difference. 
That is $16.7 billion less to do the dilute-and-dispose 
process.
    The annual program cost is $800 million to 
$1 billion. To build the facility is between $200 and $500 
million. The delta there is about $4- to $600 million per year 
on the operating cost less for D&D.
    Obviously money is important and there is a great deal of 
difference in the amount of money that we are talking about 
here between building out the MOX and the D&D.
    But here are the numbers that really jump out to me, and it 
is the completion dates of these two different paths. The 
completion date for the MOX project is 2048, the completion 
date for the D&D is 2027. That is a 21-year difference, 21 
years earlier for D&D.
    The starting of the plutonium disposition is 2050-2051 
versus 2028. So getting that plutonium into a form that it 
could be taken out of South Carolina and disposed of in a 
permanent way, is a 22-year difference.
    So there is clearly a difference here. We lay this in front 
of you. What we will do is there, and I think four questions 
that get asked in that final, and then it goes to you for 30 
days.
    The 11th of May is when that will be--no. Never mind.
    Mr. Simpson. The reason I ask----
    Secretary Perry. I am telling you more than you need to 
know and the last part was wrong.
    Mr. Simpson. The numbers you have given me and my question 
is where the hell these numbers come from, because nobody 
really knows. There has been such discrepancy over the last 4 
or 5 years as we have dealt with this of what the real numbers 
are and that all depends on who the heck you talk to, and that 
has been frustrating to us.
    But when the NDAA language came out and said, hey, if you 
can do this for 50 percent less, how could I argue with that? 
If you can do it for 50 percent less, I am going to go for it.
    I just want to know that the information given to us is not 
written on the back of a napkin in a restaurant sometime saying 
we can do it for 50 percent less, here.
    When I hear them say, OK, we have got preliminary costs 
substantially less, I want to see the comprehensive report and 
I want to know how you came to those conclusions, what you took 
into consideration. The last estimate I saw on dilute-and-
dispose, they didn't cost estimate any of the transportation 
cost or any of the disposal cost actually in WIPP and the cost 
of expanding it.
    Are we going to see a proposal from the administration to 
expand the land withdrawal in New Mexico? Because I think we 
are going to have that if we are going to put this stuff at 
WIPP.
    Secretary Perry. That is going on as we speak from the 
standpoint of requesting through New Mexico the designation 
that is going to give us substantially more volume at WIPP.
    Mr. Simpson. The other question I have, and this is 
probably answerable, I just don't know what it is yet, is, with 
the slowdown of WIP because of the incident that occurred, it 
is going to be several years before it is back up to full 
operation. Right now I think they are taking eight shipments a 
week or something like that----
    Secretary Perry. That is correct.
    Mr. Simpson [continuing]. And we are going to add in 
another stream of waste into that, so that is going to 
essentially lower the shipments that are going to come from 
other sites that have agreements with the Federal Government 
and we are going to miss some milestones if we are going to 
slow that down.
    Is that all being taken into consideration?
    Secretary Perry. It is and I might add, and again I am 
fixing to say something that I read just in the clips over the 
last couple of days, but just take that into account where that 
came from. The site out in West Texas is going to ask the 
Nuclear Regulatory Commission for some licensing approval 
there. So again, there may be some expanded options for us to 
use. But you are correct, those numbers, those studies, will be 
given to you and the committee members, but all that has been 
taken into consideration.
    Mr. Simpson. One time there was a thought process--and I 
was talking last night, the staff couldn't remember where it 
came from, about building onsite storage at WIPP, above ground, 
so that when you got ready to put it underground, you just had 
to take it from the onsite storage at WIPP.
    Is that still under consideration? They said at the time 
rough estimate to be about $5 million to build an onsite 
storage facility at WIPP. Is that still under consideration? 
They said at the time, rough estimate to be about $5 million to 
build an onsite storage facility at WIPP. Is that still?
    Secretary Perry. I am not aware that there are 
conversations of that going on. What I do know is that there 
are some above ground work being done to modernize. There is 
also some work being done there to increase the ventilation 
capability, and what have you. I cannot give you a definitive 
answer on whether or not there are ongoing conversations about 
onsite----
    Mr. Simpson. Storage there.
    Secretary Perry [continuing]. Interim storage prior to it 
being down in the----
    Mr. Simpson. It would be interesting to find out because 
that was, for a relatively cheap cost, you could build onsite 
storage there; and, of course, you would have to have the 
approval of the State of New Mexico.
    Secretary Perry. Yes, sir.
    Mr. Simpson. But it made sense to me.
    Secretary Perry. Yes, sir.
    Mr. Simpson. And then you could come a lot closer to 
meeting a lot of these State agreements that we have got around 
the country. Before I go to Ms. Kaptur----
    Mr. Frelinghuysen. You can go to Ms. Kaptur.
    Mr. Simpson. We will go to Ms. Kaptur.
    Ms. Kaptur. I thank the gentlemen from not just Idaho, but 
New Jersey; and Mr. Secretary, thank you for some clarification 
in your replies here to the Chairman's questions. My first 
question relates to a statement you made in your opening 
remarks. You referenced progress in the United States 
increasing LNG exports, I share your excitement at that, but 
could you tell us to what extent DOE may be developing new 
energy partnerships or pathways to our European allies to 
prevent their energy supplies being held hostage to rogue 
regimes? Is there any working group, any initiative? Can you 
enlighten us in any way in that regard?
    Secretary Perry. Yes, ma'am. There are ongoing 
conversations with my counterparts, and other government 
officials, Poland, for instance, and bringing LNG in through 
Poland, down into Central Europe. The real issue there is 
interconnects, from my perspective, between the European 
countries. Obviously, there is issues with Nord Stream and how 
that is going to be ultimately decided, and whether or not, you 
know, Germany is going to be a partner with us on LNG or 
whether they are going to rely upon the Russian gas that is 
coming in. So, we are in conversations, with you being the head 
of the Ukrainian Caucus with our folks and Porshnikoff and his 
administration relative to how we can assist them.
    There are plans for our pipeline--this isn't LNG, but this 
is a plan for a pipeline. We think it is important for the 
European Union to have multiple choices. You know, we would 
love to sell them as much LNG as we can from the United States, 
but I think it is important for freedom's purposes that Europe 
and the EU has multiple sources of energy of which they can 
choose. It is good for competition, but it is also, more 
importantly, from my perspective, good for freedom.
    Ms. Kaptur. Thank you for that perspective, Mr. Secretary. 
And if there is any working group within the administration of 
which you are a part that can come and privately brief some of 
the members of this subcommittee and perhaps others, believe 
me, there is deep interest on the part of this member.
    Secretary Perry. Yes, ma'am.
    Ms. Kaptur. I want to move to a domestic concern here. The 
cuts in the budget that are proposed to the Energy Efficiency 
and Renewable Energy account, the number I have is 67 percent. 
And we have a statement here by a senior DOE official who 
recently said publicly that the Energy Efficiency and Renewable 
Energy programs are a victim of their own success, and 
successes to date in bringing down the cost of renewable 
energy. And deploying their technologies means that the Federal 
Government no longer needs to make these types of R&D 
investments.
    Let me just put on the record that China--I represent some 
major solar firms, I think the best ones in the country. There 
are probably some in Texas, too, but they are hacked hundreds 
of times a month by the Chinese. And the Chinese are not 
reducing their investment in R&D and there is a huge global 
market in these technologies, and your budget basically 
relegates the United States to a very inferior position. So, I 
know I have a plan to try to alter your budget, but what is 
your plan to ensure in the budget you have submitted that we 
don't fall behind in the energy efficiency and renewable energy 
arena?
    Secretary Perry. Ms. Kaptur, you are correct in the sense 
that it is a priority of the Department to continue to keep the 
United States at the very tip of the spear when it comes to 
technology innovation. It is how we have found ourselves to be 
at this place in the energy sector at this time. It was through 
innovation; it will continue to be through innovation.
    One of the things I learned as an appropriator and as a 
governor was that just because a line item was reduced didn't 
necessarily mean that particular line item had fallen out of 
favor. In some cases, what that means is, and I will give you a 
few examples, and that high-level DOE person you were talking 
about, I understand what they were saying. They are basically 
saying we have had some successes and we ought to be 
celebrating those successes. For instance, the Vehicle 
Technology Office, it met or exceeded its goals in 5 of the 
last 5 years. Hydrogen and Fuel Cell Technologies Office, 
again, they met or exceeded their goals in 5 of the last 5 
years. We consider that to be meeting the goals of which we had 
put in place. And when you meet the goals, those are mature and 
they don't need to be funded going forward. Are there places 
where we have, philosophically, I am an all-of-the-above energy 
person, so in our National labs, philosophically, I am pushing 
some particular areas. You know, battery storage is a great 
example of it. I am a big fan; I have been on the record of 
saying that is the holy grail of battery storage. We may be 
right on the cusp of hitting the tipping point. There are some 
that say, well, you have got to continue to spend money, but we 
have great successes in that arena. So, the idea that we have 
to spend or that the criticism would be because you are not 
spending the same amount of money in this line item, I would 
suggest to you in many cases it is because there have been 
successes in those. The solar energy office is a great 
example--5 of the last 5 years, we have met or exceeded. Are we 
working on some areas in the solar side in our National labs 
that are being funded? Yes, we are. They may not show as a line 
item as you have seen before. So, we are reprioritizing, where 
do these dollars need to go, what is the best return on our 
investment. We are reprogramming, repurposing, if you will. But 
I think there is some great celebration that needs to be going 
on about the successes that we have had, recognizing that we 
have a lot of competition around the world, and that innovation 
technology is what is going to take us to the lead. It is why 
we have asked for this extraordinary--I think extraordinary--
increase in Exascale and in the next generation of computing, 
into quantum computing.
    Ms. Kaptur. Thank you, Mr. Secretary, for what you are able 
to say. I would hesitate if I didn't say, or I would be remiss 
in my duties here, the competition is predatory for many of 
these countries. And so, I don't think that we can afford to 
put our foot on the brake while we have got our foot on the 
accelerator at the same time over there at DOE. I think that we 
have to keep our rigor. And so, my efforts on this committee 
will be devoted to that end.
    Your budget request actually cuts the Office of Energy's 
energy storage program by 74 percent. Yes, we have reached 
certain thresholds, but we certainly haven't maximized what we 
know in these energy arenas. And that brings me to the budget 
proposal to eliminate ARPA-E. The President's budget requests 
support Energy's efforts to enhance today's energy security, 
they state, while also making strategic investments for 
tomorrow, yet ARPA-E is eliminated. Your acting director of 
ARPA-E suggested at this week's energy summit that reforms may 
be coming to the program, and I would like you to know that 
this subcommittee is extremely interested in any proposed 
changes to ARPA-E. That is kind of like the gold star; it is 
where we invent the future. Could we have your commitment that 
we will be informed in any proposed changes to ARPA-E early on?
    Secretary Perry. Ms. Kaptur, you have my commitment that I 
am going to work with this committee. And one of the things, 
again, that I have learned as a Governor is that we are going 
to honor and follow instructions. The ARPA-E and its future 
iterations, we realize that the investment in late technology 
and in early stage technology and in basic research is really 
important. All of those mesh together. I created and oversaw a 
program while I was the Governor of Texas called the Emerging 
Technology Fund. I think there is a real role for government to 
play in funding, particularly in these early stages, technology 
that might not ever get commercialized without that.
    You know, if it is the will of this committee for ARPA-E to 
exist going forward, in some form or fashion, I hope that you 
will have confidence that not only have I done this before as a 
Governor, but that we will have good successes and we can stand 
up together and say this is how it is supposed to work, this is 
a good return on the investment for the American taxpayers 
dollars.
    Ms. Kaptur. Thank you. Mr. Chairman, I know that my time is 
up in this round. I just wanted to ask again if you could 
identify someone, Mr. Secretary, from the Department of Energy 
who is most knowledgeable about European energy pathways and 
perhaps somebody from DOD and somebody from State, I don't 
know, but if they could come and brief interested members of 
this subcommittee, we would be very appreciative, on what is 
happening with the thinking inside the administration 
strategically on the importance of that set of allies and their 
energy supply lines. Thank you.
    Secretary Perry. I can and I will.
    Mr. Simpson. We are glad to have with us the chairman of 
the full committee, Mr. Frelinghuysen.
    The Chairman. Mr. Secretary, welcome. I know that Mr. 
Newhouse and Mr. Joyce, Mr. Fortenberry, Mr. Fleischmann, and 
Mr. Aguilar have been very patient, so let me just take 2 
minutes, what we call two fingers, obviously to welcome you and 
obviously thank Chairman Simpson who succeeded me as Chairman. 
He's doing a heck of a better job than I ever did and he works 
very closely with Ms. Kaptur, who I think was recognized, you 
may not know, as the longest-serving woman in the United States 
House of Representatives yesterday. I am sure you deserve more 
applause.
    A couple of things. I hope in the future we can reopen 
Yucca. That is something that is important to me. I am a great 
believer in the nuclear enterprise being modernized. I do think 
the public is owed a better explanation as to why it is 
necessary. Maybe this isn't the place to talk about it, but I 
think if we are going to make these substantial investments, 
let me say, I think we have some incredible laboratories out 
there. It has been a while since I visited some of them, but 
they are national treasures.
    I continue to have some concerns about cybersecurity and 
the things that the people who are not on our side might do to 
affect their great work out there, and I am sure the issue will 
be raised. We need to work on cleanups, the legacy of issues.
    And lastly, someone once told me if you don't raise the 
local issues, they will find somebody else to replace you. 
Fortunately, I am retiring, so I don't have to necessarily 
worry about that, but in my life, I have been very much 
involved in domestic fusion. I am interested in the future of 
ITER. We have these partnerships, let us cultivate them. We are 
losing partners all over the place for a variety of reasons. 
And, yes, I will put a plug in for PPPL, the Princeton Plasma 
Physics Lab.
    Good luck to you, and I want to thank the chairman for the 
time and everybody for their patience.
    Mr. Simpson. Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman and Mr. Chairman and 
the Ranking Member. Thank you, Mr. Secretary, for being here on 
such an important day. I know it is the start of March Madness. 
Thankfully, UT doesn't play until tomorrow, so we appreciate 
your time.
    The electric power industry--and I will pick up a little 
bit on what the chairman of the full committee was talking 
about when we discuss reliability, resiliency, and cyber. You 
mentioned it in your opening statement that the Office of 
Electricity Delivery and Energy Reliability, has been a lead 
role in addressing infrastructure issues related to the power 
grid, including physical security and cybersecurity of all 
energy infrastructure. The fiscal year 2019 budget request 
split these two offices, as you know, into Electricity Delivery 
and then the Cybersecurity, Energy Security, and Emergency 
Response CESER, as you called it. The budget request would 
reduce funding levels to the new OE by 59 percent from fiscal 
year 2017 enacted levels, and increase funding to CESER, the 
cyber side, by 21 percent. Given the challenges of the 
hurricanes in prior years presented to our power system, 
combined with aging electricity infrastructure and increasing 
retirements on baseload coal and nuclear power plants, why has 
the DOE proposed to reduce OE's funding in areas intended to 
support reliability and resiliency?
    Secretary Perry. Mr. Aguilar, I think the answer in a 
global way was earlier on when I talked about that just because 
you see a reduction in a line item doesn't necessarily relate 
to, you know, there is a 36 percent, or whatever that number 
is, reduction in our interest in that or in our ability to 
affect the areas of which we are discussing. I want to share 
with you, if I could kind of shift over to the cyber side of 
this, I think the commitment to the electrical sector is still 
there. I think we are going to be able to address the needs 
with the dollars that we have.
    From a prioritization standpoint, protecting the grid from 
cyber attacks is substantially high on our priority list. We 
spoke about it a year ago. Standing up this office to protect, 
and to understand better. Chairman Simpson, in his district 
with Idaho National Lab, he has a test grid of which we can go 
out and actually break it, infect it, and that is going to 
serve, I think, very well. You are going to see this whole 
office standing up with a lot of attention and resources to a 
critical area: obviously, our capacity to protect the grid. We 
have a sector-specific agency requirement by statute to protect 
the electrical grid, so, the cyber in this Office of 
Cybersecurity, Energy Security, and Emergency Response--and the 
emergency response part of it is--there is flexibility of--
obviously I consider emergency response to be in line with some 
of the issues that you made reference to on the electrical side 
of things. So, I think splitting those up and looking at it 
from the standpoint of, well, this is how much you are going to 
spend here, so, therefore, you are taking away some of your 
focus, your interest, that is not correct. Again, this is about 
being able to manage, being able to prioritize, and, yes, the 
line item is less there, but that may not necessarily mean, 
that there is going to be less results.
    Mr. Aguilar. Sure, I understand. And I understand that the 
Department was warned in the past about facing imminent 
threats. We have talked about that as well, ensuring that we 
guard against our resiliency. In 2015, the Ukraine electricity 
grid was messed with. I mean, we know that these things happen 
and we just want to make sure we are investing in the right 
areas in order to make that happen.
    I would ask you more questions; my time is up. Let me just 
lastly say that part of our fiscal year 2019 analysis and 
justification, it has to ensure that we have all the 
information in front of us. And I know that there are volumes 
that haven't been given to this committee, and our inability to 
do our job, as you understand it from your role as executive, 
requires that we have that documents. And so, to the extent 
that we can continue to request and have that proper 
information to evaluate the programs and the line items, it 
would sure help us do our jobs a little better. So, I 
appreciate your attention to that.
    Secretary Perry. Yes, sir.
    Mr. Aguilar. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. Mr. Secretary, 
good morning, sir.
    Secretary Perry. Good morning, sir.
    Mr. Fleischmann. As you know, I represent the great people 
of the Third District of Tennessee, and in that district is a 
wonderful city, Oak Ridge. Oak Ridge sits in Anderson and Roane 
counties and it is a very, very special place. A personal note 
of thanks to you, though, sir, before I start for your personal 
attentiveness to Oak Ridge and all that we do there. And also I 
want to thank you for the tremendous staff that you have put 
together at DOE. Your team is exemplary and a privilege and 
pleasure to work with, so, I thank them as well.
    Mr. Secretary, at Oak Ridge we had the Manhattan Project. I 
believe we won World War II there. We won the Cold War there, 
and we have done such a tremendous job, the men and women who 
have served us for decades there. It is a community that 
supports nuclear. We have the Oak Ridge National Laboratory, 
which is truly an outstanding facility. We have got the Y-12 
Plant under NNSA and we are building the uranium processing 
facility, and I want to commend you and your Department. The 
contractor there is doing a tremendous, tremendous job. Every 
time we go there, it gets better and better. And as you may 
know, that had to be redesigned and things were going so well 
to make sure that our Nation's nuclear arsenal is strong for 
years to come. And I know the Pantex Plant in Texas is doing an 
outstanding job as well. We also have a nuclear cleanup 
mission, and I appreciate your kind words and support of all 
that we do. This is something that Republicans and Democrats 
alike work so hard, not only in the House, but in the Senate. 
Nuclear cleanup is so, so important. As you know, I am the 
chairman of the Nuclear Cleanup Caucus, chairman of the 
National Labs Caucus, so it has just been a tremendous 
privilege to work with you, sir. One last accolade, I want to 
talk to you about, and thank you for your STEM research 
support.
    At Oak Ridge we have an organization called ORAU. The Oak 
Ridge Institute for Science and Education managed by ORAU is 
truly outstanding. We also have ORISE, which is a key entity in 
the Department providing all of our Nation's laboratories more 
than 3,000 research participants per year.
    They also work for more than 20 other Federal research 
agencies, providing research participants in key facilities. 
So, again, thank you for the direction in which you are taking 
this critically important Federal agency.
    I have some questions. The Department of Energy's National 
Laboratories are a key element of our National research 
enterprise, but much of their physical plants are over 50 years 
old. At the 10 National laboratories, stewarded by the 
Department's Office of Science, there is an estimated $2 
billion backlog in infrastructure projects.
    All the National laboratories have urgent needs ranging 
from modernization laboratory space and utility upgrades to 
seismic refitting and demolition of excess facilities that are 
costly to maintain. At the same time much of the lab's 
infrastructure is not directly funded, and if it is, the 
funding is inadequate.
    So, the labs are left to cobble together funding to 
operate, maintain everything from nuclear hot cells and isotope 
production facilities to advance manufacturing facilities and 
supercomputing centers, all of which are mission-critical to 
the Department.
    And as maintenance costs grow, laboratory overhead rates 
grow making it more expensive for others to work with the labs. 
This creates a constant drag on the system of labs to maintain 
state-of-the-art assets that attract the best and brightest 
scientists to do nationally important research in partnership 
with others.
    My question, sir, besides the need for additional funding, 
how do you propose to address infrastructure needs of the 
National Laboratories, sir?
    Secretary Perry. Mr. Fleischmann, you are absolutely 
correct, in the sense of the facilities when we went and toured 
Oak Ridge, and there is a building out there that we refer to 
as the mouse house. That is as old as I am and that is old in a 
building sense. So, being able to decontaminate and deconstruct 
them, there has to be some additional funds.
    I hope that the committee would take a look at that from 
the standpoint of being able to remove, Mr. Newhouse lives 
out--with Hanford right around the corner, and that is a 
facility we got to clean up, and in a lot of Members' places, 
and so not only the clean-up side of this, but also old 
facilities.
    And the fact is these do need to be, in some cases, 
removed. They are contaminated, they are going to cost a lot of 
money, it is going to take substantial time to do that 
properly. But the other side of it is to build new facilities 
that are going to be attractive to the next wave of scientists 
that are going to be coming in, where they want to come and 
work in a place that is not 50 or 60 years old and falling 
down.
    So, our commitment is to prioritize where we can with the 
resources that we have, but obviously having the resources 
available is going to be important.
    Mr. Fleischmann. Yes, sir. Thank you. Mr. Secretary, the 
United States and China are in a race for supercomputing 
supremacy, which is critical for advances in science and 
technology that would drive economic growth. According to 
Science Magazine, on February 9th of this year, after 
dominating the supercomputing rankings for decades, the United 
States is so far behind that the combined power of the top two 
machines in China easily outpaces that of all 21 supercomputers 
operated by the United States Department of Energy, the 
country's top supercomputer funder.
    However, that could change this summer when the Summit 
supercomputer at the Oak Ridge National Laboratory is 
commissioned. At approximately 200 petaflops, Summit will be 
the fastest in the world with twice the power of the top 
Chinese supercomputer. Summit represents a critical next step 
on the U.S. path to developing an Exascale system 1,000 times 
more powerful than today's supercomputing systems.
    The United States currently has a research and development 
plan to develop and deploy an Exascale system by 2021, 
including a system at ORNL called Frontier, about the same time 
that China or Japan are expected to deploy their own Exascale 
systems.
    Mr. Secretary, to beat, if not maintain, competitive 
relations with the Chinese and Japanese in the field of 
supercomputing, the United States needs to deploy its own 
Exascale system in 2021. Your budget request makes a serious 
investment in achieving this goal. Can you talk a little bit 
more about the elements required for this success?
    Secretary Perry. Yes, sir. The fiscal year 2019 request 
includes $636 million, and $473 million of that in the Office 
of Science and $163 million in the NNSA. June the 15th, I 
announced $258 million in funding over 3 years that are going 
to support six leading U.S. technology companies, because it is 
obviously not just a DOE/National Lab enterprise here. This is 
working with our private sector partners as well.
    So, not only have you all appropriated and reprioritized 
these dollars into the Exascale at the DOE, it is also working 
with our national technology companies as part of an Exascale 
computing project. It is called New Pathway Forward. And these 
awards will, obviously, accelerate and develop the critical 
hardware, and it is going to be necessary to put us back in 
what I consider to be a rightful place, is having the fastest 
computing capability in the world.
    Right now, we don't have that. And the importance, from my 
perspective, is that getting us back to that position is 
tantamount to our national security and Argonne is going to 
have the first Exascale computer followed closely by your Oak 
Ridge lab.
    It is a different architecture, and this should put us back 
in either the first or second slot when those are done, and 
then obviously the transition on to quantum computing after 
that. And, again, this is one of those examples that as 
Exascale comes into its maturity, and we start shifting funds 
over to the quantum computing, there will be substantially less 
spent in Exascale on the line item, and we will start 
transitioning those dollars over to quantum computing at that 
particular point in time, which your home lab will play a very 
important role.
    Mr. Fleischmann. Thank you, Mr. Secretary. Mr. Chairman, I 
yield back.
    Mr. Simpson. We are fortunate to have with us the ranking 
member of the full committee, Ms. Lowey.
    Ms. Lowey. And I am fortunate to be here. Thank you, Mr. 
Chairman and Madam Ranking Member.
    Mr. Secretary, welcome. Before we discuss the budget 
request I want to take a moment to express my profound 
disappointment and frustration that we are sitting here today, 
33 days after the President's budget request was released, 
without a complete budget justification from your office.
    During my time as ranking member of the subcommittee, I 
have never seen delays like this. And while I understand there 
are multiple administration entities involved in this 
production process, I have to say this does not reflect well on 
you or your Department, and I do hope you will be getting us 
that information quickly.
    My first question is about Yucca Mountain, and I know it 
has been discussed, but I want to make a couple of points, 
because Yucca Mountain and interim storage I think is essential 
to deal with.
    I appreciate your fiscal year 2019 request, including funds 
for Yucca Mountain and interim storage for spent nuclear fuel. 
This issue is extremely important for my district, as the 
village of Buchanan and town of Portland plan for future 
redevelopment of the Indian Point Energy Center Plant site.
    So I would like to ask these questions.
    Number one, how are you working with Congress to support 
moving forward with Yucca Mountain and other consolidated 
storage options for nuclear waste? And when do you hope to see 
Yucca Mountain or interim storage facilities opened and 
operational?
    Secretary Perry. Ms. Lowey, I addressed your concerns a 
little earlier about the lack of transparency. When you don't 
get something, I consider that to be a lack of transparency and 
discussed this earlier with the committee. The appropriate 
actions will be taken, ma'am. It is not lost on me that not 
only do you deserve, but it is my duty, to make sure that the 
information that you request gets to you in a timely fashion.
    And speaking of timely fashion, the administration, through 
their budget request, does put $120 million into the budget to 
put the Yucca process back on track from a licensing 
standpoint. And I think that is important because it is 
required by law.
    I am not going to speak to previous secretaries or 
administrations, but I made a commitment when I was sworn in to 
uphold the laws and Constitution of the United States. It is 
clearly a statutory responsibility. There is a law that says 
you will take this process forward. We are following the law.
    With that said, we will follow the will of Congress, as you 
all decide how you want to deal with Yucca, and whatever that 
may be, is that we will dutifully follow your instructions 
about how to deal with that.
    As a side note, I agree with you. I think we as a country 
have a moral responsibility to remove that waste from many of 
your districts and to dispose of it properly. It may be in a 
temporary manner.
    It will ultimately be in a permanent manner, and not only 
do we need to be looking at the sites that have been designated 
and expand some of those facilities we need to speed the 
permitting process as much as reasonable, to be able to move 
that material out of the sites, that in many cases are not 
secure.
    Ms. Lowey. Thank you. And I am glad we agree that it is 
time for the Department of Energy to finally take title of 
spent nuclear fuel and dispose of it safely and permanently.
    In advance of Yucca Mountain, or an interim storage 
facility being licensed, I do hope that we can work together to 
make sure that spent fuel is transported safely.
    What work has the Department of Energy done to study the 
characteristics of spent nuclear fuel as it relates to 
transportation conditions? And can you identify any gaps in the 
Department's knowledge about spent fuel volatility? And what 
resources will your Department need to study spent fuel and how 
to make it safe for transport?
    Secretary Perry. Ms. Lowey, I don't know of any obvious 
discrepancies that are there, but what I would ask for you, and 
the committee's approval to go back, research that with some 
detail, and get that back to you as soon as possible.
    Ms. Lowey. Thank you, Mr. Secretary. And thank you, Mr. 
Chairman.
    Mr. Simpson. Mr. Newhouse.
    Mr. Newhouse. Thank you very much, Mr. Chairman, Madam 
Kaptur. Secretary Perry, it is a pleasure to see you again.
    Secretary Perry. Yes, sir. Thank you.
    Mr. Newhouse. Part of your effort to ``be an everywhere 
man'', I want to thank you for coming out to my district last 
August and visiting some of the things that are of high 
importance to our Nation. So, thank you very much for that.
    But let me get right to the point of question I have for 
you. As part of your visit you are able to visit the McNary Dam 
and so you were able to see, I think I could say firsthand, 
really the huge role that the hydroelectric dams play in the 
Pacific Northwest. It is truly an amazing thing.
    The Federal Columbia River Power System, unfortunately, 
today though is being threatened. And so that means our energy, 
our transportation, our agriculture, our irrigation, our flood 
control, our economy is truly at risk in the Pacific Northwest.
    The people on this panel, my colleagues here and other 
places in Congress, have heard me speak strongly and 
passionately about this, and I will continue to because right 
now there is a single Federal judge that is forcing additional 
spill at our dams. That decision overrides a comprehensive 
biological opinion that was agreed to by scientists and 
engineers at Federal agencies, by Northwest Tribes, by local 
and State governments, our regional experts and stakeholders.
    I have got proposed language alongside with my colleagues, 
Representatives McMorris Rodgers and Herrera Beutler, for the 
Appropriations Bill for fiscal year 2018 to prevent this 
additional spill. And if we are able to do that we will save 
Pacific Northwest ratepayers, in just 1 year, $40 million in 
increased utility rates.
    So, I know you are a strong proponent of renewable 
hydroelectric power. And Mr. Secretary, would you commit to 
working with me to prevent this forced additional spill, save 
our dams which are a vital component of our way of life in the 
Pacific Northwest?
    Secretary Perry. The short answer, yes.
    Mr. Newhouse. I appreciate that very much.
    Secretary Perry. Yes, sir.
    Mr. Newhouse. We are going to need all of your horsepower 
and your muscle to be able to pull this off.
    Secretary Perry. Certainly.
    Mr. Newhouse. And again, thank you very much seeing 
firsthand the importance. And I think you made some comments 
relating to you have nothing like that in Texas.
    Secretary Perry. That is true.
    Mr. Newhouse. And they truly are a unique source of not 
only energy, but they really do drive our economy and our way 
of life in the Pacific Northwest.
    Secretary Perry. As you will remember, I shared with you 
two things that you all do substantially well, and that is 
hydro and wine. And they do that well. Let us not get into 
that, sir. I am digging. This hole is already pretty deep.
    Well, we won't go into the quality versus quantity 
equation.
    Mr. Newhouse. I am sorry. I am sorry, Mr. Chairman, I 
should not have brought that up.
    Mr. Calvert. The difference between Washington potatoes and 
Idaho potatoes, quality versus quantity.
    Mr. Newhouse. Yes. So, restarting my clock will--also last 
summer you were able to visit the Hanford cleanup site, and 
part of that you saw the high-level waste in the treatment 
facilities at the waste treatment plant. You know, recently it 
has been with some concern that I have heard that the 
Department of Energy is considering delaying the design, 
engineering, and construction of the high-level waste and the 
pretreatment facilities. I have expressed that concern to you 
and with the Office of Environmental Management because of the 
unknown repercussions of such a decision.
    Can you tell us for certainty that the DOE would still be 
able to meet court-mandated deadlines for full operations of 
the WTP with this kind of a delay?
    Secretary Perry. Certainly, that is our intention. I will 
share with you from a high level that the project that I 
inherited as the Secretary, was trying to do too much at the 
same time, and they needed to get focused on doing what we know 
would work, and that is what we have shifted to now.
    With that said, we are going to be able to, on the C-Farm, 
that area called C-Farm, and those tanks, we are going to be 
able to make an announcement in the not too distant future 
about some good progress that we are making there, and that has 
not been in the works before.
    And so, I am reasonably comfortable that the progress that 
we are making at Hanford is meeting the requirements of the 
lawsuit. Working closely with the senators from Washington 
State, yourself, and other members who have interest in, and 
dealing with Hanford as responsibly and as expeditiously as we 
can.
    Mr. Newhouse. Thank you. And I know my time is up, but let 
me just, again, stress to you my reservations about the 
proposal of delaying, and would hope that we can see concrete 
plans from DOE as they continue through that proposal.
    Secretary Perry. Yes, sir.
    Mr. Newhouse. Thank you, Mr. Chairman. I yield back.
    Mr. Simpson. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary. It is nice to have you here. It was unfair last year 
when you were here, you had probably 2 weeks or 3 weeks under 
your belt when you first came in for this meeting, but, 
unfortunately, I want to take you back to a discussion we had, 
again, last year.
    And for me, it is incredibly important for Perry Nuclear 
Power Plant, and I know Ranking Member Kaptur has a plant also 
as well in her district. That, unfortunately, because of the 
critical role it has played in the economy of our county, and 
the 1,284 megawatt power plant employs more than 700 workers 
and is the largest taxpayer and the largest county in my 
district.
    The plant is one of the largest of its type and it produces 
enough electricity to power more than 1 million homes per day. 
Now the number of nuclear plants across the country are closed 
or announced their intended closure, 6 nuclear plants have 
closed in the last 6 years, 19 others have announced closures, 
according to the CRS.
    And I am concerned for my district, but also for our 
electric grid. If plants continue to shut down prematurely it 
could seriously affect the reliability of our energy system.
    As you well know, the last administration made a war on 
coal. A lot of the coal-fired plants were also working in our 
area have been shut down, not to return.
    This Perry Nuclear Plant and the Toledo Plant are up and 
running now and, you know, unlike Texas or some of the other 
warm States, we had a month of being less than 32 degrees. And 
at some time we are taxing our grid and we are going to shut 
down what I see to be a viable plant, which would produce no 
real results other than destabilizing the grid.
    And so I ask you, Mr. Secretary, can you speak to what your 
Department is doing to ensure the long-term reliability of our 
electric grid? And is there anything on the horizon that I 
could relay to my constituents back home who are worried about 
this potential closure, sir?
    Secretary Perry. Mr. Joyce, thank you for bringing up what 
I consider to be a real challenge for this country, and that is 
reliable energy, affordable energy, a resilient grid. I put 
forward a 403 request to FERC back some months ago on this 
issue of reliability and with a focus on the nuclear and the 
coal industry.
    I believe with all my heart, and I will give you an 
example, As the governor we had the other issue, the other side 
of this, is in August it gets really hot in Texas. And we have 
ERCOT, which is the Electrical Reliability Council of Texas, 
which oversees our grid.
    I called in the leadership of that and I told them, I said, 
I do not want to get a phone call from someone whose 
grandmother has died in her home because the electricity went 
off in August, where the days are 105 to 110 degrees.
    And that is the same from a citizen safety standpoint, not 
even to mention the national security side of this, of being 
able to have multiple sources of power, so that if one of them 
does get interrupted, gas going to the Northeast, not only is 
it being stopped from transmitting across certain States, you 
are seeing plants being taken offline because of the economics.
    And so I think it is time for us to have this conversation 
in a national way. FERC has got to be engaged with this, this 
country needs to have a conversation. Are we going to make sure 
and take the steps to ensure that our nuclear and coal 
industries, in particular, are going to be viable alternatives. 
And part of all of the above mix in our energy portfolio, so 
that we never have to take that phone call from someone in the 
Northeast when the next polar vortex hits that the financial 
centers of New York or Boston went offline because they 
couldn't keep the power on, but more importantly, the citizens 
that had to make the difference between--or had to make the 
choice between am I going to keep the lights on or am I going 
to keep my home warm?
    Mr. Joyce. And I certainly appreciate your efforts in using 
every arrow in your quiver to make sure that we could have a 
multiple, disciplined grid to make sure we do that. And 
especially in light of the fact we just did a tax reform, the 
idea that we want to repatriate manufacturing and bring things 
back here.
    As you well know, in a rolling brownout they are not going 
to brown out schools or hospitals or homes. They are going to 
brown out factories. And I have heard many manufacturers talk 
about the fact that they need a stable, reliable electrical 
grid in order to prosper or in order to grow in the area.
    Ms. Kaptur. Will the gentleman yield?
    Mr. Joyce. Absolutely.
    Ms. Kaptur. I want to thank you very much for bringing up a 
particular problem facing Northern Ohio. It is quite serious. 
Obviously it relates to our nuclear capabilities on the 
commercial side and the fallout from marketplace competition.
    But I would like to invite the Secretary, in his wisdom, 
with all his experience, to think of a way that we might work 
with the Department on a regional focus for what the fallout is 
going to be in terms of capabilities of those who work in this 
very delicate industry, and what our alternatives are for the 
future if, in fact, we are part of the 25 percent of nuclear 
power that gets shut down in this country.
    I have found, having worked with several departments, that 
the Department of Energy, and this is not blaming you, Mr. 
Secretary, but it is just the Department's founding, the way it 
has operated, to not have geographic sensitivity.
    So, for example, after the terrible events of the 1970s 
with the first Arab oil embargo we ended up, you know, creating 
this strategic petroleum reserve, in fact the Department of 
Energy. We were not very conscious of how significant energy is 
in the functioning of this country.
    And now when the coal plants shut down, the fallout across 
Ohio, Southern Ohio, West Virginia, Kentucky, one knows, 
politically, the American people should not have been shattered 
in those regions, but there was no transition plan. But it is 
partly because of the way that the Department was formed and 
focused and so forth, and it lacks that kind of geographic, 
particularized geographic sensitivity.
    The Department of Commerce, the Department of HUD, I mean 
they have a little bit more focus. So, my request would be, 
could we think of a way to meet with stakeholders from this 
region to find a better transition plan for regions that are 
going to be hammered?
    Mr. Simpson. We will have a second round.
    Mr. Joyce. In fact, I will tie this up real quickly, Mr. 
Chairman.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Joyce. Well, just the fact that if, in fact, the end 
result is that some plant is going to be closed down, 
especially in our communities, does DOE have any plans on how 
we are going to remediate these areas or help these people who 
are going to lose their livelihoods and the largest tax base 
and payers in their districts?
    Secretary Perry. Mr. Chairman, let me just very briefly, we 
are laying out a plan in the not too distant future. We are not 
ready to publicly lay it out.
    Ms. Kaptur, and particularly the region that we are looking 
at is one, as you very appropriately identified, is having some 
real economic challenges and that is in the Appalachian region, 
and to help transition it into an area where petrochemical 
refining would be at the basis of it.
    As the governor of Texas I worried greatly in August and 
September about a Category 5 hurricanes coming up the Houston 
ship channel and devastating the petrochemical footprint. That 
is a substantial amount of that industry for the United States. 
That is a national security issue.
    To develop that in another region of this country, 
Appalachia, makes sense because you are sitting on top of the 
Marcellus and the Utica, which are prolific gas fields. Helping 
transition the workers who are either out of work or not 
working in jobs that are satisfactory from their perspective 
and into higher paying, refining petrochemical-type jobs, that 
is something that we are working on actively today at DOE. And 
we are relatively familiar with that, Toledo and the region 
there, and the transition that could go.
    But the other side of this is to make sure that we don't 
lose those plants; to make sure that we make decisions at this 
particular point in time, to keep those plants in operation 
either until we know for sure that they are not going to be 
needed or that we make the transition to another form of 
energy, and to be able to transform those communities in some 
ways that are wise economically and from a national security 
standpoint.
    Mr. Joyce. Thank you, Mr. Secretary. And if I may just add, 
there is at least 20 more years of useful life in the Perry 
Plant.
    Secretary Perry. Yes, sir.
    Mr. Joyce. Thank you.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. Mr. Secretary, 
nice to see you, and I apologize for the coming and going. We 
have got two secretaries within a hundred feet of one another 
right now.
    Ms. Herrera Beutler. Three.
    Mr. Fortenberry. Three.
    Ms. Herrera Beutler. Yeah, three different ones.
    Mr. Fortenberry. I see, Secretary Day.
    Secretary Perry. I thought yesterday was Secretary's Day, 
then every day.
    Mr. Fortenberry. Everyday. President Putin recently 
announced his new Satan-2 missile, which can destroy France or 
Texas. So, I tweeted that, Mr. Putin, so you can kill us better 
than we can kill you. Now what? Part of your portfolio. I 
didn't hear back from him, though.
    Secretary Perry. He has tapped your phone.
    Mr. Fortenberry. Or perhaps he knew the tweet before it 
went out. I don't know. Part of your portfolio is 
nonproliferation, and the intersection or two significant 
responsibilities is what I want to talk to you about.
    The International Atomic Energy Association, which is the 
multilateral body, has significant relevance in this ever-
shifting world of advancing technology where the genie is out 
of the bottle and not just traditional threats are emerging, 
but new ones potentially.
    The mission of the IAEA as I see it is going to evolve 
from, and it already is, from safety to verification. I want to 
know how well our Department is integrated in shaping that 
culture with them, because I think, again, the importance of 
that multilateral institution only grows in a more complicated 
21st century.
    Secondly, the nonproliferation programs, particularly the 
ones where we had some mild cooperation with the Russians, do 
we have any thread of communication or cooperation left with 
them?
    Secretary Perry. Let me address your last question first. 
And the answer that we can talk about in this room is yes. We 
can go and have further details about that in a different room, 
but I think it is appropriately so that we try to reach out 
to--and particularly through the IAEA. And we have a very good 
working relationship with them and one that we continue to 
develop where, as far as I know, the largest contributor to the 
IAEA, and so they pay attention to the United States' interests 
and goals.
    And so, having this leadership role in the nonproliferation 
area, and they basically are our agent, if you will, is a 
reasonable statement. Not that we single-handedly, manage the--
--
    Mr. Fortenberry. I want to say partner.
    Secretary Perry. OK. Yes, sir. But I think we have a good 
relationship with them, and I think our goals are the same, and 
that is to protect this globe against the proliferation of 
nuclear materials.
    I think we do a good job of that at this particular point 
in time, but it is a very different world today. And this 
administration's goal of trying to make sure that no countries 
are able to be able to develop weapons, nuclear weapons, is 
very strong and very capable and very sincere.
    Mr. Fortenberry. There is a secondary issue here which we 
must tread very delicately through. It is the idea of expanding 
nuclear power throughout the world, particularly in the Middle 
East. The Russians are building a nuclear plant for Egypt, for 
instance, and other countries in the region are seeking nuclear 
power.
    And fine, looked at through the lens of just alternative, 
cleaner energy sources, but there is also a body of scientific 
technological knowledge that builds up with one of these 
facilities, and it is very hard to begin to separate that from 
the possibility of future weapons development. Now, the 
infrastructure for obtaining fissile material and the rest is 
quite significant. I understand that, so that is a de facto 
firewall.
    However, I think elevating certainly international 
consciousness and to the degree that we can prioritize what we 
already have in place in terms of line item programs on 
proliferation has to be core of the mission of the Department, 
because if one of these things goes off anywhere, just one, it 
is a completely different world.
    Secretary Perry. Yes, sir.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. And good to see you, 
Secretary, and to have you here.
    Secretary Perry. Thank you, sir.
    Mr. Calvert. Since we brought up wine, you know, we are 
happy to have a wine business in California. It is only 90 
percent of the U.S. production. I just thought I would point 
that out, Mr. Newhouse.
    And one of the reason we like the wine business in 
California is you can't move the vines to Texas, since we have 
moved everything to Texas, but you did a good job. It is hard 
to move. I understand that the question has been brought up----
    Secretary Perry. If you keep drinking the wine, that is a 
good trade.
    Mr. Calvert. Yes. Yes. And we need wine in California. 
Yucca Mountain, I am sure was brought up, energy storage has 
been brought up, MOX I am sure was brought up by the Chairman. 
And I have some additional questions, though, so I will send 
them your way. If you could answer those, it would be 
fantastic.
    And one point I want to make, though, it is embarrassing to 
have Russian gas in Boston because of not having a pipeline up 
there to service that part of the country when we have an 
abundance of natural gas in the United States. I am sure you 
feel the same way. I just thought I would bring that point up.
    Secretary Perry. Yes, sir. I do.
    Mr. Calvert. I don't know if the issue of cybersecurity was 
brought up. As you mentioned in your budget request, it splits 
the Office of Electricity Delivery and Energy Reliability into 
two offices, and that is all well and good. And in energy 
response, how do you pronounce that CESER?
    Secretary Perry. CESER, yes, sir.
    Mr. Calvert. CESER, you contend that this will increase 
separate focuses on grid reliability and cybersecurity, which 
obviously is important. One of my roles on the Appropriations 
Committee is to serve on the Defense Appropriations 
Subcommittee as well as a liaison to the Intelligence 
Committee. And it is obviously apparent that one of the biggest 
threats to the Nation is the state of our cybersecurity.
    Now, cyberspace, the underlying infrastructure, especially 
energy and infrastructure, we are all vulnerable to a wide 
range of risks, stemming from both physical and cyber threats 
and hazards.
    And by the way, I was happy that the President came out 
publicly against the merger of Broadcom and Qualcomm because of 
things that we know about, and Chinese influence in trying to 
take over the 5G component of a feature industry, which is 
going to have a big impact on what you are talking about on 
quantum computing and the future of cybersecurity and 
everything else to do with the Internet, which is extremely 
important that we keep that technology in the United States.
    But can you speak to how the new CESER Office will 
contribute to the overall goal of making our Nation's 
cyberspace more secure?
    And along those lines, you mentioned that CESER will work 
in an integrated manner with private industry. How will this 
office's interaction with the private sector, which is 
generally more further ahead than, obviously, government at 
this point, and create a more resilient cyberspace? And what is 
the Federal spending gap as far as combating this thing, so we 
know what to fund?
    Secretary Perry. Yes, sir. Thank you, Mr. Calvert. It was 
your call a year ago when I had just been in the position for a 
few weeks, and I came and testified in front of you. I shared 
with you that cyber and cybersecurity was going to be one of 
our priorities. Nothing has changed my mind. As a matter of 
fact, if anything, I realize that this is more and more a high 
priority of this country and, obviously, sector-specific DOE 
and the electrical grid. So, I think there's $96 million 
request for CESER in its own funding account now. This is a 
clean split of responsibility in funding lines from the 
existing Office of Electricity account, and I think it's like a 
13 percent increase over fiscal year 2017 that was enacted. The 
other part of that division, of the current Office of 
Electricity, is going to be electric delivery and it's going to 
continue to pursue it's critical mission to improve 
reliability.
    Again, these will be more, you know, things that we do at 
INL and there will, obviously, be some CESER activities at INL 
as well.
    But the message was clear from the President that the 
warfare that goes on today in the cyberspace is real. It is 
serious, and that we must lead the world, not only in 
protecting our citizens and our infrastructure, but also our 
allies. And this is a responsibility that weighs heavily upon 
the shoulders of the United States, and we intend to not only 
take it seriously, you have seen the response that we have 
taken by standing up this Office of Cybersecurity and Emergency 
Response. What we are trying to do is consolidate DOE's efforts 
and not have them scattered out in different places and trying 
to consolidate them as much as we can so that we get the most 
return on our investment and achieve the best results we can 
get by the expenditures of these dollars.
    Mr. Calvert. One last comment. I know earlier, I think in 
the week you were in a panel about water and energy together, 
but, you know, obviously, water is extremely important in the 
area I represent in California and in the west where we are hit 
by drought, it seems more than ever, that's extremely 
important. So, the laboratory's research into water or data 
collection, computing, simulation, all of that is extremely 
important. And I, also, might bring up better ways of 
desalinization in the future as a potential water source. We 
have a big reservoir out next to us called the Pacific Ocean 
that we'd like to tap into more efficiently.
    Secretary Perry. I'll just add to that very quickly. This 
week we had a roundtable discussion laying out the 
administration's effort to create a focus on water, potable 
water in particular, by creating an x-prize type of an approach 
to this so that we, you know, challenge kids all across the 
country, private sector organizations, our National Labs to 
come up with the new innovation, the new technology that will 
be able to address this issue of water. There are many, myself 
included, that think this may be one of the biggest natural 
resource challenges that we have. And just like 15 years ago 
when they told us that we weren't going to be able to produce 
any more energy in this country. There were some visionaries, 
some people that didn't just take the status quo and the 
conventional wisdom as the truth and go on down the road living 
in this sense of scarcity of natural resource from an energy 
standpoint. I think that same potential is still in America. I 
think our ability to innovate and use our technology, our 
brilliant minds from Silicon Valley to the middle of this 
country. That issue and challenge of finding water for this 
country, and for the world, is out there and it will be 
American innovation. We just can't get in the way. Don't let 
government be an impediment to it. Let government be a true 
partner and to help, lower the barriers, if you will, and be a 
part of the solution, not a part of the problem.
    Mr. Calvert. Thank you. Thank you, Mr. Chairman.
    Mr. Simpson. Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. Mr. 
Secretary, I wanted to, also, piggyback a little bit off of 
what my colleague said. So, my district is down stream of 
Hanford, are adjacent to the good gentleman here, and we go out 
to the mouth of the Pacific. And so, on behalf of my 
communities in Southwest Washington I want to thank you for 
your commitment to Hanford and to really helping keep the 
Federal commitment to clean up the Federal mess, right? So, I 
appreciate that very much.
    Let me transition. Speaking of every year, the BPA 
Transmission Sale-Off Proposal. So, you did get to see part of 
our hydroelectric generation system. Part of that also flows 
down into my area and we're very proud of our hydro system. 
I've heard it would take upwards of 16 coal-fired plants to 
replace the low generation that we have from this amazing 
energy source that is carbonless, and that we, as right pairs, 
in the region put a lot of time and effort into. And that's why 
this proposal it seems perennial, but I am generally confused 
by this one. I wanted to ask more specifically, so I see a one-
time projected $5 billion revenue increase to the Federal 
coffers from a sale-off, but it's over--I want to ask how that 
compares with over, I think it's about $32 billion that has 
been repaid to taxpayers through the use of these publicly-
owned assets. So, that the efficiency and the use far outweighs 
this one-time payment, and I just wanted your thoughts.
    Secretary Perry. I think maybe the best way for me to 
address this is kind of the way you started, is that it is a 
perennial issue and I suspect that it will have the perennial 
result.
    Ms. Herrera Beutler. OK. Very good. We're happy with that. 
The next question I have is Federal dictates that the PMAs, 
which includes Bonneville, must sell their rates have to 
recover all of the costs associated with the generation and 
delivery of power at the lowest possible cost consistent with 
sound business principles. I wanted to ask for your take on why 
the budget proposal claims that changing the PMA rate structure 
from a cost-based to a market-based proposal will mitigate the 
risk to taxpayers because, I mean, if the rural electric co-ops 
and the municipal utilities are paying all the appropriate 
costs, what is the risk to taxpayers that we would be seeking 
to mitigate?
    Secretary Perry. And here's what I would say, I think these 
are conversations that are healthy. I think we shouldn't be 
afraid to have them, to lay it out there, and then let the 
facts pretty much stand for themselves, and if there is a clear 
win for the taxpayers then let's have that conversation in 
front of this committee, but, obviously, I think just to lay it 
out without, number one, really having the data to back it up 
is not particularly of great utility.
    So, let's make sure that we are spending money, and are 
getting the best return on our investment, and if the numbers 
clearly come back and say the way we've historically done that 
is in the best interest of the taxpayers and the citizens then 
I suspect that's the position this committee's going to take 
and I understand my role as saluting and going forward.
    Ms. Herrera Beutler. I appreciate that. One final question. 
You know these ones, obviously, impact the whole region of the 
Northwest. This one's a little bit more specific to one of my 
county's on the Columbia River. I wanted to connect with 
someone on your team on the department's study of the economics 
of pumped storage hydro projects which offer a utility scale 
approach to resiliently integrating renewables. So, I want to 
put a bug in your ear, but I'd like specifically to connect 
with someone.
    Secretary Perry. I'm going to have Under Secretary Menezes 
coordinate with you. That's in his shop.
    Ms. Herrera Beutler. Cool.
    Secretary Perry. Yes, ma'am.
    Ms. Herrera Beutler. Thank you, sir. I yield back.
    Mr. Simpson. Thank you. Just so that we get the full 
picture of what's going on in the Pacific Northwest. If I came 
from Washington I would be arguing the same point that my 
friends and colleagues from Washington are arguing. There's 
another side to this story. I come from southeast Idaho. We 
depend on irrigation water. We currently send 427,000 acre feet 
down the Snake River to flush salmon smolts over the dams. Now, 
a judge has ordered that that be increased, that they spill 
more water, and this is to recover salmon. The one thing we're 
not doing, is recovering salmon. This has been going on for 20 
years, as long as I've been in Congress, trying to figure out 
how to recover the five salmon runs. We spend, currently, BPA 
spends about $700 million a year on salmon recovery. That's 
$700 million that the rate payers are paying.
    Now, Idaho sends this water down. The power generated by 
the dams goes, guess where? Washington and Oregon. A little bit 
into Idaho, not much. Most of it, it's in Washington and 
Oregon. And then when we send this 427,000 acre feet down the 
river, they pump it out after it goes over the dams and 
irrigate land to grow crops in competition with the land in 
Idaho and the crops in Idaho that we couldn't irrigate because 
we sent 427,000 acre feet down the water--or down the river. 
And what we're losing, is the economic benefit of the salmon 
runs that used to be when the salmon runs were going on in 
Idaho you couldn't stand on a river, you couldn't find a place 
on the river so people were fishing salmon runs. It was a huge 
industry.
    And so, what I've told my friends is, ``listen, all of the 
costs of the dams on the Columbia River are borne by Idaho, and 
the benefits go to Washington and Oregon. Maybe we ought to 
consider what's going on here.'' I'm not in favor of removing 
dams, I just don't think it's a smart thing to do. But there's 
got to be a bigger consideration of that. This is the whole 
argument that's going on in the Pacific Northwest right now 
about how do you restore salmon runs, how do you maintain the 
economy, how do you produce the electricity, etc., etc. You 
talk about 16 coal-fired plants. I can build you one nuclear 
power plant that'll do it for many other things.
    Ms. Herrera Beutler. Would the chairman yield for a second?
    Mr. Simpson. I certainly would.
    Ms. Herrera Beutler. I think your point is very well taken. 
I would encourage us not--it's not the Oregon and--really 
Oregon and Washington or--I can speak for those of us in 
Washington, want you to waste more water, right? But we are 
right now battling a Federal judge who is throwing science out 
the window. We're all for restoring those runs, right? We, as 
rate payers, as a region, spend upwards of a billion. I mean, 
there's other things that aren't calculated in there, and in an 
effort to mitigate and protect what we can, and then we have a 
Federal judge that says the Obama administration science and 
the consensus that was put together in the Biological Opinion, 
we're going to chuck that.
    Mr. Newhouse. Four States.
    Ms. Herrera Beutler. Yes, four States. So, we're right now 
battling and----
    Mr. Simpson. I understand that.
    Ms. Herrera Beutler [continuing]. So I think that's where 
our guns should be aiming.
    Mr. Simpson. I understand that, and I'm not opposed to what 
you're trying to do.
    What I'm trying to say is there's a bigger issue here than 
saving four dams. There really is. And it's something that 
needs to be considered by all of us. And this is not a 
discussion, so, all I'm going to say is when you want to weigh-
in on this, there is more than just one side to this argument 
that's going on.
    Anyway, let me talk about something else for just a minute.
    Secretary Perry. I'll stay in my lane here, Mr. Chairman.
    Mr. Simpson. Let me talk about something else for just a 
minute. Your Office of Counterintelligence gave its classified 
briefing on cybersecurity last fall. I had one--Congressman 
Walden was out at the Idaho lab and we took a tour, and we did 
a classified briefing on cybersecurity and stuff out there. And 
I'll tell you--I'll give you my impression. I'm as worried 
about cybersecurity and cyber attacks as I am nuclear. The 
difference with cyber is that they could attack and destroy 
your economy, and you might not know where it came from. It is 
scary business. I think that's our biggest threat.
    And I know that I talked with the people at INL that gave 
us our briefing there and we'll be talking with your people. We 
would like to set up, both Greg and I, a classified briefing 
for our subcommittee and his subcommittee that oversees this 
stuff. But after 9/11, everybody that came in and lobbied for 
something, whether it was an association or a department, or 
whatever, they used the word ``Homeland Security.'' We've got 
to do this for Homeland Security. Whether we're going to grow 
corn in Iowa we had to do it for Homeland Security reasons 
because that was the key phrase that was used.
    And then we came with climate change, everybody that came 
in, ``We got to do this for climate change reasons. We've got 
to save the environment,'' et cetera. Now the key phrase in 
cybersecurity. And my question is, is that I think we're 
attacking it department-wide, but I'm not sure that we're 
attacking it government-wide. Today nobody can tell us in the 
Federal government how much money we spend on climate change 
because everybody has some money to address climate change. We 
spent $10 million in the National Park Service, and I can't 
remember how many million in the Forest Service as if the 
climate change is going to be different when it hits the border 
of the park.
    And I'm wondering how do we coordinate government-wide to 
address the issue of climate change so we all know what 
different departments are doing. Who's the lead of this? I 
would like to be able to appropriate money to someplace to 
address cybersecurity that knows that we're doing it 
government-wide. And if, in the Department of Energy we address 
cybersecurity, what if the Department of Agriculture's not 
doing it or somebody else? So, how do we do this government-
wide?
    Secretary Perry. It's my understanding that from a National 
security standpoint the Department of Homeland Security is the 
lead agency on that. We have a sector-specific, in the energy 
sector, the electrical grid is our responsibility. I think you 
bring up a really good point that from a budget standpoint and 
for managing those budget standpoints that there are probably a 
lot of line items or sub-line items in budgets all across 
government that in their IT budgets there's something in there 
for cyber, and you're absolutely correct, Mr. Chairman, do we 
have a global plan for this government so that we're not 
duplicating services? One of the things that I found coming in 
here from being a Governor and a CEO, if you will, of a pretty 
big entity, that there is not, you know, some people may say, 
``Well, that's OMB's responsibility.'' I hope that's not the 
answer. That we have a better effort government-wide to make 
sure, number one, that we are successfully being able to defend 
to the American people from these cyberattacks that are 
happening literally hundreds of thousands of times a day. And 
that we're doing it in a way that is not terribly wasteful and 
in a way that is as efficient as we can make it. I'm not 
assured of that. I will tell you that I am not confident that 
the Federal government has a broad strategy in place, that is 
not duplicating or as least duplicative that it can be, and so 
I'll just stop by saying that I will, you know, I'd love to 
work with you in answering that challenge.
    Mr. Simpson. I appreciate that. One of the other challenges 
is, as you know, we're--as you said, it's the electrical grid. 
The electrical grid is mostly privately owned, and that means 
we have to work with the private sector. One of the challenges 
is, is when you go to Idaho Power, I'll use as an example, and 
you go to the CEO and say, ``We've detected the possibility of 
something where you need to do X, Y, and Z,'' you need to be 
able to talk to the CEO on a classified basis. And when it 
takes two years to get a classified clearance for a CEO of 
something, they kind of look back at you like ``that's the 
government way,'' you know. Somehow we've got to speed up the 
classification process of how we get these classifications 
through. It should not take two years. That's just crazy. It 
makes it more and more difficult to work with.
    Secretary Perry. Again this is a conversation we can have 
offline. There may be another way rather than forcing someone 
to get a classified briefing before they can be read into a 
very specific piece of information. I don't know whether that 
is possible or not but I think we need to look at, we 
certainly--you are absolutely correct about we have got to be 
able to have a private sector. Rail lines are in most cases 
private. Electrical wires in most cases are private. Pipelines 
in most cases are private and all of those are part of the 
infrastructure in this country that cyber, that are exposed to 
cyber-attacks.
    Mr. Simpson. One last question and I will just--you can 
answer this later if you want but as I have mentioned in the 
past we are looking at ways to continue the use of the AMWTP, 
the Advanced Mixed Waste Treatment Process, that are out of the 
compactor and stuff. They are going to be running out of their 
job essentially because they have done their job and are there 
alternative uses of that? Is there waste that could be 
compacted and readied for WIPP that could be transported there 
or do we close it down and I don't know.
    Secretary Perry. Yes, sir.
    Mr. Simpson. But I have asked the Department to take a look 
at that and see if there are other uses for it or do we close 
it down, one of the two. So.
    Secretary Perry. Yes, sir. And, you know, there are a lot 
of those types of MOX's. One of those that we are having that 
conversation with now is OK, so MOX is not going to work and 
you are going to go to D&D if that is where you all decide. 
What are the different alternatives for that MOX facility? We 
are talking about that now. Obviously----
    Mr. Simpson. I'm thinking the world championship 
racquetball courts.
    Secretary Perry. There are some legitimate options that are 
out there and I would think that for AMWDP it is the same.
    Mr. Simpson. Yes. Ms. Kaptur.
    Ms. Kaptur. Thank you. Mr. Secretary, I just wanted to make 
a statement at the beginning regarding the Energy Efficiency 
and Renewable Energy account again. You don't have to comment 
on this but I just wanted to point out that almost all the 
centers, the hubs and clean energy manufacturing institutes are 
terminated in your budget submission.
    I come from a heavy manufacturing part of the United States 
as you well know and when I talked to the head of Ford Motor 
for example, and we were at a plant dedication for their heavy 
truck division, and I said what's the most important thing I 
can do to help you compete? He said cut my energy costs by a 
third.
    I really think that these clean energy centers particularly 
focused on our heavy energy users are really critical. If we 
lived in a world where other countries traded fairly and 
competed fairly, terrific. But we don't. And so I just wanted 
to draw that particular set of activities in your department to 
your attention and to say that these heavy energy users dealing 
with the uneven marketplace that they deal with globally, the 
VAT taxes out there, closed markets are out there, predatory 
practices are out there, you know, I get sick of it.
    Secretary Perry. Yes, ma'am.
    Ms. Kaptur. We now bear half a trillion dollars in trade 
deficit every year for over a quarter century. Hey, why do you 
think the American people are upset? Because they are paying 
the price of all of this.
    So the idea that we could help our own manufactures compete 
on our own territory, no brainer.
    Secretary Perry. Yes.
    Ms. Kaptur. We ought to be able to do that. So I just 
wanted to checkmark that for you and say please pay some 
additional attention to it. Coming from Texas, you will 
understand it completely.
    Secretary Perry. Yes, ma'am.
    Ms. Kaptur. My final question though has to do with the 
Nuclear Posture Review. The administrations 2018 nuclear 
posture review was released early last month and a nearly final 
draft was leaked a little bit before that. But I'm actually not 
hearing very much from the NNSA on how it might implement the 
new nuclear weapons capabilities that the NPR calls for. There 
are a whole lot more costs that will be foisted upon the 
Department and as Congress considers the Nuclear Posture Review 
it is critical that we really have an open debate about it and 
if it make sense to take on these proposals from a security 
standpoint, a fiscal standpoint, a work force standpoint, and 
I'm wondering, Mr. Secretary, if you could commit that this 
subcommittee will be fully briefed on NNSA's plans for 
regarding the NPR starting with the fiscal year 2018 budget and 
beyond.
    Secretary Perry. Yes, ma'am. And just to add a tiny bit of 
color to that, we have a new administrator at NNSA. Very 
capable, Lisa Gordon-Hagerty is an incredibly bright and 
capable, I look forward to having her come over and sit down 
with the committee or with you singularly or collectively to 
share with you the collective vision and the intent to follow. 
Our 2019 request which is a 19 percent increase and over fiscal 
year 20 17 levels and is consistent with the NPR. So yes, I 
think you will find a very thoughtful, experienced and helpful 
partner in the Administrator.
    Ms. Kaptur. When she comes we will be very interested in 
knowing the impact that the posture review will have on the 
modernization program already on record. And also NNSA is 
already at capacity working on four life extension projects.
    Secretary Perry. Right.
    Ms. Kaptur. And so the issue of the workforce, the 
infrastructure, these suppliers are all held in advance and we 
have a lot of uncertainty about how the new proposals will 
impact ongoing efforts within the department.
    Secretary Perry. We know it and we recognize it as a 
challenge.
    Ms. Kaptur. All right. Thank you. Thank you very much for 
your appearance today.
    Secretary Perry. Yes, ma'am. Can I just add one thing here 
just very quickly about your conversation with the manufacturer 
that said if you will just lower our energy costs by one third? 
One of the things that we did in my home state while I was the 
governor was being able to deregulate our energy market in the 
state of Texas. Now we are a little bit different because we 
have our own grid if you will, ERCOT, for the entirety. But 
government regulations, just like we see here in a lot of 
different places, cost manufacturers a lot and one of the 
things that we talked about earlier was making sure that there 
is an efficient, reliable, affordable supply of energy. And so 
keeping those nuclear plants, and coal plants so that we have 
that competition out there in the market is one of the ways 
that you will drive down regulations and reliability and 
affordability of energy sources.
    We are going to make a lot more impact on this one third 
reduction in energy costs than practically anything I can think 
of.
    Ms. Kaptur. What you said, Mr. Secretary, about competition 
is very important because what northern Ohio will face and this 
is the heavy manufacturing band that actually stretches from 
Gary, Indiana all the way over to Pittsburgh if you really want 
to look at what is going on in our region. But here you have a 
nuclear power supplying the major base power and if that is 
removed OK, without any forethought or, you know, just sort of 
stupidly do this, then natural gas, we have the largest 
Marcellus Utica Shale discoveries on the whole continent and so 
that is going to be displaced.
    But I have no doubt in my mind if there is no competition, 
those prices will rise like crazy. And so what you just said is 
really important. And that's what Congressman Joyce and I, 
among the things that we are worried about, are we going to 
have this wild mouse sort of reaction in our area? Are we going 
to have a smoother transition? Because if we have the wild 
mouse solution where you go off the edge and everybody falls 
off, we will have so many casualties. Human casualties in the 
work force, casualties in terms of consumer pricing, casualties 
of the skilled work force and I really am very worried about it 
because that has been our history. We have never done it right. 
We didn't do it right in the coal fields and we have a chance 
of not doing it right again and we don't really mandate the 
Department of Energy to have a smooth transition. We don't do 
that.
    Secretary Perry. We will work with you, Ms. Kaptur.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman and members.
    Mr. Simpson. Final question, Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman, appreciate that. Mr. 
Secretary, last summer during your visit to the Northwest you 
also were able to visit one of the premiere National 
laboratories that we have in this country, the Pacific 
Northwest National Laboratory. Thank you very much for doing 
that. In fact, on your visit they showed us things that I had 
never seen before so please come back so I can see the rest of 
what is going on out there. But it was an honor to have you 
there.
    Just to piggyback on some of the other discussion that has 
been going on this morning, you've heard a number of times 
about the concerns with the proposed reductions to the Office 
of Energy Efficiency and Renewable Energy. And I just want to 
make sure that you appreciate the potential impacts to the 
National laboratories of that proposal in advancing new energy 
technology.
    I understand the Departments focus on early stage research 
but I also know that there has got to be a strong support for 
applied research as well and I believe that they rode the 
commercialization is far longer and riskier than the view the 
Department may hold. So many EERE research programs assist the 
development of advanced energy technologies in the earliest 
stages and it is critical to bridging those potential ``valleys 
of death'', a term that I have learned recently, that often 
appear throughout this development process.
    So could you maybe give us, expand or expound a little bit 
more about your views and the value of applied R&D at the labs 
and what you will do to ensure that this research gets out of 
the labs and into the market place?
    Secretary Perry. Yes, sir. Part of my response to you would 
be my history of supporting that type of work both basic 
research. I understand very well from practical observations 
and applications as the governor creating a program called the 
Emerging Technology Fund. I think one of the reasons that these 
programs have been criticized in the past and my observation, 
and I think the reason why, is because they haven't been 
managed that well. That Members of Congress or members of the 
public have looked at this and went, you know, we don't see any 
return on our investment here. You just, put a bunch of money 
out there into something that sounded good and then never saw 
it on the market. And granted, there is not a banker in America 
that has got a 1,000 percent batting average.
    Mr. Newhouse. Yes, right.
    Secretary Perry. On loans. I get that. But what I will 
offer to you is this committee as Congress makes decisions 
about what your priorities are and what you want funded, if it 
is the observation that you want dollars to be spent on these 
early stage development, I have a track record of bringing 
really good, capable individuals in, to operate these programs 
in an effective way that will commercialize them. And that the 
public and the world get to enjoy these technologies that, you 
know, would never have been commercialized had we not been 
engaged with this.
    Do we want to make sure that we get a good return? Yes, 
sir. Do we want to be held accountable? Absolutely. But I will 
tell you that my interest in this is something not unlike I did 
while I was the Governor of Texas. We were relatively 
successfully with it and, you know, there will always be people 
who criticize government investing in certain innovative 
programs. I know that, that is OK.
    We have some pretty good examples of sustainable 
transportation portfolio that we are funding in this budget. 
There is a renewable power portfolio and this is early stage 
research on solar, wind and geothermal. We are all-of-the-above 
and I think our budget and our focus backs that up.
    And thirdly, the energy efficiency portfolio funds $142 
million. In the last 40 years of some early stage R&D that had 
some real impact, advanced lighting, space heating, cooling, 
billing, envelopes and, I think our commitment to this is still 
very much all of the above. I think what you are going to 
require of us and our expectation and our budget is one that we 
are going to oversee this efficiently. We are going to do it 
with good outside input and that our results are what we are 
going to be judged by.
    Mr. Newhouse. I appreciate that commitment and also commit 
to you that we will work with you, help to tell the story, help 
to make the public and Congress feel comfortable about the 
successes we have been able to experience through these 
investments. They are many and significant and just real 
quickly about this dam issue.
    I'm not spelling that word. Mr. Simpson is absolutely 
right. There has to be a larger discussion about the 
relationship between all the partners in this, Idaho included. 
And I do not deny that and I want to look, I look forward to 
working with the Chairman on that as well.
    Why this is so urgent is because within three weeks there 
is going to be a requirement to increase the spill over those 
dams which will require more water coming from Idaho. And so 
this impacts all of us in a negative way and I know you 
mentioned you wanted to say in your lane on this one but 
actually this is your lane and you could probably tell us at 
great length the impact, the harm on our energy infrastructure 
on forced spill and if we had time to go into that I would ask 
you that question and I will leave it to the Chairman if he 
wants to entertain that answer.
    Secretary Perry. Yes, well let's talk after the meeting, I 
mean, I think this is a pretty broad issue that covers a lot. I 
can talk about it from a judicial restraint standpoint. I can 
talk about it in the importance of it may be a good exhibit of 
why they need to actually teach economics at law school.
    Mr. Simpson. That's what I'm saying, the reason we have 
economists is to make astrology look respectable. So but it is 
an important----
    Mr. Newhouse. Thank you, Mr. Chairman----
    Mr. Simpson [continuing]. But it is an important issue that 
he talks about and it is and my concern on my end of it is if 
we don't do something about it, if we don't fix this, 10 years 
from now the salmon runs are gone and they are non-recoverable. 
So there, I mean, there is a whole range of issues that are 
dealt with here.
    Mr. Newhouse. Yes, absolutely. Absolutely. And that 
discussion needs to happen.
    Ms. Simpson. And I understand the decision will probably 
come down the day before.
    Mr. Newhouse. But we are looking to try to buy some time to 
mitigate some of these costs that are going to happen.
    Mr. Simpson. I understand that.
    Mr. Newhouse. Unnecessarily. Unnecessary costs.
    Mr. Simpson. That's why I've been supportive of what you 
are going to do.
    Mr. Newhouse. Yes, I appreciate that.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Mr. Secretary, if you could dispatch the 
new Administrator of the NNSA quickly to us that would be very 
helpful.
    Mr. Simpson. She will be here Tuesday. Consider it done.
    Mr. Fortenberry. Well done.
    Secretary Perry. Yes, very good. Thank you so much. We do 
some paranormal work over at DOE.
    Mr. Fortenberry. I see. Well good. That will be helpful. 
Look forward to that. And then your other offer of another 
meeting in another place to talk through some of the more 
sensitive things.
    Secretary Perry. Yes, sir.
    Mr. Fortenberry. The quicker we could do that the better.
    Secretary Perry. Yes, sir, absolutely.
    Mr. Fortenberry. Could we look at a matter of weeks in that 
regard?
    Secretary Perry. Yes, sir. Or less.
    Mr. Fortenberry. Thank you. Quickly, what is your 
perspective on hydrogen fuel cells? There are some experts that 
suggest that real expansive, widespread, commercial viability 
is on the horizon. And what is the department's perspective on 
that and what is the research intensity in the department in 
that regard?
    Secretary Perry. Yes, sir. We continue to support that 
research. My personal observation is that it's going to be 
driven by economics just like almost everything is from the 
standpoint of some states are going to put in CNG filling 
stations where there is big heavy haul, such as from Dallas to 
San Antonio and to Houston back to Dallas. 85 percent of the 
population of my home state lives in that triangle. We passed 
legislation to put CNG in there so you could get heavy haul 
trucks to transition from older, more inefficient diesel 
engines, to CNG. The cost of maintenance, I mean, there is a 
lot of different reasons why that makes sense.
    A lot of those decisions appropriately should be made at 
state levels and that states need to make those. Again, fueling 
stations for hydrogen, the transition to those types of 
vehicles, is there a use for them in generators? We think there 
is some opportunities.
    When you think about the number of generators that were 
needed in the Texas Gulf Coast, Florida, and when Superstorm 
Sandy hit, having access to that type of technology, the cost 
becomes less important in that sense. When you start talking 
about human lives and being able to either keep pharmacies up 
and going, gas stations having access to long term generation, 
so there are some aspects of hydrogen fuel.
    I'll finish with this one. Out at Savannah River, they are 
doing some work on hydrogen fueled hypersonic aircraft. And, I 
mean, pretty fascinating work, take you anywhere in the world 
in four hours from Los Angeles. And, I mean, this is not Buck 
Rogers stuff. I mean----
    Mr. Fortenberry. This is academics.
    Secretary Perry [continuing]. This is literally to the 
point of manufacturing and using hydrogen as the fuel. And we 
know, you know, from a global environmental impact when you 
start thinking about the emissions that are probably as hard on 
the climate, the environment is high level emissions when you 
start using hydrogen fuel to run those aircraft then your 
byproduct is H2O, water vapor.
    Mr. Fortenberry. Thank you, Mr. Secretary.
    Mr. Simpson. Did you have something you wanted to say 
Marcy?
    Ms. Kaptur. I just wanted to say always seeking to curry 
favor with the Chairman, I just wanted to say that I really 
endorse his statements today on cybersecurity and the benefit 
that we would have as a subcommittee regarding a private 
briefing on the administration's approach to that issue across 
departments. Thank you, Mr. Chairman, for bringing that up.
    Mr. Simpson. You're welcome. One last question and just for 
the record so that you can state it, you're opposed to the 
uranium sales to continue the funding of Portsmouth?
    Secretary Perry. That is correct.
    Mr. Simpson. We are going to try to help you out with this. 
I wanted that on the record because I want somebody that is not 
here that might be listening.
    Secretary Perry. Yes, sir.
    Mr. Simpson. Because I think we need to get your Assistant 
Secretary for EM confirmed as quickly as possible confirmed 
through the Senate. So----
    Secretary Perry. That would be helpful.
    Mr. Simpson [continuing]. Anything we can do to help but we 
will help you out on that.
    Secretary Perry. Yes, sir.
    Mr. Simpson. Thank you for being here. I appreciate your 
enthusiasm for the Department. I think it is a great place that 
you work and they do fantastic work out there. And thank you to 
your staff that you have got, those that you have got here with 
you and those that you don't.
    Secretary Perry. And just for the record I'm going to stay 
there.
    Mr. Simpson. We enjoy working with them and get us those 
justifications if you can as soon as possible.
    Secretary Perry. Yes, sir. Thank you.
    Mr. Simpson. Thank you. Hearing is closed.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
                                              Tuesday, March 20, 2018.

                NATIONAL NUCLEAR SECURITY ADMINISTRATION

                               WITNESSES

LISA GORDON-HAGERTY, UNDER SECRETARY FOR NATIONAL SECURITY AND 
    ADMINISTRATOR FOR THE NATIONAL NUCLEAR SECURITY ADMINISTRATION
PHIL CALBOS, PRINCIPAL ASSISTANT DEPUTY ADMINISTRATOR FOR DEFENSE 
    PROGRAMS
DAVE HUIZENGA, PRINCIPAL ASSISTANT DEPUTY ADMINISTRATOR FOR DEFENSE 
    NUCLEAR NONPROLIFERATION
ADMIRAL JAMES CALDWELL, OFFICE OF NAVAL REACTORS
    Mr. Simpson. I would like to call the hearing to order. 
Good morning, everyone.
    Today's hearing is to discuss the details of the Fiscal 
Year 2019 Budget Request for the National Nuclear Security 
Administration, or the NNSA, which includes programs to sustain 
our nation's nuclear weapon stockpile and advance U.S. 
nonproliferation goals, and provide safe and reliable nuclear 
propulsion for the U.S. Navy.
    I would like to welcome all of our witnesses, those we are 
hearing from for the first time, and those we are welcoming 
back.
    Ms. Lisa Gordon-Hagerty is the newly-confirmed 
Administrator of the National Nuclear Security Administration; 
Admiral James Caldwell is testifying again as Director of Naval 
Reactors; Mr. Phil Calbos is the Principal Assistant Deputy 
Administrator for Defense Programs; and Mr. Dave Huizenga who 
has previously testified before this subcommittee in a 
different capacity, is testifying today as the Principal 
Assistant Deputy Administrator for Defense Nuclear Non-
Proliferation.
    Thanks to all of you for being here today, and we look 
forward to hearing your testimony.
    The President's budget request for the Department of Energy 
shows a strong commitment to enhancing our newest national 
security. The request for the NNSA is $15.1 billion, an 
increase of $1.16 billion or 8 percent above last year's budget 
request.
    This funding will advance the modernization of the nuclear 
weapons stockpile and its supporting infrastructure, prevent, 
counter and response to nuclear proliferation and terrorism 
threats and support the Navy's nuclear propulsion needs.
    We look forward to hearing from you today on how this 
administration's recently concluded Nuclear Posture Review will 
impact ongoing nuclear stockpile modernization plans, as well 
as what is needed to support the nuclear infrastructure and 
workforce that is the foundation our nation's nuclear 
capabilities.
    With the confirmed Administrator now in place to lead the 
NNSA, we are also looking forward to hearing more about your 
strategies for addressing long-standing governance and 
management problems in the nuclear security enterprise.
    Please ensure that the hearing record responses, to the 
questions for the record, and in the supporting information 
requested by the subcommittee are delivered in final form to us 
no later than 4 weeks from the time you receive them. I also 
ask that if members have additional questions they would like 
to submit to the subcommittee for the record, that they, 
please, do so by the close of business on Friday.
    With those opening comments, I would like to yield to our 
Ranking Member, Ms. Kaptur, for any opening comments that she 
might have.
    Ms. Kaptur. Thank you, Mr. Chairman, for yielding the time. 
And thank you all for joining us today. And we appreciate your 
appearing before our subcommittee. And we want to welcome the 
Administrator, Gordon-Haggerty, in your new role. It was a 
pleasure to meet with you recently. Thank you very much for 
taking the time.
    The Department of Energy and the National Nuclear Security 
administration have an awesome mandate to safeguard and 
shepherd our nation's nuclear weapons complex, which undergirds 
our national security and strategic interests. And I know that 
each of you today bear the weight of that awesome 
responsibility. Thank you.
    I posture to note that nuclear weapons and the platforms 
that deliver them serve as only one component of our national 
security and national nuclear strategy. Because, in fact, 
strategic diplomacy must be our nation's first pathway to 
address global nuclear challenges.
    However, I am concerned that this administration does not 
take the need for diplomacy nearly as seriously as it should. 
The reductions and staffing at the State Department are 
decimating our ability to effectively exert that tool of our 
national power to mitigate the risk we face from the countries 
who have these weapons on hand, and the lack of appointment of 
certain ambassadors is particularly troubling.
    In addition, I feel the need to remind this administration 
that the entire nuclear enterprise is an exercise in 
deterrence. That should be the frame through which every 
decision about our nuclear capacity and capability is made. How 
do our adversaries perceive alternative A versus alternative B?
    Diplomatic engagement is fundamental and critical to the 
art of deterrence, and without it, it makes nuclear engagement 
more possible. It gives us insight into other nation's 
perceptions, but it also allows us to help us provide the 
narrative so that our intentions and our policies are 
unambiguous.
    And of course the NNSA Defense Nuclear Nonproliferation 
Program also plays a central role in our nuclear security by 
securing nuclear material globally, and providing important 
insights into foreign nuclear programs, bringing the depth of 
knowledge that is well valued.
    These efforts rely first on relationships and soft power. 
The Nonproliferation Program has an important role in 
verification of treaties and agreements to curb nuclear weapons 
and weapons-usable materials.
    DNN develops technologies to help strengthen the safeguards 
mission of the International Atomic Energy Agency. For example, 
the Department of Energy's National Labs created the on-line 
Enrichment Monitor, which allows the IAEA inspectors to measure 
in real time the enrichment levels of uranium, an enormous step 
forward for verifying compliance with safeguards agreements.
    Yet, in a budget request that sees NNSA increasing 17 
percent overall, funding for the Nonproliferation Program is 
down slightly.
    Since we last met to review the NNSA budget we continue to 
see evolving challenges around our world, and an intensified 
threat environment such as from Russia and China.
    The Nuclear Posture Review recognizes these threats, and 
therefore focuses on ensuring and rebuilding military nuclear 
capabilities, but pays little more than lip service to the 
treaties that have enabled dramatic reductions in certain types 
of nuclear weapons.
    My concerns with the NPR are many, and I will name just a 
few here. I feel compelled to do so. The Nuclear Posture Review 
proposes two new nuclear weapons capabilities. While these are 
not new weapon systems, they do not currently exist in our 
nuclear arsenal as well as retaining the B83 gravity bomb, 
which the Department of Defense and Energy committed in 2013 
would be retired.
    Number 2, I have serious concerns about the potential for 
low-yield nuclear weapons making the threshold for nuclear use 
more likely. Will our potential adversaries know what type of 
weapons we are using if the nuclear weapons are substantially 
similar to conventional ones?
    This is particularly concerning as the NPR also proposes to 
expand the circumstances under which nuclear weapons could be 
used including in response to ``non-nuclear strategic 
threats.''
    Number 3, finally, there is the issue of cost. To continue 
to field the Nuclear Force the size we have today is estimated 
to cost $1.2 trillion according to the CBO, and 400 billion 
alone, in modernization costs.
    This doesn't include any of the proposed new nuclear 
capabilities outlined in the Posture Review. Regardless of my 
opinion on these matters or my vote, these costs increases are 
simply not realistically feasible given the other constraints 
on the Federal budget.
    And so I would say to my chairman, and to my fellow 
subcommittee members, it is critical that we have a robust 
public debate about the proposals in the NPR within the context 
of our fiscal situation.
    Recognizing the new threats we face, we need to discuss 
these important issues, and in particular, we need to hear from 
the NNSA, because so far there has been a significant lack of 
detail about how we would implement the proposed new 
capabilities.
    Mindful of the many needs of our nation, this subcommittee 
must ensure precious resources are balanced appropriately as 
part of a coherent strategy that includes all the tools of our 
national power.
    And with that, I close my remarks. Thank you, Mr. Chairman, 
for the time.
    Mr. Simpson. Thank you. Ms. Gordon-Hagerty, you have been 
on the job now for 3 weeks. So, welcome to our committee for 
the first time. We look forward to hearing from you.
    Ms. Gordon-Hagerty. Thank you. I am delighted to be here. 
Chairman Simpson, Ranking Member Kaptur, and distinguished 
members of the subcommittee, thank you for the opportunity to 
present the President's Fiscal Year 2019 request for the 
Department of Energy's National Nuclear Security administration 
Budget Request.
    It is a privilege to appear before you today, representing 
the extraordinary men and women of the DOE NNSA and the vital 
roles we play in executing our national security missions.
    Chairman Simpson, a written statement has been provided to 
the subcommittee, and I respectfully request that it be 
submitted for the record.
    Mr. Simpson. Will do.
    Ms. Gordon-Hagerty. Thank you. Since being sworn in almost 
4 weeks ago, I have had the opportunity to receive in-depth 
briefings by the NNSA's programs and projects. I still have a 
great deal more to learn, but what I have seen so far is 
impressive.
    NNSA has shown steady progress with the support of this 
subcommittee and Congress. For example, infrastructure and 
modernization, flight testing of the B61-12, removals of 
highly-enriched uranium from Ghana and Kazakhstan, and 
commissioning of a new class of nuclear-powered aircraft 
carrier.
    These are but a few examples of how NNSA has lent its 
world-class expertise to keeping our nation safe and secure. 
But there is much more to be done to meet the challenges posed 
by the geopolitical environment.
    The President's fiscal year 2019 Budget Request for NNSA is 
$15.1 billion, providing the resources required to help ensure 
we are able to protect and keep our Nation, allies and partners 
safe. And this request also moves us towards a deterrent that 
is modern, robust, flexible, resilient, ready and appropriately 
tailored to meet current and future uncertainties, as outlined 
in the 2018 Nuclear Posture Review.
    The fiscal year 2019 budget request clearly demonstrates 
the administration's strong support for NNSA, and our three 
enduring missions, maintaining the safety, security and 
reliability of the U.S. nuclear weapons stockpile; reducing the 
threat of nuclear proliferation and nuclear terrorism around 
the world; and providing nuclear propulsion for the U.S. Navy's 
fleet of aircraft carriers and submarines.
    NNSA's fiscal year 2019 budget request for weapons 
activities account is $11 billion, an increase of 7.6 percent 
over the fiscal year 2018 request. This funding supports the 
nation's current and future defense posture, including 
infrastructure across the nuclear security enterprise.
    This budget request supports our three life extension 
programs and one major alteration, and advances 
recapitalization and modernization of our Cold War era 
infrastructure.
    The modernization and recapitalization of our nuclear 
security enterprise infrastructure will take decades, but we 
are making steady progress.
    With this subcommittee's support, over the least several 
years, NNSA has completed more than 100 infrastructure 
recapitalization projects, and accelerated critical maintenance 
work to reduce risks to our workforce and our missions.
    Additionally, the Uranium Processing Facility Project 
continues to make timely progress with the recent completion of 
two subprojects that were finished two months ahead of 
schedule, and $18 million under budget.
    Of the five remaining subprojects, two are underway and 
three will begin this year.
    The fiscal year 2019 Budget Request also includes $1.9 
billion for defense nuclear nonproliferation account, a 3.9 
percent increase over the fiscal year 2018 request. This 
funding continues NNSA's far-reaching activities around the 
world to prevent the proliferation of nuclear weapons, counter 
the threat of nuclear terrorism, and respond to nuclear and 
radiological incidents.
    The budget request for naval reactors is $1.8 billion, a 
20.9 percent increase above the fiscal year 2018 request. In 
addition to supporting today's operational fleet, this request 
sustains Naval Reactors' ability to deliver tomorrow's fleet.
    It funds three key projects. Developing the Columbia-Class 
Reactor Plant, refueling a research and training reactor in New 
York, and building a new spent-fuel handling facility in Idaho.
    The budget request for Federal salaries and expenses is 
$422.5 million. This request provides funding for 1,715 full-
time equivalents for effective program management and 
appropriate oversight of the nuclear security enterprise.
    Of note, since 2010, NNSA's program funding has increased 
50 percent, while staffing has decreased 10 percent.
    NNSA's fiscal year 2019 budget request is a result of a 
disciplined process to prioritize funding for validated 
requirements as designated by the administration, and it sets 
forth the foundation to implement policies from the Nuclear 
Posture Review and the National Security Strategy.
    Thank you for your continued strong support and the 
opportunity to testify before you today. And I look forward to 
answering any questions you may have. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Simpson. Thank you. Admiral Caldwell, welcome back.
    Admiral Caldwell. Thank you, sir; and good morning.
    Mr. Simpson. Good morning.
    Admiral Caldwell. Chairman Simpson, Ranking Member Kaptur, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today.
    This subcommittee has consistently provided tremendous 
support to Naval Reactors, enabling my organization to provide 
our Navy with effective nuclear propulsion plants, and to 
ensure their safe, reliable and effective operation.
    The results of your support are these, our warships, 
nuclear-powered warships have unmatched reliability, speed and 
endurance. These key attributes allow our nuclear fleet to meet 
the demands of forward presence and crisis response worldwide.
    Two weekends ago I participated in ICEX 2018, onboard USS 
Hartford in the Beaufort Sea, above the Arctic Circle. Here, 
the ship and the crew are conducting tactical exercises with 
the USS Connecticut. The fact that our submarines can operate 
unsupported in one of the world's harshest environments, is a 
testament to the tactical advantages of nuclear power.
    Today, over 45 percent of the Navy's combatants are 
nuclear-powered including 11 carriers, and 71 submarines. Over 
the past year, Naval Reactors has supported deployed operations 
of 39 submarines, and 33 strategic deterrent patrols.
    At any given time, there were approximately 49 of 71 
submarines deployed or ready to deploy. This past November, 
three carriers, Reagan, Roosevelt and Nimitz, conducted the 
first tri-carrier operations in a decade off of the Korean 
Peninsula.
    Last year the Navy commissioned USS Washington, our 14th 
Virginia-class attack submarine, and the aircraft carrier Ford. 
The Ford is the first new propulsion plant design in over 40 
years. While matching the high speed of our Nimitz-class 
carriers, the Ford propulsion plant delivers 25 percent more 
power and three times the electrical generation capacity. It 
reduces maintenance by 30 percent, and reduces the required 
manpower by 50 percent.
    In nuclear shipbuilding we have 11 Virginia-class 
submarines in various stages of construction, and just 
commissioned our 15th Virginia-class submarine, the Colorado, 
this past weekend.
    Construction of the next aircraft carrier, John F. Kennedy, 
is well underway. Naval Reactors' budget request for fiscal 
year 2019 is $1.79 billion, and this represents an approximate 
21 percent increase over the fiscal year 2018 requested level.
    This is consistent with the plan of record provided in 
previous budget requests. This request represents a peak budget 
year, in the future year's nuclear security plan, and is driven 
by the planned funding ramp up for two national priority 
projects.
    The first project is the refueling overhaul of a research 
and training reactor in New York. That refueling overhaul 
starts later this year. This effort supports the reactor 
development of the Navy's Columbia-class ballistic missile 
submarine, and will provide 20 more years of training for 
nuclear fleet operators.
    The second project is the new Naval Spent Fuel Handling 
Facility in Idaho, on which we broke ground last summer. This 
facility will enable long-term, reliable processing and 
packaging of spent nuclear fuel from aircraft carriers and 
submarines.
    This budget request also invests in three key areas. 
Recapitalization of our vital laboratory facilities and 
infrastructure; decontamination and decommissioning efforts to 
reduce environmental liabilities of legacy facilities; and 
advance reactor technology for initial use in Virginia-class 
submarines, and ultimately for use in future classes of 
nuclear-powered warships.
    Finally, my budget request also allows us to continue 
design and manufacturing development for the new propulsion 
plant for the Columbia ballistic missile submarine which will 
feature a life-of-ship reactor core.
    I want to assure the committee that our planning efforts 
for current and future budgets are done with extreme rigor. The 
investments we make today in our research and development, not 
only advance capability, but also result in cost savings, and 
improved capability far into the future.
    Similar investments a decade ago produced the technology we 
are employing in Columbia and enabling us to do the mission 
with two fewer submarines.
    I understand the difficult budget environment in which 
Congress must craft legislation, and I respectfully urge your 
support for aligning allocations with the fiscal year 2019 
Budget Request.
    Thank you for your longstanding support, and I look forward 
to discussing my program.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Simpson. Thank you, Admiral. Mr. Calbos and Mr. 
Huizenga, you didn't have written statements but do you have 
some opening comments you would like to make?
    Mr. Huizenga. I do not have a statement.
    Mr. Simpson. Yes, sir. Just take questions. Thank you. 
Thank you for those opening comments.
    First question, Madame Administrator. Last week, the 
National Academies released a report describing the persistence 
of governance and management problems in the nuclear security 
enterprise and the failure of past attempts to address them. 
This subcommittee has a long history of strong oversight of the 
agencies under its jurisdiction and has taken an active 
interest in finding solutions to many of these issues described 
in this particular report. We look forward to hearing from you, 
more about your plans to take on these longstanding problems 
and to deliver a program that will successfully modernize the 
U.S. nuclear weapons stockpile and the supporting NNSA 
infrastructure.
    Now the question. What do you believe is the highest 
priority management and operating issues that are impacting 
NNSA's ability to successfully carry out its mission?
    And how do you intend to rebuild NNSA's credibility 
specifically with regards to the NNSA's ability to deliver its 
programs on time and within budget to consider an appropriate 
range of alternatives for its major acquisitions before 
presenting Congress with the funding requests to operate with 
transparency and how funds are being used, and to improve the 
cost estimates so that we can fully consider the implications 
of the funding proposals that we are being asked to support? I 
know that is a lot of questions.
    Ms. Gordon-Hagerty. Well, I will see what I can do to 
answer and be responsive to all of them. Thank you, Chairman. 
First of all, having been in the position for barely 4 weeks 
now, I have however had the opportunity to be briefed as I had 
mentioned before about all the good programs that are going on 
and the wealth of information regarding management and 
governance. I am very familiar with regard to the Mies 
Augustine reports, the CRENEL reports and most recently the NAS 
NAPA or the National Academy of Science, National Academy of 
Public administration.
    In fact, prior to their release of their interim report 
last week, I asked them to come in and brief me on what their 
interim findings were of the report.
    I am leaning as far forward as I possibly can to ensure 
that we continue to institute good governance and good 
management practices throughout NNSA and also I want to mention 
that I am also dual hatted, an unusual position because I am 
also the Under Secretary of Energy for Nuclear Security. And in 
that regard I am going to make full use of that opportunity 
that I can reach into the entire Department of Energy as well 
as within the National Nuclear Security administration.
    And I think with the reforms that Secretary Perry and 
under--and Deputy Secretary Brouillette have started, I think 
there is an opportunity to take some of those governance 
reforms and also implement them throughout headquarters, the 
field, our labs, plants and sites. So this is one of my highest 
priorities and in fact in my confirmation hearing I made it as 
such.
    Mr. Simpson. Thank you. On another subject, the Fiscal Year 
2018 National Defense Authorization Act allows the Secretary of 
Energy to terminate the project MOX if DOE can provide a 
lifecycle cost estimate that shows cost of the alternative is 
50 percent of the cost of MOX.
    We were informed that the NNSA was preparing an interim 
cost estimate to certify that a cost estimate that meets the 
NDAA threshold exists but that you are also developing a more 
comprehensive life cycle cost estimate. What is the difference 
between the comprehensive life cycle cost estimate that is 
under development and the one that might be submitted for the 
NDAA waiver?
    Ms. Gordon-Hagerty. So, Mr. Chairman, first of all I wanted 
to thank Congressman Allen who took a trip with me recently 
down to the Savannah River Site. In my confirmation hearing I 
did commit to Senator Graham that I would visit the Savannah 
River Site and I did so within 10 days of my confirmation--of 
my swearing in. I found it to be a fascinating location. I 
happened to do my graduate school summer studies at Savannah 
River so I am familiar with the area and it was kind of like 
old home week for me.
    In that regard I did visit the MOX facility and I visited 
all of our other facilities and sites and operations within the 
NNSA most in particular the tritium facility and that is indeed 
a part of our enduring nuclear mission so that will be part of 
our enduring mission for the NNSA. Now I want to make sure that 
everybody understands that the tritium operations will continue 
at Savannah River Site.
    With regard to dilute and dispose the MOX facility, the MOX 
facility as I have mentioned is a very large facility and I 
believe I am confident by the information provided to me by the 
Federal project manager that the $5.4 billion we have spent to 
date is, it is notable because the plan for MOX was to be 
completed by 2016 at a cost of $4.5 billion. To date we have 
spent over $5.4 billion and I am confident in the information 
that my Federal project manager has given me that it is nowhere 
close to 50 percent complete.
    So in that regard, the administration and the Secretary of 
Energy and I are working to put together the planned path 
forward for the termination. We are still evaluating that but 
that request will be put forward shortly.
    With regard to the life cycle cost estimation in the past 
there were some parts of it that weren't necessarily provided 
in the interim if you will but, pardon me, we believe that as a 
result, the life cycle cost determination will include WIPP 
transportation, the other programs, let me make sure I get 
this, the transportation costs and we have coordinated this 
with EM, and we believe that we are confident that it will cost 
billions less. It will be faster, cheaper and we will be able 
to dispose of the 34 metric tons that we are required to do 
under the program.
    Mr. Simpson. Thanks for that explanation and let me for the 
record, we talked about this yesterday, but let me for the 
record just let everyone know that as I said with Secretary 
Perry, if someone can show me that something is going to cost 
50 percent less I am not going to jump and oppose it.
    The question we have is we need to make sure that this 
isn't an estimate done on the back of a napkin in a restaurant, 
that it is an actual cost estimate, that it is professionally 
done. That is why I am kind of, that is why we kind of question 
what is the difference between a comprehensive life cycle cost 
estimate and one that is the interim cost estimate and will the 
decision to move forward with the dilute and dispose as opposed 
to MOX be based on that interim cost estimate or the life cycle 
cost estimate?
    I would hope that it would be based on the thorough 
analysis of both of them, of what it costs. I would hope that 
they rebaseline, we have asked the department to rebaseline the 
cost of WIPP for I don't know, several years and so far they 
haven't done that.
    And I am not sure I trust anybody's estimate about what any 
of these costs are because if I go talk to the contractor it's 
70 percent complete. I go talk to the DOE, it's 10 percent 
complete. Now you said it is somewhere in the 50 percent range. 
I have no idea what the full cost of MOX is or would be if we 
continued down that road. So and as I said yesterday, I don't 
want to get--I don't want a future Chairman of this committee 
to 3 or 4 or 5 years from now be sitting here going OK, we 
stopped MOX, and we have switched to dilute and dispose. New 
Mexico has us by the neck because we need an additional land 
withdrawal or agreements with New Mexico and they want us to 
pave every road in New Mexico before they will agree to it.
    I don't want to be held hostage by that so I want it, if we 
are going to head down that road, I want it to be a sure thing 
that we are going to do that. And that is where I am coming 
from on this whole thing.
    Ms. Gordon-Hagerty. What I would like to do, Chairman, is, 
if it is appropriate, what I will do is I will go back, collect 
the additional information that you are requesting and I would 
be happy to come and brief you and your staffs as soon as 
possible. But I am confident that the path we are taking with 
the complete life cycle cost estimation will address all of 
those issues. And we believe MOX--and we believe that dilute 
and dispose methodology which is a proven methodology, we have 
already gotten rid of more than 5 metric tons of material 
mostly from Rocky Flats plant and other places around the 
community. So we know that the process works and we believe 
that that is far cheaper, faster, and the appropriate approach 
to take to relieve us of the 34 metric tons of plutonium. So I 
will be----
    Mr. Simpson. I will throw it out before I go to Marcy for 
her questions, but, you know, we could dispose of those with a 
faster reactor also which is something we don't have in this 
country and anybody that wants to use a faster reactor has to 
go to Russia or someplace else to use a fast reactor. You could 
burn the plutonium doing that. But that is just a thought. Ms. 
Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Admiral Caldwell, I wanted to ask you Congress has been 
interested in the prospect of using low enriched uranium for 
naval fuels and naval reactors has reported to us on this issue 
which we appreciate. Would this be an excellent opportunity to 
address a significant source of highly enriched uranium use and 
further our efforts to convert to low enriched uranium sources.
    If Congress appropriates funding for this purpose, will 
Naval Reactors carry out research and development efforts in 
this area?
    Admiral Caldwell. Thank you for the question, ma'am. In our 
reports to Congress, we have been pretty clear that the highly 
enriched uranium offers a significant military advantage over a 
low enriched uranium. Fundamentally, low enriched uranium means 
that you'd put a lot less energy in the core and therefore you 
would have to refuel the ships more frequently. It would take 
those ships off line, it would cost more money.
    The manufacturing process for low enriched uranium is very 
different from what we do today. The handling of components at 
end-of-life is very different. So there were, is a substantial 
change to what we are doing today and HEU has serviced well for 
over 60 years.
    What we have also said in our reports is that to develop an 
HE or a low enriched uranium core would take about 10 years, 10 
to 15 years and about a billion dollars. And then on top of 
that would take probably another several billion dollars just 
to deliver the manufacturing materials and all those things 
that I talked about previously.
    So our view is that HEU is the way to go. To get to an LEU 
capable core would require a step change in our design. It is a 
significant difference from what we are using today in our 
cores. That is why it takes so long and that is why it would 
cost so much. That said, if money was available for and 
targeted for LEU development, then naval reactors would 
continue our work on an advanced fuel system and we would move 
along that path. We are working on that as much as we can, a 
low, or an advanced fuel system, but that is many decades away 
right now, ma'am.
    Ms. Kaptur. Thank you. Madame Administrator, this budget 
request provides a significant increase as I said earlier of 10 
percent to defense accounts including staggeringly huge 
increase in Weapons accounts of 19 percent. This follows a 
similar budget request from Fiscal Year 2018 and all while not 
appropriating funding nonproliferation efforts additional 
funding there and paying for the increases in Weapons on back 
of Department of Defense non-defense accounts.
    Are these--with this significant increase in the Weapons 
accounts, how will NNSA structure itself to ensure the quality 
of its products and the safety of its workforces and honestly 
are these kinds of increases sustainable?
    Ms. Gordon-Hagerty. Thank you, Congresswoman Kaptur. I 
believe that they are. In the short time I have been the 
Administrator, I have seen a robust plan and path forward for 
not only this fiscal year, for future fiscal years and what it 
takes to ensure that we have a robust, reliable, and 
sustainable program for the 3 programs that we administer in 
the NSSA.
    More importantly, we require sustained and reliable and 
long term appropriations in order to execute the missions under 
which we are undertaking at present. That includes the 3 LEPs 
and the one major alteration and it also, I want to make note 
of the fact that the defense programs budget actually provides 
us with that critical foundation upon which we can build our 
nuclear counterterrorism, our nonproliferation and our 
counterproliferation programs. Because they utilize the 
capabilities that are at our national laboratories, our plants, 
and our sites.
    So without the foundations of the defense programs 
activities, we would not be able to have the technical 
expertise resident under our national labs, plants and sites. 
And so we utilize the strength of that relationship between our 
NA-10 defense programs activities and our NA-20 defense nuclear 
nonproliferation as well as our counterterrorism and 
counterproliferation programs.
    I would ask respectfully if I can offer the floor to Mr. 
Calbos who is the Deputy Administrator--the Acting Deputy 
Administrator for Defense Programs and he can enlighten you on 
some additional facts if you, if that is acceptable.
    Ms. Kaptur. Please.
    Ms. Gordon-Hagerty. Thank you.
    Mr. Calbos. Thank you for the question, ma'am. You are 
correct, you know, that there is a significant increase in the 
funding over the last couple years but if you look at the 
history of what is now the NNSA portfolio, there was a period 
from about 1990 to about 2010 where frankly the nation had 
diverted its attention from the nuclear deterrent. We are 
making up ground now.
    The increases are about the weapons that we are putting 
back out onto the force but also about the core capability of 
the enterprise and by that I mean the bricks and mortar 
infrastructure, the science-based stock pile stewardship tools 
that we need for the lab directors to assess the stockpile on 
an annual basis. And also the people that we need in the 
enterprise to take care of all the efforts we have underway.
    So as you look at any given year, you are correct that 
there are significant increases but as you widen the aperture 
and you look across say the last 25 years, there was a period 
where there was a downturn in funding and we are now having to 
make up ground for that.
    Ms. Kaptur. How will you structure your expenditures in 
order to spend these dollars in a manner that are responsible? 
I mean, for any business a 19 percent increase is pretty 
significant in a given year.
    Mr. Calbos. Well, as we move forward with each one of these 
efforts, we are, you know, ramping up the staffing across the 
enterprise and again not only in the Federal space----
    Ms. Kaptur. How difficult is that?
    Mr. Calbos. I am sorry.
    Ms. Kaptur. How difficult is that?
    Mr. Calbos. We have achieved what we needed to at this 
point. The difficulty actually right now is not in finding the 
qualified folks, it is getting them cleared and on board in 
time so that they can actually participate in the, you know, 
work that is needed to, you know, say perform the work on a 
lifetime extension program. That is one of the big hurdles 
right now.
    Ms. Kaptur. OK. Mr. Chairman, in this first round I am just 
going to ask the Administrator for a yes or no answer on the 
following. The administration's 2018 Nuclear Posture Review was 
released early last month after a nearly final draft had been 
leaked weeks before yet there is remarkably little detail from 
the NNSA on how it might be implementing the additional nuclear 
weapons capabilities that the NPR calls for.
    Can you commit to this subcommittee that we will be fully 
briefed on NNSA's plans regarding the NPR starting with the 
fiscal year 2018 budget and beyond?
    Ms. Gordon-Hagerty. Yes.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. Secretary Gordon-
Hagerty, Mr. Calbos, Mr. Huizenga, Admiral Caldwell, thank you 
for being here today and thank you for your service. The 
Chairman mentioned something about designing things on the back 
of a cocktail napkin and it kind of brought back a memory about 
the iconic aircraft designer Kelly Johnson who legend goes was 
in a bar in El Segundo and with a couple of his colleagues, and 
sat down because the Japanese had a superior aircraft at the 
time and designed the P38 on the back of some cocktail napkins 
and 9 months later it came across the assembly line. 9 months. 
Why? Because we had to. We had to win. And that is kind of 
symbolic of the nuclear weapons program.
    We started the Manhattan Project and in a very quick period 
of time we developed a nuclear weapon relative to our 
adversaries. Why? Because we had to and we had to win the war. 
But we left obviously some problems behind because we weren't 
concerned then about as much as we probably should have been 
about the environmental damage and the problems we are having 
today.
    So when we are talking about maintaining a safe, secure, 
effective and reliable nuclear stockpile, it requires modern 
facilities, technical expertise, tools to repair any 
malfunctions quickly, safely, and obviously securely. Over half 
of your infrastructure is over 40 years old and a quarter of it 
goes back to the days that I was mentioning, the days over the 
Manhattan Project for World War II. It requires constant 
upgrades, I have seen some of it. It is in pretty bad shape.
    Obviously the safety of your employees is at risk. Handling 
of weapons is at risk and to secure the weapon themselves. And 
there has been a concerning reports about the state of the 
nuclear stockpile itself. Some issues include the buildings 
where the nuclear weapons are housed, they are too rusty to 
even seal the doors shut. Uranium security complex, the roofs 
are collapsing. A shortage of specialized tools for these aging 
systems and the principle information technology used to 
operate and launch the ICBMs is on an 8 inch floppy disc. Now I 
kind of remember the 8 inch floppy. You and I probably do, 
Mike, and we kind of, we are about the same age. But probably 
the only place on the planet that is using an 8 inch floppy 
disc is from the 1960s. Maybe it is a good security protocol, I 
guess you can't hack into it, that is maybe a good thing.
    I know some are concerned about the trillion dollar price 
tag, as we all are, of the current nuclear modernization plan. 
I am more concerned about the safety issues and the enormous 
price tag associated with maintaining these aging systems and 
our aging deterrents.
    Can you share with the committee the cost of doing nothing 
versus the cost of the next generation of nuclear 
infrastructure and obviously the redesign of our nuclear weapon 
systems?
    Ms. Gordon-Hagerty. Congressman Calvert, I agree 
wholeheartedly with the statements that you have made and, in 
fact, the NPR said it best. We have fallen far short in our 
responsibilities to ensure that we maintain an infrastructure 
that is robust and resilient to meet 21st century threats. And 
we have done a poor job of ensuring that the capabilities that 
are required in order for our best and brightest to maintain a 
robust nuclear weapons stockpile is absolutely critical and we 
have not done a good job. However, we believe we are on a 
strong path forward to ensure a resilient and robust stockpile 
with all the ancillary activities associated with it.
    As long as we are assured a sustained funding stream, we 
believe we will get to that. This is not something we can do 
overnight. It will take decades to modernize our infrastructure 
but it is critical that we do so now. Insofar as that as 
concerned, that is what is necessary to ensure that our 
scientists, engineers, technicians, laboratory and plant 
specialists can work in a safe environment. And to provide them 
with anything less is not appropriate. So I assure you that the 
plan that we have and the path forward we have will be what is 
necessary to maintain the nuclear deterrent for our United 
States, our allies and our partners.
    And to your point about doing nothing, we are at a point 
where we have no more margin for error or for doing nothing. We 
must take on and undertake this program for infrastructure 
modernization now. And with that, it is not just about the 
buildings. It is not as Mr. Calbos has said, the brick and 
mortar. It is about ensuring that we maintain the best and the 
brightest, be sure that we can for the next generation of 
scientists, engineers, technicians, laboratory support, 
administrative support across the board, that we have those 
personnel that want to somehow provide a capability to ensure 
our nuclear safety, nuclear security for our United States.
    So to me, it is imperative that we work with Congress, with 
our stakeholders to assure that we can do everything we can to 
ensure a modern, robust, and resilient nuclear weapons 
stockpile. And in order to do so, we need to make sure that our 
infrastructure throughout the nuclear security enterprise is 
second to none.
    Mr. Calvert. Thank you. Thank you for that answer. I just, 
as you know, you probably have the one job you cannot make any 
mistakes, it has to be perfect.
    Ms. Gordon-Hagerty. Yes, sir.
    Mr. Calvert. Because in your job, things go boom, they 
really go boom. Good luck, thank you.
    Ms. Gordon-Hagerty. Thank you.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. To this 
distinguished panel, I want to say thank you so much. Dave, it 
is good to see you, I think I met you my first week in 
Congress. Phil, it is a pleasure. Admiral, I want to thank you 
on a personal note of privilege for you coming to my office and 
articulating in a very strong and comprehensive way where we 
are and where you want our great nuclear Navy to go. For me, I 
want to say that I agree with your assessment and your vision. 
I want to thank the men and women of our great United States 
Navy and we will support you. I will certainly work to support 
you with the funds needed to complete your mission, sir. 
Director Hagerty, thank you and congratulations. As Chairman 
Calvert just articulated, the margin for error in this sphere 
is zero.
    I represent Oak Ridge, Tennessee, birthplace of the 
Manhattan Project. Right now, we are under construction with 
the Uranium Processing Facility. I will say the men and women 
who have worked so hard at Y-12 have done a tremendous job 
under very adverse and older conditions. But UPF is now going 
well. It has been redesigned, buildings are up, NNSA has done a 
great job, our contractor has done a great job on site and I 
thank you for all of that.
    I have a few questions. The Uranium Processing Facility 
project at Y-12 is a critical component of the NNSA strategy 
for modernizing the nuclear weapons complex and for continuing 
to meet the needs of our nuclear Navy. NNSA is committed to 
complete the UPF project by 2025 for costs not exceeding $6.5 
billion. The administration has requested $703 million for UPF 
for fiscal year 2019. My first question, could you briefly 
describe whether your request configured in the President's 
budget and the funding profile of the next few years are 
adequate to complete the work that needs to be done to advance 
UPF toward a successful completion by 2025 as NNSA has 
committed.
    Ms. Gordon-Hagerty. Thank you, Congressman Fleischmann. Let 
me assure you that with reliable and sustained funding, our 
intent is to, and I am confident to say that we will complete 
UPF within the budget which is $6.5 billion and by the end of 
2025. So I always want to make sure that we capture all of 2025 
and that it is not on January 1st. We have through the end of 
2025. I am confident that with reliable and sustained funding, 
we can get to that effort.
    As I mentioned in my opening comments, we have just 
completed two sub-projects and we completed them two months 
ahead of schedule and $18 million under budget. So I think that 
is a welcome sign about the good work that we are doing at the 
field office as well as our contractor and support staff. I 
agree with you and I look forward to my first visit to Y-12.
    May I also ask if Mr. Calbos has anything else he would 
like to respond with regard to UPF, thank you.
    Mr. Calbos. Thank you. The only thing I would add to the 
Administrator's comment is that the success we are having in 
the uranium space at Y-12 is the result of a methodical process 
that we have instituted over the last several years. There are 
some folks that will note that we take a bit of time to get 
from idea to actual breaking ground, or in this case, pouring 
concrete. But we have gotten there through a very methodical, 
rigorous process that includes other parts of the Department of 
Energy and we have learned from past efforts and we are 
applying those lessons that we have applied to UPF to other 
parts of our portfolio. So there is a lot of goodness there.
    Mr. Fleischmann. Thank you, sir. The NNSA has established 
domestic uranium enrichment as one of its strategic material 
programs. Redeveloping a domestic uranium enrichment capability 
is critically important to our national security. Also of 
critical importance is to ensure that current uranium 
enrichment workforce, skill and supply chain quality do not 
atrophy unnecessarily. Could you please describe the steps that 
NNSA is taking to ensure both that the nation's future enriched 
uranium needs are met and that the current capabilities of the 
industry in this country does not continue to erode?
    Ms. Gordon-Hagerty. We concur that we must reestablish a 
domestic uranium enrichment capability. We need to do so for 
our long term tritium requirements. We believe that the planned 
path forward, assuming that it is fully funded, will provide us 
with the tritium needs necessary for our nuclear weapons 
stockpile requirements as a critical, strategic material, will 
provide us with that necessary capability through approximately 
2040. However, as you may be aware, we have two centrifuge 
technologies under which we are considering at the present 
time. One is in more of a nascent stage right now, so we are 
developing the R&D on that. But yes, we are providing resources 
to ensure that we can look at the two different centrifuge 
technologies and make a determination. Mr. Calbos might have 
some more to add, if I may.
    Mr. Calbos. Sir, I want to take an opportunity to clarify 
something that is often reported. That our strategy, as the 
administrator said, there is a two prong strategy. One is we 
are going to down blend uranium so that we can bridge to our 
own domestic production capability. There have been reports 
that we are down blending HEU that is reserved for Naval 
reactors and that is not correct. We are not using anything 
that is set aside for naval reactors, and I think sir, you are 
good until 2060, based on current fleet size and everything.
    But in the more near term, the first requirement that we 
need to address is the tritium for the weapons. We have a two 
pronged approach. One is down blend some highly enriched 
uranium that we have identified at the Y-12 complex. And then 
going forward, it gets to what Ms. Gordon-Hagerty said about 
developing our own domestic enrichment capability in the United 
States.
    Mr. Fleischmann. Thank you. And I would like to note for 
the record, my strong support for a domestic uranium enrichment 
program to move forward in addition to the down blend. The down 
blend is a short-term or mid-term solution but I think we need 
to address that as a nation. Mr. Chairman, I will yield back.
    Mr. Simpson. Thank you. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Madame 
Administrator, in your written responses to the Senate Armed 
Services Committee during your confirmation process, you wrote 
that, eliminating nuclear weapons is a long-term goal and that 
the United States ``now faces a more diverse and unstable 
geopolitical environment than ever before''. I take it that you 
mean that the more diverse and unstable the geopolitical 
environment, the longer it is going to take us to reduce or 
eliminate nuclear weapons.
    But given that the President has agreed to meet with the 
most significant driver of instability in our geopolitical 
environment with no conditions or questions asked, I would like 
to know from your perspective, what steps the Trump 
administration is taking to actually stabilize the geopolitical 
environment, both in terms of improving our national security 
in the short term and working toward eliminating nuclear 
weapons in the long term. It seems to me that there is a reason 
that previous Presidents were hesitant to just sit down and 
agree to a meeting with one of the most dangerous despots in 
the world without any preconditions and that perhaps does not 
meet the description that you underscored as important in 
making sure that we have a more stable geopolitical 
environment.
    Ms. Gordon-Hagerty. Thank you, Congresswoman Wasserman 
Schultz. I cannot speak to the President's direction other than 
the position that he has taken, I would defer to the White 
House or to State Department from a diplomatic standpoint. 
However, to my point about long-term strategy where I believe 
the entire world will be better off without nuclear weapons, I 
will be the first person to say that. But as long as we are in 
an unstable environment, we must ensure a credible nuclear 
deterrent and that is exactly what the NNSA is here to do. And 
as far as NNSA is concerned, we work with the Nuclear Weapons 
Council with our counterparts in the Department of Defense to 
develop the requirements and from there, we will execute the 
strategies as such.
    One of our long-term goals is, of course, and I do not 
think it has ever come off the table, I can say confidently, 
that if there is a time at which we can pursue an opportunity 
to rid the world of nuclear weapons, you would find me standing 
at the front of the line and that is what I would welcome the 
opportunity to do. However, because of the situation which we 
find ourselves, we need to have a safe, secure, and robust 
reliable nuclear weapons stockpile for the safety, security of 
our nation, our allies, and our partners.
    Ms. Wasserman Schultz. I can appreciate what you are saying 
but you literally have nuclear nonproliferation in your title.
    Ms. Gordon-Hagerty. Correct.
    Ms. Wasserman Schultz. So presumably, your main 
responsibility, I mean our posture right now, remains, has 
been, should be, achieving the goal of nuclear 
nonproliferation. Again, I assume also that you and your team 
offer advice and guidance given your expertise, to the White 
House, about how to make the geopolitical environment more 
stable. So while I can appreciate that the decisions about who 
the President meets with are made at the White House, do you or 
any of your team of experts weigh in with the White House on 
decisions like whether the President is going to agree to a 
meeting like this with no preconditions whatsoever?
    Ms. Gordon-Hagerty. To the extent to making that 
information known about meeting with no preconditions, I do not 
believe we were involved in that decision making process. 
However, you rightly state that part of my mission and my 
responsibility is nuclear nonproliferation counterproliferation 
and counterterrorism. And we have a very robust program in arms 
control and other efforts. If I may, Dave Huizenga is my 
Principal Deputy Associate Administrator for nuclear 
nonproliferation and perhaps he can give you some ideas and 
examples about how we conduct our nonproliferation efforts. 
Believe me, part and parcel we are involved in interagency 
discussions, we provide the technical expertise in nuclear 
nonproliferation across the government.
    Ms. Wasserman Schultz. I am running a little bit low on 
time and I do want to hear from him but I want to ask my other 
question because he can probably help answer it as well. There 
has been so much focus on the Nuclear Posture Review and the 
President has emphasized repeatedly that we need to modernize 
and we need to nuke up and I agree that there needs to be a 
balance struck between nonproliferation and making sure that we 
have a modern, robust program. But that modern robust program 
is taking cuts. So while I recognize that the administration 
has not yet started to significantly cut nonproliferation 
programs to pay for weapons, can you assure me here today that 
we are not going to move in that direction and that the NNSA 
will continue to invest in these vital nonproliferation 
programs, regardless of this administration's insistence on 
expanding the nation's nuclear arsenal?
    Ms. Gordon-Hagerty. Yes, I can. And, in fact, this year's 
budget, our 2019 budget request is 3.9 percent increase from 
our 2018 request. So yes we are and we have a robust 
nonproliferation program and I hope that you will be able to 
see some of the results of that. Like I said, we are at front 
and center with the IAEA, with State Department and with our 
interagency colleagues in terms of nuclear nonproliferation 
initiatives.
    Ms. Wasserman Schultz. Mr. Chairman, is it OK if we hear 
from Mr. Huizenga?
    Mr. Simpson. Go ahead.
    Mr. Huizenga. Thank you. I think we have heard here the 
importance of maintaining the stockpile. But also I think what 
we are hearing from both the Congress and the Administrator is 
there is also an important element to the deterrence. That is 
making sure the other people, our adversaries do not get ahold 
of nuclear materials to create nuclear weapons and that we 
verify that they are abiding by treaties that are in place. I 
can assure you that there has been no change in the ability of 
our program to influence these issues. We have direct access to 
the highest levels of the National Security Council members and 
we play a very, very vital role in supporting those activities.
    Ms. Wasserman Schultz. The concern is obviously granting a 
meeting given the credibility of the meeting with the leader of 
the free world to a despot like Kim Jong Un with no 
preconditions at all. And not ensuring that there are steps he 
has to take to warrant being given that type of a platform an 
opportunity.
    Mr. Huizenga. Yes, I recognize that, but there are indeed 
ongoing discussions now to try to make sure that we are well 
positioned.
    Ms. Wasserman Schultz. One can only hope. Thank you for 
your indulgence, Mr. Chairman. I yield back.
    Mr. Simpson. Mr. Newhouse.
    Mr. Newhouse. Thank you very much, Mr. Chairman and welcome 
to the panel this morning. I appreciate you being here. 
Congratulations, Ms. Gordon-Hagerty, on your appointment and 
your confirmation. Reading through your biography, it seems 
like you are uniquely qualified for the position and I look 
forward to working with you. You had your beginnings at 
Lawrence Livermore, is that correct?
    Ms. Gordon-Hagerty. That's correct.
    Mr. Newhouse. And even as a professional staff assistant at 
Energy and Commerce, I understand. So that should be a source 
of inspiration for a lot of people in this room. But also many 
other important positions within important activities of the 
government related to defense so welcome. You have been on the 
job for almost a month so you probably are aware of some of the 
things that are going on that are under your purview. I 
represent the many skilled men and women, the scientists at the 
Pacific Northwest National Laboratory who are very engaged, 
conduct a great amount of work and research and development in 
support of your efforts. I think, as a matter of fact, they do 
more to support the mission of the NNSA than any other lab in 
the country. So that is a source of pride for me but also a 
very important role that they fill.
    My first question, I guess, from kind of a higher altitude 
perspective. Could you share with the committee, your vision 
for the nuclear nonproliferation programs in the coming years?
    Ms. Gordon-Hagerty. Thank you, Congressman. Yes, first of 
all, as I had mentioned before, obviously we have three very 
important missions and they are equally important to me. The 
safe, secure, reliable nuclear weapons stockpile, a robust 
nonproliferation, counterproliferation, counterterrorism 
program as well as supporting our nuclear propulsion in our 
fleet for the Navy. So those are equal and important missions. 
I cannot understate the importance that I place on all of those 
missions.
    In terms of nuclear nonproliferation, it is an important 
mechanism by which we can attract, lure, and otherwise avoid 
nation states or others from finding the development or the 
ultimate execution of building a nuclear weapon or nuclear 
device. So we are doing everything we possibly can and I 
guarantee you, I promise you that I will make this one of my 
highest priorities. I have worked closely with Mr. Huizenga in 
the past and we continue to work together today. My door is 
always open and we have already started to undertake some new 
efforts, some improved efforts in the nuclear nonproliferation 
area. Most notably, we have been working on National Security 
Council staff matters so that we take it to the highest levels 
of government. And we are in the middle of all nuclear 
nonproliferation technical efforts. So what I would like to do 
also is if Dave can describe, Mr. Huizenga, if you will allow 
him to describe some of our most recent accomplishments and 
what we plan on for fiscal year 2019 in the areas of nuclear 
nonproliferation. But I assure you, it will be one of my top 
priorities.
    Mr. Newhouse. Absolutely, please.
    Ms. Gordon-Hagerty. Thank you.
    Mr. Huizenga. Thank you, Administrator. Yeah, you are 
right. We actually--the Nonproliferation Office uses the 
Pacific Northwest Laboratory folks extensively in our 
cooperation and we appreciate their capabilities. We have used 
them for years on border security efforts and that was the key 
effort in stopping smuggling of nuclear materials and 
radiological materials worldwide. So we have a very robust 
program that uses not just the PNNL folks, but the draws on the 
laboratories in general to make sure that we either secure 
material and help other countries secure the material in place 
or move it and make it--consolidate it in more secure locations 
if possible and to stop smugglers and to also make sure that we 
are ensuring verification, as I mentioned, verification of 
existing treaties.
    Mr. Newhouse. Well, certainly in this day and age is just 
some very important work, some of most important work that we 
do in a defensive strategy. And like I said, I look forward to 
working with you as you engage in your new role and make sure 
that we can accomplish those goals as efficiently and quickly 
as we can. Thank you very much for being here and I yield back, 
Mr. Chairman.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. Secretary 
Hagerty, congratulations as well on your new position and, 
Admiral, thank you as well and the rest of you for coming 
today. The conversation has taken a decided turn toward 
nonproliferation and I want to focus there, as well. Chairman 
Calvert said it, I think, very responsibly that you perhaps 
have one of the most important jobs in the government. If this 
goes wrong, everything else we are trying to do does not 
matter. When I was a much younger man, it was 1979, I was 
actually in the country of Egypt and long story, but I ran into 
someone who had been a World War II Veteran; I believe he was 
from Australia. And he told me that he was one of the first 
troops into Nagasaki, as I recall. And I just being a young 
person said, ``Oh my goodness, that must have been absolutely 
fascinating. What did you see?'' And he began to cry.
    This whole dynamic of trying to create a 21st century 
architecture for diplomacy, for proper military strategy for 
our own defense, in light of an ever-changing world where the 
technology, so to speak, in this arena is out of the bottle, 
demands command that we perhaps elevate the focus and our 
intentions around this area that none of us can really seem to 
get our mind around. The possibility of one of these things 
exploding is a game-changer for civilization itself. Now, in 
this regard, we are doing the same things that we are doing. 
You have made some really--we are doing the same things that we 
are doing. Maybe they are robust enough, maybe they are not. 
What I do not want to see is that we have a problem with 
imagination. There is an interagency effort that has gone on 
previously. I would like my question specifically to you all 
is, what is the status of that? You are the primary carrier of 
nonproliferation mission and legislative intent, along with 
DTRA and Defense, as well as some cooperation, I assume, from 
the NSC, maybe some from Treasury and State, as well as State.
    But again, in my mind, at least, this interagency 
taskforce, we are in interagency dialogue that is absolutely 
necessary and critical to make sure that we are thinking 
correctly and continuing to move the mission from just securing 
and safety of nuclear technology to one of verification and 
reduction of threats, particularly along the lines of securing 
loose material, but also loose technology that is out. So 
respond to this, please. The leadership for this purpose, I 
think, has to come from you and right here, as well.
    Ms. Gordon-Hagerty. Thank you and I agree wholeheartedly 
with your statement. We have undertaken a robust interagency 
process that I have seen in the few weeks that I have been on 
the job. We have looked at things, cyber security, we have 
looked at other elements that touch across the elements that 
you have described. I would also like to bring to your 
attention that in the Nuclear Posture Review, the 
organizations--of course, it was before my tenure--but the 
State Department, the Department of Defense, and Department of 
Energy played equal roles in developing the nuclear posture 
review and there is an entire section devoted to 
nonproliferation, counterproliferation, counterterrorism 
measures. And so that will lay the strategy, if you will, or at 
least part of the strategy, I think, to get to where you think 
we need to be and rightfully so. That strategy will then 
provide us with a framework, if you will, or requirements that 
we can then use as an outline for moving forward. But exactly 
some materials, methods, equipment, information that we can 
find on the internet, all of those play a role in potential 
nuclear terrorism and the ultimate goal.
    Mr. Fortenberry. So that section of the Nuclear Posture 
Review, was that written in coordination with this interagency 
taskforce, did that fall primarily to your agency? Who was the 
coordinator of that section?
    Ms. Gordon-Hagerty. Well, actually, I can turn to Mr. 
Huizenga, who was actually part and parcel of that group and, I 
believe, even led the process.
    Mr. Huizenga. Yeah, we played a very extensive role in 
shaping that chapter. That was extremely important from the 
very get-go. We wanted to make sure we recognize it was not 
just----
    Mr. Fortenberry. Right. Let us look at the conclusions very 
quick. I am sorry to cut you off. Our time is just very short. 
So, again, back to this idea of architecture. Are the main 
accounts for nonproliferation the proper structure, the proper 
framework for addressing the series of threats that are out 
there or are we lacking imaginative possibilities here?
    Mr. Huizenga. I have not seen any lack of imagination or 
change in posture----
    Mr. Fortenberry. OK, let me go back to this. Is this 
interagency taskforce, is there leadership to it, is there a 
timeline in which it's scheduled to continue to meet, or does 
that just become information that sits in various agencies? We 
have a fragmentation problem across government, we have a 
fragmentation problem--everybody's life has a fragmentation 
problem. But if one of these goes off, we just cannot afford 
the possibility.
    Mr. Huizenga. We are developing very specific plans that 
are based on, you know, stopping smuggling, securing material, 
verifying treaty obligations, so each one of these major 
elements of our export control, you mentioned that as well, you 
know, to developing technologies; each one of these has a 
specific plan and we are developing and marching through it, 
so.
    Mr. Fortenberry. Are you shepherding this? Are you the 
leading person in the Government?
    Mr. Huizenga. I am not personally shepherding it.
    Mr. Fortenberry Who is?
    Mr. Huizenga It is being run out of the White House, so the 
close coordination with State Department and Defense Department 
and DOE.
    Mr. Fortenberry. So the National Security Council would be 
the primary coordinator of the interagency dialogue? Is there a 
timeline for further considerations here?
    Mr. Huizenga. Yes. There is continued pressure to make sure 
that we are staying on top of this.
    Mr. Fortenberry. So there is no timeline; I think that is 
what you are saying, something--this kind of goes to the point. 
This is so serious that I think I am not countering what you 
are saying; I am just trying to elevate the seriousness of this 
as a core key mission. Because--and look, I represent strategic 
command. We are the command; we are the nerve center for our 
nuclear policies and weapons systems. And as well, the idea 
that we have nuclear weapons for our own defense, as well as 
nonproliferation purposes seems contradictive, but it is not, 
back to your earlier point. In the meanwhile, we have got to 
keep ourselves safe, but as we work toward the possibility of 
eliminating all of these things from the world. Now, but unless 
we are equating that secondary or primary mission with the 
first as well, and it tends to drift, I do not think we will 
get there. Because it is easier to build things.
    Mr. Huizenga. Yeah, I just want to emphasize, there is no 
lack of pressure. I feel the pressure in----
    Mr. Fortenberry. From whom? The White House?
    Mr. Huizenga. From--the whole interagency recognizes the 
importance of this effort.
    Mr. Fortenberry. OK, it is a comment. I just need some more 
specifics in this----
    Mr. Huizenga. Yeah.
    Mr. Fortenberry [continuing]. Regard.
    Mr. Huizenga. So I guess the reason I am not----
    Mr. Fortenberry. I mean, it is a better conversation 
offline and we have--I think we are going to probably have some 
opportunity to do that, but specifics would help.
    Mr. Huizenga. OK.
    Mr. Fortenberry. Thank you.
    Mr. Simpson. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman, Administrator Gordon 
Hagerty. Thank you very much for being here today. My question 
pertains to strategic and critical material beryllium? As you 
know, beryllium is the only substance available for certain 
U.S. strategic weapon systems. There was language in the report 
accompanying the fiscal year 2018 House Defense Appropriations 
Bill speaking to the importance of a secure supply of beryllium 
to ensure the reliability review as nuclear stockpile. The 
language occurs encourages the NNSA to investigate the 
feasibility of developing a new and efficient contractor-
operated beryllium and beryllium oxide production capability to 
more efficiently and affordably meet your agency's needs. As 
NNSA goes through a major modernization effort, does the agency 
plan to upgrade and secure its beryllium supply?
    Ms. Gordon-Hagerty. Congressman Joyce, we are actually 
undertaking that feasibility study right now for our future 
beryllium needs. And beryllium is one of our strategic 
materials. And so, yes, we are absolutely doing that. We will 
determine whether or not under that feasibility study what kind 
of requirements we will have for the foreseeable future for 
beryllium.
    Mr. Joyce. Fantastic. In doing so, is there a role for 
private industry to play in this process?
    Ms. Gordon-Hagerty. Absolutely. If there are ways of 
doing--in fact, we are looking at different opportunities where 
there can be public private partnerships. Obviously, the 
sanctity of the material, the issues associated with that when 
they are ultimately going to be used in our nuclear stockpile 
is our biggest concern. Security clearances and other issues 
have the security around the program, trusted materials, so on 
and so forth. But absolutely, we would welcome the opportunity 
to engage with private partners that potentially could provide 
us with the necessary materials that meet the needs of our 
strategic materials initiatives.
    Mr. Joyce. Oh, thank you. You know, and I apologize for 
being late. I have another hearing down the hall. I understand 
that there had been some discussion you had already discussed 
the cyber threats or potential for what you are doing to gear 
up for cyber threats in your industry.
    Ms. Gordon-Hagerty. Cyber threats are certainly a concern 
of ours, whether the system is, you know, and we have a robust 
program that we are undertaking right now throughout the 
Department of Energy, not just within NNSA. Because obviously, 
our infrastructure and our enterprise requires a resilient 
cyber security program. And we do have that and I would be 
pleased to come back and brief you specifically about our cyber 
security strategies.
    Mr. Joyce. That would be fantastic.
    Ms. Gordon-Hagerty. Thank you.
    Mr. Joyce. And I know that the time is running, so thank 
you very much for allowing me this time, Mr. Chairman.
    Mr. Simpson. Yeah. Mr. Aguilar.
    Mr. Aguilar. Thanks, Mr. Chairman. Congratulations, Madam 
Administrator. Thanks for being here. I appreciate my 
colleague, Mr. Newhouse, noting that you had some California 
roots, as well. That is a strong step for him to compliment 
someone who had some time in California.
    The Nuclear Posture Review, as you mentioned, sets numerous 
priorities for NNSA in support of our enterprise. These include 
accelerating work on some life extension programs, ensuring 
robust surveillance programs and reducing the backlog and 
deferred maintenance at facilities. The fiscal year 2019 budget 
provides additional funding for these priorities, which is 
commendable. Do you believe the increase for fiscal year 2019 
is sufficient to meet the growing demand for these resources 
and how do we sustain this level of funding in future years?
    Ms. Gordon-Hagerty. Thank you very much and I agree 
wholeheartedly with your statement that that is exactly what 
needs to be done. We do have a robust plan and a path forward 
to maintain the three--to keep on budget and within--on 
schedule the three major LEPs we are undertaking at present, as 
well as our one major alt and refresh, which is the W88 alt 370 
CHE refresh. It is important that we receive sustained and 
reliable funding from the Congress in order to ensure that we 
can continue to maintain the requirements set forth by the 
Department of Defense through the Nuclear Weapons Council, 
which I am a member. And this will set our path forward to 
ensure a reliable and robust nuclear deterrent. But it is 
really dependent on working closely with Congress to ensure 
that the requirements needed to modernize our infrastructure 
and maintain the capabilities to ensure our long-term 
strategies are undertaken. So, Mr. Calbos, do you have anything 
to add to that, if I may?
    Mr. Calbos. Of course.
    Ms. Gordon-Hagerty. Thank you.
    Mr. Calbos. Sir, I appreciate the question. One of the 
things that we have talked about since we rolled out the NPR is 
what it represents. And while there is understandably a lot of 
attention that--that is focused on the new initiatives, the low 
yield ballistic missile and the sea launch cruise missile, you 
know, first and foremost, the NPR represents continuity with 
the program that we have had underway for about three to five 
years. And that includes the infrastructure improvements, 
taking care of deferred maintenance and all that.
    So you are absolutely correct that we need to maintain 
support for those programs. There is a little bit of, you know, 
a tendency to focus on those, on the new initiatives. But first 
and foremost, we need to get right what we have already been 
working on and make sure that the enterprise is positioned to 
support the stockpile for decades to come. This is not a short-
term thing. So it is up to us, frankly, to make sure that, you 
know, we receive the support we need by giving Congress what it 
needs to make, you know, the right decisions with respect to 
appropriations.
    Mr. Aguilar. What challenges will we face as we expand 
these programs and accelerate some?
    Mr. Calbos. You know, it is stable, consistent funding. And 
again, this is not a one, two, three-year effort. It took us a 
while to reach the point we are and with respect to the 
enterprise and it will take us a while to get it back on secure 
footing for the next, you know, several decades and, you know. 
Technically, we have the workforce that can do it. You know, we 
are beefing up the enterprise so that it can conduct the work 
that it needs to do, but we need sustained funding for many 
years.
    Mr. Aguilar. In these walls, sometimes we pat ourselves on 
the back for one and two-year budget deals, so that can be a 
challenge. As we move forward, you know, how do we find cost 
savings that can help offset some of this activity?
    Mr. Calbos. Certainly, there are opportunities out there. 
You know, it is always a bit of a Catch-22 that, you know, if 
you have the time and the effort and you get support, you know, 
I will use deferred maintenance as an example. You know, right 
now we put money into deferred maintenance and into patching 
rooves for facilities that are not in the long-term plan. But 
we do that because if we do not, we have got an environmental 
issue or a safety issue. In a perfect world, we would condemn 
those buildings, you know, take them down, and build a new 
facility. In the long run there is cost savings there, but when 
you are looking at it in a one-year time horizon, it is cheaper 
just to put a new roof on something.
    Mr. Aguilar. Cost avoidance is something that government 
does not do a very good job at in general. As a former mayor, 
we saw that as well. So it is tough and I appreciate--I think 
it is commendable, the deferred maintenance money that is--that 
you have identified. I think that that is helpful. Thank you, 
Mr. Chairman.
    Mr. Simpson. Thank you. Interesting discussion. I, you 
know, I agree with you. It would be nice to live in a world 
that did not have nuclear weapons, but I think we are--that 
technology has already been developed and I do not know how you 
are going to get--ever get rid of them or the ability. And it 
kind of leads me to--I support the nonproliferation programs 
that we have. I think we got to do everything we can to stop 
that. But it is almost--and this is just myself speaking--like 
I said, a losing game in the long run with the technologies 
that is out there, that if a country wants to become a nuclear 
power, they have the ability to do it. And the only thing that 
we can do is to try to make it in their best interest not to, 
somehow.
    But at some point in time, I guess, Kim Jong Un decided 
that it was in his best interest to. It is a perplexing 
problem. I do not look forward to doing your job, but they--
that is a--it is a tough one, trying to stop the proliferation 
of this nuclear material and a nation's ability to develop 
nuclear weapons. And they often surprise--India surprised us. 
We did not know they were developing one and all of a sudden, 
they were there. It is a challenge, but--Admiral Caldwell.
    The Spent Fuel Recapitalization project has been carried 
out, at the Naval Reactors facility in Idaho it is estimated to 
cost $1.6 billion. Do you have a cost and schedule baseline for 
the project and do you foresee any difficulties in delivering 
this project within its current projected cross and what are 
the biggest risks of the rising cost and when is this project 
supposed to be completely--or be completed and what do the 
Navy's--to support the Navy's plans and what are the 
implications if there are delays in this?
    Admiral Caldwell. Thanks for the question, sir. We are on 
pace to deliver the Spent Fuel Handling facility on schedule. 
The initial operating capability would be in 2024 and the full 
operational capability in 2025. As you know, sir, this is vital 
to the Navy because it allows us to continue to refuel aircraft 
carriers and refuel SSBNs, ballistic missiles submarines, and 
it also allows us to inactivate and take the fuel out of the 
retiring 688 Los Angeles-class submarine. So it is very, very 
important to us. If there were delays, then we would have to 
purchase additional containers to store that fuel so that we 
could continue the battle rhythm of refueling and defueling 
that I just described. The delay of one year would cost about 
$150 million to buy additional containers and we do not want to 
do that.
    Fortunately, thanks to the support of this subcommittee, we 
have been able to stay on schedule and avoid additional cost 
growth. The budget submission for this year allows us to 
continue the site preparations, to start vetting some 
contracts, $32 million worth of contracts this year. It allows 
us to continue the design of the equipment that will go into 
the facility. It allows us to continue the--to the final design 
of the facility. And it allows us to complete site preparations 
and to buy the long lead material that we need. Towards the end 
of the year, we are going to achieve the milestones CD 2 and 3, 
which will establish the performance baseline and that will 
allow us to start construction, which will include the pre--the 
structural steel, as well as the concrete for the foundation. 
So we are on track, sir, and that is largely due to the great 
support from this subcommittee and I thank you.
    Mr. Simpson. Thank you. The ATR, aging reactor, how 
important that is in the Navy and do you foresee the Navy 
reactor's continued use, a need for the ATR, and its research 
and development needs in the future?
    Admiral Caldwell. Yes, sir, the ATR, the advanced test 
reactor, on the Idaho National Lab, it is essential, it is 
vital to the Naval Reactors Program. It allows us to take 
samples of materials that we are considering for future 
reactors and expose it to a neutron flux, and to see how those 
materials are going to perform. And then we can run it through 
cycles and we can take that material out, take a look at it, 
see how it is performing, and then put it back in the reactor 
and run it through additional cycles. That advanced test 
reactor has allowed us to develop fuel systems that have longer 
lives.
    In fact, all of the submarines we are building today have 
life-of-the-ship cores. The Ford aircraft carrier has a 25-year 
core, so that ship will be refueled once in her life. And it 
has allowed us to develop the core for Columbia, which will be 
also a life-of-the-ship core over 40 years. We could not have 
done that without the advanced test reactor. So, we have used 
it throughout the life of the program and we will continue to 
use it, and we will continue to support efforts to sustain that 
program and to extend the service life, if possible, or to 
recapitalize that effort if we need to.
    Mr. Simpson. Thank you. For the members that haven't seen 
it, you need to see how they have to refuel one of these 
submarines or one of these aircraft carriers. It is not like 
you take the fuel rods and put them under your arm and walk 
out, and grab more and put them in and lock. It is a huge, huge 
cost to refuel one of these things. And I suspect that being 
life-of-the-ship reactors is a huge cost savings to the 
operations of that ship in the long run.
    Admiral Caldwell. That is correct, sir. And it is, as in 
the case of the Columbia class, it has allowed us to do the 
mission with 12 submarines versus 14. And we are estimating a 
savings of about $40 billion total ownership over the life of 
that class of submarines, so, that is very important to the 
Nation.
    Mr. Simpson. Thank you. I want to get into one other 
subject, Administrator. Last summer, the GAO published a report 
that said the NNSA's nuclear modernization programs were 
already at high risk of delays and cost increases, and that was 
before the NPR and the announcement of additional modernization 
programs. The outgoing NNSA Administrator said in January, and 
I quote, ``We are pretty much at capacity in terms of people, 
although we are hiring more. We are pretty much at capacity in 
terms of the materials that we need to do this work, and pretty 
much at capacity in terms of the hours in the day at our 
facilities to do the work.''
    Can the NNSA afford the scope of its current modernization 
programs within existing budgetary targets? And, if not, does 
the stockpile plan identify all additional needed resources? 
And if the funding needs are not met, how would this affect the 
agency's overall modernization schedule? And will future 
modernization plans continue to include the estimates of the 
projected budget for the program to provide the assurance that 
the NNSA's programs are aligned with budgetary plans?
    Ms. Gordon-Hagerty. Mr. Chairman, our plans are based on 
sustained and reliable funding. And we believe that consistent 
with the sustained and reliable long-term funding provided by 
Congress, we will be able to ensure that the requirements set 
forth by the Nuclear Weapons Council are executed. And so, in a 
nutshell, it is really about reliable and sustained funding, 
making sure that we modernize our infrastructure, we ensure 
that we have the necessary workforce now and in the future to 
be able to execute those missions.
    As General Klotz correctly pointed out, we are at a 
heightened state. We haven't seen this amount of activity for 
many, many years, in fact, decades. However, we believe that 
working closely with our partners in the field offices, plants, 
laboratories, and at our sites, we can develop the requirements 
in the path forward to ensure that we execute the missions 
outlined by the Nuclear Weapons Council.
    Mr. Calbos, anything else that you might want to add, if I 
may, Mr. Chairman? Thank you.
    Mr. Calbos. Ma'am, I think that captures it. As you look at 
the workflow, it has grown enormously over the last couple of 
years and we are continuing to execute. While we are stretched, 
we are still addressing all the efforts we need to address 
right now. As you look at the projected funding requirements, 
you know, we have a document that lays out the next 25 years as 
we currently understand it. Every year we update that. It is a 
Stockpile Stewardship Management Plan; we update that. This 
year's version will reflect changes coming from the NPR, and to 
the extent that we achieve support for those programs, we can 
execute.
    Mr. Simpson. If the two LEPs were working on the B61 and 
the W88, there is talk that, originally, the B61 was going to 
be at $8 billion; looks like $10 billion is more accurate now, 
and probably a 2-year extension of how long it is going to be 
before that is finished, at least that is the rumors that are 
out there. If we add additional work due to the Nuclear Posture 
Review with the two new weapons that they are talking about, 
what does that do to your overall schedule of the life 
extension programs for these if we are already at capacity? I 
guess what I am asking is how is this going to fit in with the 
capacity that we currently have or is that going to have to 
expand?
    Mr. Calbos. Congressman Simpson, thank you. First of all, 
we have not adjusted our cost or our schedule. There are other 
estimates out there; it is not new. We have our own internal 
organization which provides an independent cost assessment, and 
there is goodness in that. They identify risks, and our job is 
to work through those risks and make sure that they don't 
materialize. So, the $2 billion increase and 2-year slip is not 
something that we in the program agree with right now.
    As a former Deputy Administrator said when she looked at 
me, she said your job is to make sure that does not happen; and 
right now we are making sure that does not happen. It doesn't 
mean there is not risk in the program. There is absolute risk 
in the program, and every day we are working with the labs and 
the plants to burn off that risk so that we can deliver the 
B61-12 on the schedule that DOD and STRATCOM expect of us.
    With respect to do we have the ability to take on 
additional work as directed by the NPR, when you look at what 
is in there in terms of new initiatives, specifically the low-
yield ballistic missile, relatively speaking, that is a 
moderate level of effort--again, relatively speaking--and a 
moderate cost. And we believe where we can fit it in in the 
near term--and we can have a more detailed discussion, Ms. 
Kaptur, ask for more detailed discussion about NPR 
requirements, we can do that in a smaller setting.
    And then, additionally, the sea-launched cruise missile, 
that would happen farther to the right. So, we believe we can 
fit those in under the current program.
    Mr. Simpson. Thank you. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I just wanted to 
mention Congressman Joyce has left, but he and I both represent 
a heavy industrial region of the country. And just for your 
information, as the Department moves forward, we represent a 
region that has many firms that have high capacity in the areas 
of strategic metals, including beryllium, titanium, magnesium, 
aluminum, all the V-Ms. So, I just thought I would put that on 
the record.
    We have no Department of Energy research lab, Oak Ridge and 
Idaho are much more famous than we are, but we do have some 
amazing capabilities in our region. So, I just wanted to invite 
you there some time. We can't get a nuclear sub Admiral up to 
Great Lakes on the St. Lawrence Seaway. We have tried to figure 
out how to do that. But, in any case, we have people serving in 
our Navy and our nuclear Navy, and there is even an Ohio class, 
of course, some of our subs, so we are pretty proud of that. 
There is actually a Toledo that is out there somewhere. It 
might be being rehabilitated at the moment, I am not sure; but, 
in any case, I just wanted to put that on the record.
    Now, let's see here. On Nuclear Posture Review, I would 
like to go back to this. We need to understand the fiscal 
impact of these proposals before we start down the pathway of 
implementing them and we will appreciate a further briefing, at 
your convenience. Does the NNSA plan to use fiscal year 2018 
funds to advance either of the proposed capabilities in the 
Nuclear Posture Review? And, if so, could you state those 
capabilities, those activities?
    Ms. Gordon-Hagerty. Congresswoman Kaptur, we are currently 
looking at and evaluating what resources might be applicable in 
the fiscal year 2019 budget request. However, we are leaning as 
far forward as possible to be able to ensure that the Nuclear 
Posture Review strategy is taken, and the requirements are 
derived by the Nuclear Weapons Council, at which point we will 
decide how we can best utilize funding. We do not have any 
resources committed in the fiscal year 2019 budget request. 
However, we are leaning as far forward as we possibly can, 
working with OMB and DOD.
    As you may be aware, we require Congressional authorization 
to go into engineering phase 6.3 or higher in order to be able 
to conduct any types of additional requirements based on the 
low-yield ballistic missile requirements.
    Ms. Kaptur. There was no funding in the fiscal year 2018 
budget, either. And did I hear you correctly, none yet in the 
2019?
    Ms. Gordon-Hagerty. Our funding requirements, based on the 
fiscal year 2019 budget request was as a result of a program of 
record, and as evaluated by and directed by the Nuclear Weapons 
Council, so there are no resources available for that because 
the program of record is what is being funded and not the new 
requirements that are laid out in the Nuclear Posture Review.
    Ms. Kaptur. Mr. Calbos, is that fair?
    Mr. Calbos. Yes, ma'am, that is fair. As the Administrator 
stated, we are working with DOD and the Office of Management 
and Budget. This is all kind of evolving in real time. Both the 
NPR and the budget closed down at the end of the calendar year, 
plus or minus, and to the extent that we can do work in 2019, 
that would be beneficial. But, as Ms. Gordon-Hagerty said, we 
cannot go into engineering development without explicit 
congressional authorization, so.
    Ms. Kaptur. Very good. And I think when you come and meet 
with us privately, I think that would be a very good topic to 
address as well.
    On the B83 gravity bomb, the Department of Defense and 
Energy committed to Congress in 2013 that the B83 would be 
retired and you may be aware that it was part of a larger deal 
to allow the NNSA to move forward with the B61-12 life 
extension project. However, the NPR proposes to keep the B83 
around indefinitely, so, that is a change I think we would see 
as a change in posture. What has changed militarily since 2013 
to require keeping this bomb in the stockpile? And how long 
does the administration intend to keep the B83 around, and are 
we looking at extending the life of the B83?
    Ms. Gordon-Hagerty. Congresswoman Kaptur, I guess I would 
defer to my Department of Defense colleagues in terms of what 
their DOD requirements are, which they have informed us that we 
will retain the B83 in the nuclear weapons stockpile until a 
suitable replacement can be found. So, I would defer to the 
Department of Defense.
    Ms. Kaptur. Alright thank you. I think, Mr. Chairman, I 
will submit my other questions for the record.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. While we have 
been sitting here, I went back and pulled the Nuclear Posture 
Review and read the nonproliferation section. So, it is 2\1/2\ 
pages, very well written. It is a lofty visionary-type goal.
    Again, without specifics, and this isn't the vehicle 
necessary to lay down specifics, but I think we need to return 
to this. There is an interagency review, an interagency working 
group without a timeline, with something that has been some 
culture of a scent that is pushed by the National Security 
Council from what I am gleaning from your comments.
    Madame Administrator, you have referenced the Nuclear 
Weapons Council several times. And, again, I represent 
Strategic Command. I have dialogued with the commanders of that 
very important part of our military infrastructure for years 
about how, if we are to have a reliable nuclear deterrence, we 
have to ensure that these weapons are reliable. And if that is 
not assured, then their purpose, the deterrent effect, is 
diminished. Therefore, we are investing, per the Nuclear 
Posture Review, as well as the intention of Congress, many, 
many billions of dollars to upgrade our weapons systems.
    What I am trying to impress upon you all is there has got 
to be a parallel element here rather than a lofty sentiment 
about what we are going to do with the 21st century 
architecture for nonproliferation, and I need to become 
convinced; and I need to be in partnership with you to make 
sure that we are exploring every avenue that is open to us to 
prevent civilization from blowing itself up. This is the 
reality of what we are facing.
    And so, again, back to the Nuclear Weapons Council, which 
is a decided body, interagency body, with experts on it, who 
have created the preconditions for Congress to be able to 
consider this modernization piece. Why don't we have a parallel 
effort in the nonproliferation space? Because right now it 
appears to me, the leadership thereof, appears to be vague 
about the intention because, frankly, it is easier for us to 
get our mind and heart and technology around building things. 
It is harder in this art of diplomacy and art of politics and 
art of geopolitical space where there are really bad actors 
with ill intention to create conditions which are measurable. 
But that doesn't mean that we should avoid it--not that you are 
avoiding it--but we do, from my perspective, need to elevate 
this.
    So, let me propose to you right now, these hearings--we are 
on Appropriations--these hearings are generally about these 
various spaces of line items that are either of parochial 
interest or broader national security issues about what we are 
spending, what we are not. I would rather go a little bit 
deeper and press you upon this issue of whether or not we have 
aligned with specifics this greater goal of using our nuclear 
posture for nuclear deterrence in nonproliferation.
    Ms. Gordon-Hagerty. Representative Fortenberry, I can't 
argue with a thing you have said, and I agree wholeheartedly 
with what you are stating. What I would like to do is offer to 
you--put together a team from the interagency, as much as that 
is possible, and provide you with a more robust briefing, if 
you will, an awareness of what actually is going on in the 
nonproliferation space. Obviously, the technical expertise 
resident in the Department of Energy and NNSA is really where 
we provide the robust support to that.
    But in terms of diplomacy, defense activities, the 
intelligence community, and all of those others that are 
factors in the interagency process, I will offer to you, that 
if appropriate, I would be happy to find out more, bring those 
personnel, my counterparts with me to brief you, which is 
absolutely appropriate. If that works for you.
    Mr. Fortenberry. Yeah, why don't we start there? But, 
again, the first thing you have to do if you are interested in 
this space is start to try to figure out what the government 
spends and where.
    Again, back to the issue--the problem, potentially, of 
fragmentation. Maybe we are fine, maybe we are doing everything 
we can, but to elevate my assurance and the American people's 
assurance, as well as the citizens of this world who are 
depending upon us to get this right, to elevate their assurance 
that we are doing everything we can to create the possibility 
of a new framework for international dialogue in this regard, I 
think the mission of that lands to a degree here, even though, 
as you correctly defined your role as being more technical, but 
the technical aspects of it are not going to get us necessarily 
to the art of diplomacy unless we are pushing this through the 
means that we have, and I think this is absolutely critical.
    Now, in this regard as well, the international agency, the 
IAEA, the International Atomic Energy Agency, has, again, 
shifted its mission from a traditional one of security, safety, 
if you will, to verification. We, you, are playing a critical 
role in this regard as well.
    I want to hear, Mr. Chairman, if you will allow me a few 
more moments, some understanding of culturally what is 
happening inside your agency in terms of this shift of mission 
of the IAEA because I think this is critically important to 
this deeper question as well.
    Ms. Gordon-Hagerty. Absolutely, and thank you. 
Representative Fortenberry, I can give you one example of where 
we are working very closely with the IAEA, as well as with 
State Department, and that is for the implementation of JCPOA 
with Iran. We are actually providing the technical expertise to 
the IAEA in training all of the inspectors to ensure that Iran 
complies with the JCPOA. So, we are playing very close, and we 
have a very close and robust relationship with the IAEA in this 
regard. And, of course, that's an inspection, but I guess, 
Dave, who has been doing this far longer than I have, if Mr. 
Huizenga could give you some other areas in how he would 
describe our current relationship with the IAEA.
    Mr. Fortenberry. And briefly, as a part of that, describe 
the International Partnership for Nuclear Disarmament 
Verification?
    Mr. Huizenga. Thank you.
    Mr. Fortenberry. Is that embedded in the IAEA?
    Mr. Huizenga. Not in the IAEA, no.
    Mr. Fortenberry. There is a glancing reference to it in the 
Nuclear Posture Review.
    Mr. Huizenga. Yeah, but we have a close partnership with 
the IAEA, as you have indicated. We work with them on safeguard 
training. All of the IAEA inspectors have been trained at the 
Los Alamos Laboratory to make sure that they know what they are 
looking for when they go out there in the field. We have 
supported them in nuclear security for decades now, so, they 
have a verification and safeguards role in nuclear security, 
and their safety role, of course, in that regard as well. So, 
we have a very active cooperation with IAEA.
    I guess I would like to just come back--I am not trying to 
dodge your question. I want to make sure you don't think----
    Mr. Fortenberry. You do understand my intent. I am pressing 
you for some substance.
    Mr. Huizenga. I do, and I want to make sure that you know 
that I care because, I mean, I am not giving you a date. We are 
regularly churning out policy papers that then drive us to go 
do things, to go off in a certain direction and work with a 
country to try to help them secure their material or maybe 
remove their materials to a more secure location.
    You know, we continue to convert reactors. We worked with 
the IAEA to convert the reactor in Ghana, recently. We are in 
the process of working to convert the reactor in Nigeria, and 
this is in a partnership with the Chinese, who shipped these 
reactors out there in the past. So, it is a whole of government 
here and working with the IAEA and foreign partners, as well.
    So, while we are working on policy papers to make sure that 
we are going in the right direction in addressing these issues, 
we are actually doing things. So, we are converting reactors, 
removing hundreds of kgs of HEU and plutonium, working with 
you--I know on the Rad Safe bill, to work on eliminating the 
possibility of a dirty bomb being used. So, there is a lot of 
activity going on. In addition to the fact that we have a huge 
challenge, Mr. Chairman, I take that responsibility very 
seriously, but we are not just working on paper, we are 
actually out there doing work as well.
    Mr. Fortenberry. OK. I think my time has expired, but, 
Madam Secretary, I will take you up on your kind offer, and if 
we can get to actually start the process of scheduling--maybe 
right after this hearing--that would be helpful. Thank you, Mr. 
Chairman.
    Mr. Simpson. If you haven't figured it out, every member of 
this committee has a different interest too, and a different 
priority, and stuff, and Mr. Fortenberry's has always been in 
nonproliferation. Thank you for that interest and your delving 
into it at some length, we appreciate that, and the committee 
appreciates it.
    Just a couple of quick questions. Madam Administrator, the 
budget request proposes a decrease of $104 million or 20 
percent for the scientific research on ignition and the 
experimental facilities that support that goal, including the 
National Ignition Facility, Omega Laboratory for LASER 
Energetics, and the Nike LASER at the Naval Research 
Laboratory. Though the NNSA constructed the National Ignition 
Facility, achieving ignition has so far been elusive. What are 
the prospects of achieving ignition at NIF, and are their other 
uses for these experimental facilities if ignition cannot be 
achieved? And are you proposing to shut down any facility? And 
what are your plans for experimental programs in this budget 
request?
    Ms. Gordon-Hagerty. Thank you, Mr. Chairman.
    We have a number of requests. Obviously, there are always 
more funding priorities than there is funding. So, we have had 
to make due with the amounts of the resources that we have 
requested, and part of those have to do with near term 
stockpile requirements for assessment and certification. Part 
of that is ICF and the three programs that fall under ICF: NIF 
at Livermore, Z at Sandia, and the Omega LASER Facility at 
University of Rochester. We have determined that for our long-
term stockpile assessment and certification that we can wind 
down some of these programs, but most assuredly, we will 
continue to use the ICF program to administer certain features 
because these are part and parcel of our certification process. 
They are critical to ensuring the safe, secure, and reliable 
stockpile, both through the assessment and the annual 
certification that the three laboratory directors provide to 
the President.
    Mr. Simpson. So there is no proposal to close any of these 
three facilities?
    Ms. Gordon-Hagerty. At the present time we are planning for 
the Omega LASER facility at the University of Rochester to wind 
down over the next 3 years, our requirements for that user 
facility, but we are not planning to shut it down. We are just 
pulling away from our requirements based on what our stockpile 
requirements are for LASER activities.
    Mr. Simpson. Thank you. And Admiral Caldwell, your budget 
request for the general infrastructure. We talked about the 
recapitalization in Idaho, but for the Office of Naval Reactor, 
your general infrastructure is for $76 million, or 17 percent 
above 2017. Could you please outline the status of the Naval 
Reactor's infrastructure?
    Admiral Caldwell. Yes, sir. There is an increase in the 
Naval operations and infrastructure budget to the tune of about 
$60 million over the last budget request. That funds a couple 
of important things for me.
    One is the recapitalization of key laboratory facilities. 
These are the facilities that allow us to do the research and 
analyze, you know, problems and issues that not only support 
today's fleet, but also enable the future fleet. So that is in 
there.
    The other thing that is in there is a commitment to go 
increase our efforts in decontamination and decommissioning, 
D&D. I have environmental liabilities that I am responsible for 
and my team and I have set an aggressive goal to take a bigger 
cut out of these. So, the budget request is going to allow me 
to step up my efforts in D&D and retire some of these legacy 
liabilities.
    Mr. Simpson. Ms. Kaptur, do you have----
    Ms. Kaptur. Mr. Chairman, I appreciate that. I remembered 
something that I do want to place on the record because we have 
such a distinguished panel before us.
    Mr. Calbos mentioned workforce issues. Admiral, I happen to 
represent a company that makes quite a bit of the innards of 
the Harpoon missile, which is not nuclear, but anyway. When we 
look around our country at the talents that it takes, 
industrial companies to make these things happen, it is a 
highly skilled workforce. Unfortunately, one of the companies I 
represent, Teledyne, has relocated a lot of its production to 
Alabama for different reasons. I represent a workforce at 
Teledyne in Toledo that has, like, been shrunk and shrunk and 
shrunk.
    As you increase your budget, which I think will happen, I 
don't know how you look at skilled workforce across the 
Department of Energy, but truly this workforce doesn't deserve 
to be outsourced or moved. They actually need to be kept 
because they are a National asset.
    So, you are not the Department of Labor and you have a very 
refined responsibility for this society, but I always speak for 
our workers. If there is any way I could draw attention to a 
workforce like this, if they could be retooled, if they could 
be--can't we do this as a country? Though this is not your job, 
when we look at what has happened in the mining areas of the 
United States as the energy world shifted, we have left 
casualties across that battlefield. We are not smart enough as 
a country to figure out how to connect the Department of Labor 
to the Department of Energy, to the Department of Defense, to 
all these things that happen to the American people. It is part 
of the reason that they are sort of uneasy right now.
    So, I would just encourage you with all of your massive 
responsibilities--I don't know who you could talk to. Dan 
Verlay is a pretty good guy. I have enjoyed working with him. 
But this is an area where I guess I really feel I am not doing 
my job as a congresswoman. These people do not deserve to be 
forgotten by our country or because of some ridiculous 
contracting procedure that we would lose these skills. I think 
that still is the best missile of the U.S. Navy, is it not, 
Admiral? Am I wrong, it is the most reliable?
    Admiral Caldwell. It is certainly a very good missile and 
something we depend on. Just to comment on your statements, the 
National industrial base is essential to all the things that we 
work on around this table. The National Defense Strategy even 
talks about that, the importance of that. I think we all work 
on this on a daily basis, on individual products when we look 
and work with our partners in industry, to encourage them to 
develop their people, to sustain their workforce. So, even 
though, as you said, there may not be a global effort here, 
these efforts go on, on a daily basis at various parts of the 
Department of Defense and Department of Energy.
    Ms. Kaptur. I can guarantee you that within 350 miles of 
the home in which I live, the majority of the machine tool 
industry of this country is housed. So, I do think when you 
mention the defense industrial base issue, I really do view 
this as a critical part of what we are able to do as a society. 
I just appreciate you listening. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. And thank you all for being here 
today. Administrator Gordon-Hagerty, congratulations on your 
first completion before the Appropriations Committee. Well 
done. Congratulations on your new appointment. Thank you. 
Reading your bio, I am sure you did not come to this job for 
the money. So, thank you for your service.
    And, Admiral, every time I think this world is going to 
hell in a handbasket and the younger generation just doesn't 
get it, which I am sure my father thought about my generation, 
et cetera, et cetera, et cetera, all I have to do is go out and 
look at the great men and women in the service in our military 
and my faith is restored in the future of this country is in 
good hands. So, thank you for your service and everything that 
you all do.
    Admiral Caldwell. Thank you, sir.
    Mr. Simpson. Thank you. The hearing is closed.
                              ----------                              

    [Clerk's note]: The National Security Administration did 
not provide answers to submitted questions in time for 
inclusion in the record. Answers to submitted questions are on 
file with the subcommittee.

                                  <all>
</pre></body></html>
